<html>
<title> - CRUISE SHIP SAFETY: EXAMINING POTENTIAL STEPS FOR KEEPING AMERICANS SAFE AT SEA</title>
<body><pre>[Senate Hearing 110-1223]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 110-1223
 
  CRUISE SHIP SAFETY: EXAMINING POTENTIAL STEPS FOR KEEPING AMERICANS 
                              SAFE AT SEA

=======================================================================


                                HEARING

                               before the

                 SUBCOMMITTEE ON SURFACE TRANSPORTATION

                  AND MERCHANT MARINE INFRASTRUCTURE,

                          SAFETY, AND SECURITY

                                 OF THE

                         COMMITTEE ON COMMERCE,

                      SCIENCE, AND TRANSPORTATION

                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 19, 2008

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation





                  U.S. GOVERNMENT PRINTING OFFICE
80-392                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                   DANIEL K. INOUYE, Hawaii, Chairman
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska, Vice Chairman
    Virginia                         JOHN McCAIN, Arizona
JOHN F. KERRY, Massachusetts         KAY BAILEY HUTCHISON, Texas
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            GORDON H. SMITH, Oregon
BILL NELSON, Florida                 JOHN ENSIGN, Nevada
MARIA CANTWELL, Washington           JOHN E. SUNUNU, New Hampshire
FRANK R. LAUTENBERG, New Jersey      JIM DeMINT, South Carolina
MARK PRYOR, Arkansas                 DAVID VITTER, Louisiana
THOMAS R. CARPER, Delaware           JOHN THUNE, South Dakota
CLAIRE McCASKILL, Missouri           ROGER F. WICKER, Mississippi
AMY KLOBUCHAR, Minnesota
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
Lila Harper Helms, Democratic Deputy Staff Director and Policy Director
   Christine D. Kurth, Republican Staff Director and General Counsel
                  Paul Nagle, Republican Chief Counsel
                                 ------                                

      SUBCOMMITTEE ON SURFACE TRANSPORTATION AND MERCHANT MARINE 
                  INFRASTRUCTURE, SAFETY, AND SECURITY

FRANK R. LAUTENBERG, New Jersey,     GORDON H. SMITH, Oregon, Ranking
    Chairman                         JOHN McCAIN, Arizona
JOHN D. ROCKEFELLER IV, West         KAY BAILEY HUTCHISON, Texas
    Virginia                         OLYMPIA J. SNOWE, Maine
JOHN F. KERRY, Massachusetts         JIM DeMINT, South Carolina
BYRON L. DORGAN, North Dakota        DAVID VITTER, Louisiana
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
MARK PRYOR, Arkansas                 ROGER F. WICKER, Mississippi
THOMAS R. CARPER, Delaware
CLAIRE McCASKILL, Missouri
AMY KLOBUCHAR, Minnesota
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 19, 2008....................................     1
Statement of Senator Carper......................................     4
Statement of Senator Kerry.......................................     2
Statement of Senator Lautenberg..................................     1

                               Witnesses

Carver, Kendall, President, International Cruise Victims 
  Association, Inc...............................................     5
    Prepared statement...........................................     8
Dale, Terry, President and CEO, Cruise Lines International 
  Association (CLIA), accompanied by James Alan Fox, Ph.D........    19
    Prepared statement...........................................    21
Fortier, Evelyn, Vice President, Policy, Rape, Abuse and Incest 
  National Network (RAINN).......................................    11
    Prepared statement...........................................    14
Fox, Ph.D., James Alan, Lipman Family Professor of Criminal 
  Justice at Northeastern University, Visiting Fellow, U.S. 
  Department of Justice, Bureau of Justice Statistics............    46
Klein, Ph.D., Ross A., Professor of Social Work, Memorial 
  University of Newfoundland.....................................    32
    Prepared statement...........................................    35

                                Appendix

Coarsey, Carolyn V., Ph.D., Co-Founder, Family Assistance 
  Foundation, Atlanta, Georgia, prepared statement...............    62
Letter, dated June 16, 2008, from Donna K. Esposito, MCC, 
  President, NACOA to Hon. Frank R. Lautenberg...................    76
Letter, dated June 18, 2008, from William Connors, Executive 
  Director and COO, National Business Travel Association to Hon. 
  Frank Lautenberg and Hon. Gordon Smith.........................    77
Letter, dated June 18, 2008, from Cheryl Corey, Hudak, CTC, 
  President, American Society of Travel Agents to Hon. Frank R. 
  Lautenberg and Hon. Gordon H. Smith............................    75
Letter, dated June 18, 2008, from Roger Dow, President and CEO, 
  Travel Industry Association to Hon. Frank Lautenberg and Hon. 
  Gordon Smith...................................................    74
Letter, dated June 18, 2008, from Steve Tracas, President and 
  CEO, Vacation.com to Hon. Frank Lautenberg and Hon. Gordon 
  Smith..........................................................    76
Letter, dated June 19, 2008, from Michelle Fee, CTC, CEO, Cruise 
  Planners to Hon. Frank Lautenberg and Hon. Gordon Smith........    78
Letter, dated June 19, 2008, from Kenneth McLean, Director and 
  CEO, Bahamas Maritime Authority to Hon. Frank Lautenberg and 
  Hon. Gordon Smith..............................................    79
Letter, dated June 19, 2008, from Kurt A. Nagle, President, 
  American Association of Port Authorities to Hon. Frank 
  Lautenberg.....................................................    78
Letter, dated June 19, 2008, from Robert C. Powers, Assistant 
  Director, Office of Congressional Affairs, Federal Bureau of 
  Investigation to Hon. Frank R. Lautenberg......................    64
Response to written questions submitted by Hon. Maria Cantwell 
  to:
    Terry Dale...................................................    70
Response to written questions submitted by Hon. Frank R. 
  Lautenberg to:
    Terry Dale...................................................    67
    Daniel D. Roberts............................................    65
Roberts, Daniel D., Deputy Assistant Director, Federal Bureau of 
  Investigation, prepared statement..............................    61


                CRUISE SHIP SAFETY: EXAMINING POTENTIAL



                STEPS FOR KEEPING AMERICANS SAFE AT SEA

                              ----------                              


                        THURSDAY, JUNE 19, 2008

                               U.S. Senate,
Subcommittee on Surface Transportation and Merchant 
       Marine Infrastructure, Safety, and Security,
         Committee on Commerce, Science and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:05 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Frank R. 
Lautenberg, Chairman of the Subcommittee, presiding.

        OPENING STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. Thank you very much for joining us on 
the Subcommittee on Surface Transportation, Merchant Marine 
Infrastructure, Safety, and Security.
    This hearing is going to be on cruise ship safety. And 
Senator John Kerry, who is on his way, will be joining us. I 
thought that I would get the process started, and so I have 
wrested the chairmanship back, and we'll go on for a while. Now 
I'm told that Senator Kerry is going to be here shortly. But I 
will make my opening statement and, depending on Senator 
Kerry's arrival, we'll perhaps start with the statements from 
the witnesses, as well. I thank you all for being here.
    Cruises are supposed to be dream vacations, but for too 
many families these dreams turn into nightmares. Over the past 
few years we have heard a rising tide of reports about 
incidents on cruise ships. These incidents range from claims of 
sexual assault and rape to passengers who go missing at sea.
    One of the victims was a resident of Pine Hills, New 
Jersey, and her tragedy occurred on Mother's Day of this year. 
Her name was Mindy Jordan, and she was looking forward to a 
relaxing vacation in Bermuda and, instead, she disappeared on 
the Atlantic Ocean. When her family tried desperately to find 
out what happened to her, the cruise line referred them, would 
you believe, to the claims department. In the words of Mindy's 
cousin Emily, who is here with us today, it's as if she was a 
piece of luggage. The investigation into Mindy's disappearance 
is ongoing; and in the meantime, Mindy Jordan's two children 
are left without their mother.
    And I want to be clear, the way Mindy's family was treated 
is horrible. It's unacceptable. It's difficult to even get 
basic data on what types of crimes occur at sea, and how often 
they happen. And if parents want to take their family to the 
Jersey shore or Disney World, but want information about public 
safety, they can either get it online or call the local 
authorities and they'll get what they need. But, if parents 
want to take their family on a cruise, there is nowhere to get 
public safety information.
    Now, this Subcommittee had a hard time getting this data 
from the FBI. And if the Senate Committee that oversees 
maritime safety and security has a hard time getting that 
information, imagine the frustration of an American family 
trying to plan a trip.
    One problem is that almost no cruise ships fly an American 
flag. Instead, they fly flags of convenience from other 
nations. But, because these cruise ships are registered in 
foreign countries, our government cannot investigate certain 
incidents at sea, and it cannot require cruise lines to report 
on some crimes. These ships dock at our ports. We need to use 
every tool at our disposal to provide the greatest level of 
safety and security for them. I hope that we can use this 
hearing to discuss proposals to achieve that level of safety.
    The Government needs to act to ensure that American 
families on cruises are safe. I look forward to hearing the 
opinions of our witnesses.
    We're joined by Senator Kerry, who's going to chair this 
hearing. I thank him for his leadership and interest in this 
important issue.
    Senator Kerry?

               STATEMENT OF HON. JOHN F. KERRY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Kerry [presiding]. Thank you, Senator Lautenberg. 
Thanks a lot for kicking this off. And I apologize for being a 
moment late.
    I appreciate your leadership, and I appreciate the 
opportunity to chair the Subcommittee for this particular 
hearing. And I'm grateful for the comments that you just made, 
which are important.
    In 2008 alone, it's estimated that about 12.6 million 
Americans will board a cruise ship from United States ports. 
Roughly 300 cruise ships are in service worldwide, and there 
are plans, apparently, to add another 22 that will service 
North America over the course of the next several years.
    What we want to do today is take a closer look at the 
safety situation that exists with respect to those ships--I'm 
not talking about the safety with respect to the seaworthiness 
of the ships, but safety with respect to the passengers aboard 
them--and whether or not there is a need for the Congress to 
take additional steps to secure American passengers onboard 
these ships.
    I particularly want to thank one of our witnesses this 
morning, Mr. Kendall Carver, who has been vigilant in his 
efforts to improve safety abroad cruise ships worldwide, and 
who has done so under very difficult personal circumstances.
    Four years ago, Mr. Carver's daughter, Merrian, who was a 
constituent of mine--which is how I became aware of this issue 
and interested in it--was living in Cambridge, Massachusetts, 
and she went missing in the summer of 2004, leaving her father 
and the rest of her family to pick up the pieces after her 
disappearance. And I might say that the circumstances which he 
and his family were put through were really quite extraordinary 
and quite disturbing.
    Three weeks after anyone had last heard from Merrian, Mr. 
Carver contacted the cruise line for which she had purchased a 
ticket. And what he was told was, frankly, quite shocking. The 
cruise line was unsure as to whether Merrian had ever 
disembarked from the ship. He was told that the cruise line had 
been aware of the fact that she had not slept in her room after 
the second night of the cruise, and that most of her 
belongings, which had remained onboard after the ship had 
docked, had been given to charity. Most shocking to Mr. Carver 
was the fact that the cruise line had not notified law 
enforcement authorities about Merrian's disappearance. Three 
weeks following the ship's return, the FBI remained unaware of 
the fact that Merrian was unaccounted for.
    As Mr. Carver will describe in his testimony, her story is, 
regrettably, not an isolated case. Despite being owned by 
American citizens and headquartered in the United States, 
cruise ships operate under foreign flags, allowing them to 
avoid United States law when they're beyond U.S. territorial 
waters. With respect to jurisdiction over crimes, the law is 
murky at best. To many observers, these circumstances have 
created an ideal destination, if you will, for prospective 
criminals.
    We'll hear from our witnesses today as to efforts that have 
been made by the industry to improve safety and reporting 
standards. Under current law, cruise lines are under no 
obligation to report a crime that occurs outside U.S. 
territorial waters, even when the crime involves an American 
citizen.
    Now, I do recognize, and the record needs to show, that a 
voluntary agreement has been reached between the FBI, the Coast 
Guard, and the cruise ship industry. But, I have to tell you--
and I think Senator Lautenberg's comments about the sort of 
transparency of this information sort of underscored--that it 
may be appropriate to be somewhat wary of a voluntary agreement 
that has an industry reporting on incidents that have the 
potential of actually damaging the reputation or deterring 
people from doing the very thing that the industry wants, which 
is coming onboard their ships, going on a cruise.
    So, I think, you know, the wariness or, caution of the 
Committee in accepting that as adequate is underscored by the 
fact, already referred to by Senator Lautenberg, that under 
this agreement we found it difficult to get easy access to the 
information that was available from the FBI. Now, I'm not sure 
how much transparency there is if the Chair of the U.S. Senate 
Subcommittee with jurisdiction over this issue has difficulty 
in accessing that information.
    It's clear that the cruise industry has taken steps to meet 
with the victims and the survivors of victims, and I hope that 
the many recommendations that have been made as to how to 
improve security are going to be fully implemented.
    So, I look forward, today, to hearing from our witnesses as 
to how we provide a sort of lead-pipe guarantee to people, and 
how we have a structure in place where nobody has any questions 
about this, where there's no uncertainty, where there's no 
murkiness and everybody is confident that we have put in place 
best practices as to how American citizens ought to be 
protected, and, frankly, how an industry ought to act in 
everybody's best interests.
    I've been working with Congresswoman Matsui, who is deeply 
invested in this issue, to craft legislation that will be 
introduced later this month in both the House and the Senate, 
and we want this to be thoughtful legislation. We're not 
seeking to do injury to anybody; we just want to be smart and 
thoughtful about how we establish a credible structure, where 
there is a very clear legal uncertainty as a consequence of 
jurisdictional issues and flag issues.
    The legislation will seek to improve safety and reporting 
standards within the industry, and it will ensure that cruise 
ships have the ability and the expertise to properly preserve 
evidence when crimes do occur.
    I'm a former prosecutor and I very much understand the 
difficulties of gathering evidence. I have prosecuted rape 
cases, sexual assault cases. I know how complicated that can 
be. And if you have untrained personnel, who don't properly 
gather fresh, immediate evidence, you often wind up with a case 
where a victim is twice victimized, once obviously by the 
crime, and, the second time, the system that's supposed to 
prosecute it. So, I want to make sure that we have sufficient 
efforts.
    I'm watching the ongoing efforts to pass legislation in 
California which would require independent Ocean Rangers to be 
placed onboard cruise ships, and I'm considering whether or not 
that would be appropriate to be administered at the Federal 
level.
    So, I hope this hearing will be helpful, frankly, for all 
of us, in trying to fashion the most effective response.
    Our witnesses are Kendall Carver, president of the 
International Cruise Victims Association----

              STATEMENT OF HON. THOMAS R. CARPER, 
                   U.S. SENATOR FROM DELAWARE

    Senator Carper. Mr. Chairman?
    Senator Kerry. Oh, yes, Senator.
    Senator Carper. Could I just make a brief statement?
    Senator Kerry. Absolutely. I'll come back to you. Let me 
just introduce the panel.
    Senator Carper. Thanks very much.
    Senator Kerry. Mr. Carver has been working consistently to 
improve cruise safety standards. Evelyn Fortier, the vice 
president of policy at the Rape, Abuse, and Incest National 
Network, RAINN, the Nation's anti-sexual-assault organization, 
and she's worked extensively on crime legislation as a long-
time Senate staffer, and is a former constituent, having lived 
in Brookline, Massachusetts. Terry Dale is President and CEO of 
Cruise Lines International Association. We appreciate you being 
here today. And Dr. Ross Klein is professor of social work at 
Memorial University of Newfoundland, and has written 
extensively on the cruise industry. So, we're grateful to all 
of you for being here.
    Senator Carper?
    Senator Carper. Thank you, Mr. Chairman.
    You know, this is not an issue that I've thought a lot 
about, and perhaps others in our panel have not thought about 
it either. Our youngest son just graduated from high school, 
and later this summer he'll be going on a cruise with close 
family friends of ours. And so, this sort of caught my eye, 
caught my attention.
    Like our Chairman, I've spent some time on cruises, but 
they were on ships that were painted gray, in the Navy, and 
I've never had the privilege of taking a cruise of the nature 
that we're discussing here today.
    But, Mr. Chairman, we're grateful to you for holding the 
hearing. We appreciate, certainly, each of our witnesses for 
coming today and sharing your time with us, and your testimony, 
and for responding to our questions as we try to ensure that 
all cruise ship travelers are as safe as feasible.
    Crime on cruise ships is an issue that most of us know 
relatively little about, and this could be because it is so 
rare, as the cruise industry claims; it could also be because 
the information is not made public, as some of our victims 
groups claim; or, it could simply be that people don't like to 
think about it, especially when they're planning their big 
vacation.
    What I look forward to hearing today is a discussion about 
people's expectation with regard to protection from crime on a 
cruise ship. What should people expect, as far as law 
enforcement and prosecution of crimes that do occur on cruise 
ships? And how far off is that expectation from the situation 
they find when they board the ship, much as our own son will 
board a ship this summer.
    I would also like to explore how we can ensure that people 
are fully informed about the crime protection and prevention 
system that will or will not be available to them before they 
buy passage on a cruise ship.
    Again, welcome. Thank you for joining us. We look forward 
to your testimony.
    Senator Kerry. Thank you very much, Senator Carper.
    We did refer to those deployments as cruises, didn't we? I 
forgot that.
    Senator Carper. Yes, they were.
    [Laughter.]
    Senator Kerry. Mr. Carver, you want to lead off, sir? And 
thank you for being here with us.

 STATEMENT OF KENDALL CARVER, PRESIDENT, INTERNATIONAL CRUISE 
                      VICTIMS ASSOCIATION

    Mr. Carver. I would like, first of all, to thank the 
Chairman and Members of the Committee for the opportunity to be 
here today.
    I come to you, both as a victim and as President of a group 
called International Cruise Victims, an organization formed by 
people that have been treated poorly as victims of cruise-line 
crimes. Prior to that, I spent 18 years as President and CEO of 
an insurance company in New York City. And this is the last 
thing I ever thought I would be doing.
    Each member that had joined ICV since it was founded in 
January 2006, which is not that long ago, has had a similar 
painful experience to mine.
    Senator Kerry has given, briefly, a story of Merrian. She 
disappeared. We had to trace her. Police finally traced her to 
a credit-card transaction which put her on a Celebrity Cruise 
Ship. We called the cruise ship. Got back to us in a couple of 
days, and they said, ``Yup, she was on the ship, but, after a 
couple of days, didn't use her room, but that's not uncommon.'' 
And, ``Did she get off?'' ``We don't know whether she did or 
not.'' So, that just left us up in the air. Merrian had a 13-
year-old daughter.
    A brief summary of the facts after that took place are as 
follows.
    The cruise line failed to report Merrian missing to the FBI 
for 5 weeks, and that's only after we had contacted the cruise 
line. They disposed of her property at once, giving most of it 
away to charity, and took a bag with her name on it and put it 
in storage with her name and Social Security number, gave her 
things away to charity. When we asked immediately for video, 
``Was there any video?'' their answer was, ``We got there too 
late.'' We were 25 days into it. He said, ``You got here too 
late. We've already erased it.''
    In January of this year, I was advised by a senior officer 
of Royal Caribbean that, in fact, they did have the video, they 
did keep it, and they did review it, for 3 months. We had an 
individual go on the cruise ship, a detective. They said there 
was no video. So, all the time, they were lying to us about the 
video.
    They made a report to the FBI that said nothing happened on 
that cruise. They told our detectives that the cabin steward 
made no reports concerning Merrian. And we later learned, 4 and 
a half months later, through depositions, that, in fact, he had 
reported her missing daily for 5 days. His boss told him to 
forget it and do his job. And, at the end, he said, ``What do I 
do with the things in the room?'' he said, ``Just put them in a 
bag, put it in my locker,'' and they gave them away.
    The cruise line would not permit an interview with the 
steward or the security officer. For us to interview that 
individual, we made a decision--we wanted to speak to one 
person on that ship that had seen Merrian. We had to hire an 
international detective agency, Kroll & Associates, hire two 
law firms, take court action in Massachusetts and then Florida, 
and spend $75,000 and 4 and a half months to get a deposition 
from the steward, who, in effect, then indicated to us for the 
first time he had reported Merrian missing from the very 
beginning. So, in effect, they'd been lying to us from day one 
concerning our daughter.
    In Congressional hearings in December 2005 and March 2006, 
representatives, under oath, from Royal Caribbean indicated: as 
soon as they knew about Merrian's disappearance, they 
cooperated with the family. Hey, as soon as they knew about 
Merrian's disappearance--you'll see it in the material--which 
is the third week, they started the cover up concerning our 
daughter.
    When you're a victim, you think you're the only person in 
the world that's a victim of a crime. Then a book came out, in 
December--or in July 2005, called ``The Devil in the Deep Blue 
Sea.'' And if you read that book--and it's actually in my 
testimony--it says coverup is a standard operating procedure 
for cruise lines, and they get the person off the ship, and 
that's exactly what had happened to us.
    At the first Congressional hearing, in 2005, I concluded 
that I couldn't change the cruise line industry. Other people 
couldn't do it on their own. So, we formed a group called 
International Cruise Victims. We now have several hundred 
members in 16 countries.
    In March 2006, I testified for the first time in the House 
of Representatives. There were six victims that testified at 
that meeting. But, we surprised the group. At the end, instead 
of just telling our tragic story, we presented a ten-point 
program for safety.
    I'm here to say that we have met with the cruise lines four 
different times--only after a Congressional Committee ordered 
them to last year--on those points. And, to this day, nothing 
has been agreed to by the cruise lines regarding those points. 
They say, ``Oh, those are great ideas. We'll think about it.'' 
But, we never get the answer of what their commitment is. And 
there is no commitment.
    So, what have we learned in this process? If you look at my 
testimony, you'll find two memorandums. One's a legal 
memorandum of law, which, in effect, says, ``We are under no 
obligation to investigate crimes on cruise ships.'' They then 
go on to say, ``We're not equipped to investigate crimes on a 
cruise ship.'' And you can add to that, they also don't take 
responsibility for the medical care on a ship, nor do they take 
responsibility for excursions. So, in effect, they don't take 
responsibility. I don't care how many security officers. That 
is their legal position.
    So, last year, the Congressional Committee requested that 
CLIA and ICV meet while the--ICV meet with the FBI to discuss 
these matters. In effect, at that meeting, on July 25, I 
believe it was, we met with the FBI, and the FBI said, ``We do 
not have the resources to follow up on crimes on cruise 
ships.'' So, in effect, the cruise lines do nothing, the FBI 
says, ``We do not have the resources.'' So, when a crime occurs 
on a cruise ship, nobody does nothing.
    And if you look at my testimony, you'll find a chart of 
crimes prosecuted by the FBI. You'll see that in 2005 there 
were only 50 cases opened and only four convictions of any 
crime on a cruise ship, while--any crime on the high sea. 
That's more than cruise ships. So, that proves nobody's being 
prosecuted on these cases.
    Last month, on May 16, Cruise Critic, which is kind of a 
pro-cruise-line Internet site that sells cruise ships, did a 
survey. Seventeen-hundred people responded to that, and 10 
percent of the people, when asked the question, ``Have you ever 
been affected by a crime, minor or major, on a cruise ship?'' 
said yes. Now, I'm here to say, if there was a resort in this 
country where 10 percent of the customers said they were 
affected by a crime at that resort, they'd probably be closed 
down or a major investigation. This is a cruise line blog that 
took that survey.
    In September 2007, Elijah Cummings, after three hearings 
with the cruise line, said, ``Hey, I've had enough. You've got 
90 days. Tell me what you're going to do. Tell me what you're 
going to do to improve safety.'' So, they produced this report, 
gentlemen, 30-some pages long. And if you carefully read the 
report--they delivered it December 19--they didn't commit to 
anything in this report. They said, ``Oh, that's a great idea. 
We'll promote it. We'll further study it.'' But, there were no 
commitments after being requested.
    After all of these commitments--no results--action is 
starting to be taken. In April, the House of Representatives, 
and amendment was added to the Coast Guard reapportionment bill 
requiring that cruise lines report, on the Internet quarterly, 
all of their crimes. Now, if that can get through the Senate, 
that will be a major step. And that is the last thing they want 
to do, is to go public with their crimes.
    Because of lack of concern of the cruise industry having 
any regulations, the State of California has moved forward to 
have their own bill requiring an Ocean Ranger on each cruise 
ship in or out of California waters.
    In May 12, in a hearing which I spoke at in California--
I've spoke at several of them--the cruise lines responded that 
if that bill was passed, they would ``stop going to certain 
California ports, like San Francisco and San Diego, if you put 
one security guy on our ship.'' The question, gentlemen, is, 
what do they have to hide? They should welcome them. If their 
crimes are as low as they are, they should welcome somebody 
coming on to verify that information.
    Since 1999, the cruise lines have had a stated policy of 
zero tolerance for crime. That would infer to me that there's 
nothing they wouldn't do to prevent crimes on a cruise ship. 
And yet, with all the recommendations, I've come to the 
conclusion that there's nothing they will accept concerning 
crimes. They should be willing to accept anything that would 
prevent crimes on cruise ships.
    I now look at their zero tolerance in a different way. I 
look at their zero tolerance for crimes as zero tolerance for 
any legislation that would have any effect to control the 
cruise lines.
    Last year, gentlemen, they spent $2,800,000 lobbying in 
Washington. Very effective, very powerful lobby. Wal-Mart spent 
$280,000. This is a foreign corporation.
    Now, frankly, we have no money to lobby. We're volunteers. 
Only, we have the victims stories and their passion for change 
that makes ICV work every day. Fortunately, Members of the 
Senate and the House were elected by the people to represent 
the people of this country and not the lobbyists for a foreign 
corporation.
    It's clear to me that comprehensive legislation is needed, 
since the cruise lines have shown no willingness to voluntarily 
commit to make substantial changes in their current practices.
    I look forward to answering your questions, and I 
appreciate the opportunity to present this testimony.
    [The prepared statement of Mr. Carver follows:]

           Prepared Statement of Kendall Carver, President, 
             International Cruise Victims Association, Inc.
    I would first like to thank the Chairman and Members of this 
Committee for giving me the opportunity to participate before this 
Committee. I am here today both as a victim and as President of 
International Cruise Victims (ICV), an organization formed by people 
who have experienced tragedies on cruises and who have been treated 
poorly by cruise lines. My prior working experience was to serve as 
President and CEO for 18 years of an insurance company in New York 
City.
    As a victim, I have personally felt the pain, not only of losing 
our daughter, Merrian Carver, but also having to struggle with the 
cover-up by a major cruise line of the facts concerning her 
disappearance. She had been a passenger on a Celebrity Cruise Ship, 
which is owned by Royal Caribbean.
    Each member that has joined ICV since it was founded in January 
2006, has had similar painful experiences. Having listened to the 
stories of these other victims, I feel that I now know something about 
what counselors must feel when they hear the tragic stories from their 
patients. (See Attachment III)
    I would first like to review quickly the tragic events of our 
daughter's disappearance. We were first made aware of a problem when 
our granddaughter called to tell us that Merrian was not returning her 
calls. We then started to search for Merrian, and contacted the police 
in Cambridge, Massachusetts where she lived.
    The police found out 3 weeks later through credit card records that 
she had booked the cruise, and we contacted the cruise line. After a 
couple of days they confirmed that she had been on a Celebrity Cruise 
ship. Only after we contacted them did they make a report to the FBI 1 
week later. This was 5 weeks after she disappeared. Moreover, we found 
out that the cruise line had previously disposed of her property 
without attempting to contact her family or the FBI.
    A brief summary of the facts concerning her disappearance are as 
follows:

  <bullet> The cruise line failed to report that Merrian was missing to 
        the FBI until 5 weeks after she went missing and only after we 
        contacted the cruise line.

  <bullet> They disposed of her property by giving most of it away to 
        charity despite their protocol, which calls for property left 
        on a ship to be held for 90 days.

  <bullet> When we asked about video records, which could show things 
        relevant to Merrian's disappearance, they told us they had no 
        records and there had been no review concerning Merrian. 
        However, in January, 2008, 3 years after we had asked for and 
        subpoenaed information concerning these video's, one of their 
        senior personnel admitted in writing that we had been lied to 
        concerning the surveillance tapes; their retention and review 
        by ship's personnel. (See Attachment II)

  <bullet> They made a report to the FBI indicating that nothing had 
        happened on the cruise. Their internal documents show that 
        during the third week in September their officials were 
        coordinating a cover-up of the disappearance. (See Attachment 
        II)

  <bullet> They told our Detectives that the cabin steward had made no 
        reports concerning Merrian, but we later learned through the 
        depositions that he had reported her missing from her cabin for 
        5 days during the cruise and was told by his supervisor to 
        ``forget it and just do your job''.

  <bullet> The cruise line would not permit an interview with the 
        steward or the security officer responsible for the 
        surveillance system. We had to hire private investigators, two 
        law firms, take court action in two states and spend over 
        $75,000 over 4\1/2\ months in order to have our lawyers depose 
        the steward--an effort that many families of victims would not 
        have been able to make. Only after this court ordered 
        deposition on January 16 and 17, 2005, did we realize that they 
        had been lying to us from the beginning.

  <bullet> In Congressional Hearing in December of 2005 and again in 
        March 2006, under oath the representatives of Royal Caribbean 
        indicated that they cooperated with the family as soon as they 
        were aware of her disappearance. In fact, they really began the 
        cover-up of her disappearance starting the third week of 
        September 2004 and cooperated later only in response to court 
        orders. (See Attachment II) However, even to this day, we have 
        not received items that were requested and subpoenaed in 2004-
        2005.

    In July of 2005, I read a book, ``The Devil in the Deep Blue Sea'' 
by Kristoffer Garvin. On page 246 he wrote, ``An examination of sexual 
cases found a pattern of cover-ups that often began as soon as the 
crime was reported at sea, in international water where the only police 
are the ship's security officers.'' I realized that our treatment fell 
within this pattern. (See Attachment II)
    After the first Congressional hearing in December of 2005, I 
concluded that we needed to organize a group of victims in order to 
have a chance to get changes made in the practices of the cruise 
industry. I contacted other known victims, and together, we decide to 
form International Cruise Victims. After 28 months of existence, this 
group now has members in 16 different countries with a separate chapter 
in Australia. Members of this subcommittee and their staff members can 
review the stories of these victims on our website at 
www.internationalcruisevictims.org. (See Attachment III)
    When I and other victims testified at the Congressional Hearing in 
March 2006, we shared our stories to show the need for substantial 
changes in cruise line practices and we presented a 10-point program 
developed by ICV members to improve safety on cruise ships. I, along 
with other ICV members, have personally attended several meetings with 
CLIA and cruise lines representatives concerning suggestions made by 
our members. The standard answer from them is the ``these are great 
ideas, however we have another approach.'' Even after all of these 
meetings, the problem is that we have seen no firm written commitments 
for any significant change. (See Attachment IV)
    What have we learned during this past couple of years concerning 
this industry?

        1. Cruise Ships take the legal position that they are not 
        required to investigate crimes on cruise ships and are not 
        equipped to do so. This is documented in various items we have 
        available. These documents indicate that any information they 
        give to the FBI or Coast Guard is provided on a purely 
        voluntary basis. In addition, they take to position that they 
        are also are not responsible for the medical care or accidents 
        that occur on excursions that they have chosen, promoted and 
        also make a substantial commission on when sold to their 
        passengers.(See Attachment I)

        2. At the request of a Congressional Committee in March of 
        2007, we met with the FBI on July 25, 2007, to review this 
        matter. At this meeting the FBI clearly indicated that they do 
        not have the resources to follow up on the various crimes that 
        occur on cruise ships. Records indicate that in 2005 only 50 
        cases were opened and there were only 4 convictions of people 
        committing crimes. (See Attachment I)

        3. Since the cruise ships do not investigate crimes and report 
        them only on a voluntary basis to the FBI and since the FBI 
        says they do not have the resources to follow up on those 
        crimes that are reported, most criminals are not apprehended or 
        punished for the crimes they commit on cruise ships. As 
        Representative Christopher Shays has indicated, ``it is the 
        perfect place to commit a crime.''

        4. In addition, a well-known Internet site, Cruise Critic, in 
        an editorial dated May 16, 2008, cites results of a survey of 
        1700 people that have taken a cruise and found that 10 percent 
        of respondents said yes to the question: ``Have you ever been 
        affected by crime, minor or major, on a cruise ship?'' Dr. Ross 
        Klein, Professor of social work at Memorial University of 
        Newfoundland, indicates that, ``These numbers would suggest 
        that as many as one million Americans have been victims of a 
        crime on a cruise ship.'' If a resort had 10 percent of their 
        customers indicate that they had been affected by a crime at 
        that resort, there would be extensive investigations by legal 
        authorities. (See Attachment I)

        5. With the added concern of terrorism, Passengers on cruise 
        ships need the same protection as passengers have on airlines 
        that currently have independent national Sky Marshalls for 
        protection. In the October 16, 2006 issue of the Insurance 
        Journal, an article titled, ``Maritime Terrorism Risk Extends 
        to Cruise Ships and Ferry Boats'', states that cruise ships and 
        ferry boats need more protection than they now have against 
        terrorist attacks that could kill and injure many passengers 
        and cause serious financial losses. This conclusion is based on 
        a new RAND Corporation report. (See Attachment V)

    In the September 2007 House Hearings, chaired by Elijah Cummings, 
the representatives of the cruise lines were given 90 days to provide 
to his Committee a report on what they were willing to do. This report 
was delivered to the Committee on December 19, 2007. A careful review 
of this report shows that after all the various meetings and 
Congressional hearings the cruise lines are unwilling to commit in 
writing to any real changes from what they're doing currently. (See 
Attachment IV)
    As a result of their unwillingness to make commitments for change, 
the U.S. House of Representatives, on April 24, 2008, passed an 
Amendment to the Coast Guard Reauthorization Act measuring crime on 
cruise ships to require cruise lines to make public their actual crime 
statistics of missing persons and crimes on cruise ships and to make 
that information available to the public. Assuming this also passes the 
Senate, this will be one step forward to at least make public the 
crimes on cruise ships.
    Because of the concern regarding the lack of regulation of the 
cruise line industry, legislation has also recently been introduced in 
California to place appropriate California licensed independent 
security, called Ocean Rangers, on cruise ships as they enter or leave 
California waters. This bill has gone through several committees in the 
California legislature and on May 28, 2008 was passed by the California 
Senate 25 to 12.
    The cruise line industry has strongly opposed this California 
initiative to place one security officer on their ships by threatening 
in testimony to the California Senate Committee on Appropriations on 
May 12, 2008, that they would bypass California ports if the 
legislation passed. In view of the crime rates reported by the Cruise 
Critic survey, the industry should gladly accept independent security 
and thereby provide their passengers with the same protections that 
they would have in major resorts in this country where the police are 
called if a crime occurs.
    We need to address solutions to this problem, in order to protect 
future passengers and crew. The goal of ICV is not to damage cruise 
lines but to hold them accountable for the safety of future passengers 
and crewmembers and to require prompt and accurate reports to 
authorities of crimes, deaths, disappearances and other matters that 
would normally be investigated if they had occurred on land.
    Since 1999 cruise lines have had a stated policy that they have a 
zero tolerance for crimes. This would infer that there is nothing that 
they would not do to prevent crimes on cruise ships. However, after our 
several meetings with representatives of cruise lines to explore 
various suggestions coming from victims and their families, the cruise 
lines have yet to commit in writing to any changes. (See Attachment IV) 
Meanwhile, they aggressively oppose any new legislation to improve the 
safety on cruise ships. In fact, in 2007 this foreign cruise line 
industry spent over $2,800,000 in Washington for lobbying. In contrast, 
Wal-Mart spent $280,000.
    Frankly, we have no money to lobby, only the many victims and their 
passion for change that are working for ICV every day. Fortunately, you 
were elected by the people you represent and not the lobbyist for a 
foreign corporation.
    It is clear to me that comprehensive legislative action is needed 
since the cruise lines have shown no willingness to voluntary commit to 
make substantial changes in their current practices in order to protect 
passengers on cruise lines. I will look forward to answering any 
questions that you might have concerning this subject.

       International Cruise Victims Association, Inc. (ICV)
                                 ______
                                 
                  Supplemental Attachments<SUP>*</SUP>
---------------------------------------------------------------------------
    \*\ [All attachments referred to in this document are retained in 
the Committee's files.]
---------------------------------------------------------------------------

                      Submitted by Kendall Carver

Section I Attachments--Reported Crime Rates on Cruise Ship and FBI 
        Record of Convictions
Section II Attachments--Documents concerning the Cover-up of Merrian 
        Carver Disappearance
Section III Attachments--ICV Victims of Cruise Lines
Section IV Attachments--Summary of Results of Various Meetings with IVC 
        Victims and CLIA
Section V Attachments--Maritime Terrorism Rand Corporation Report

    Senator Kerry. Thank you very much, Mr. Carver. We 
appreciate that important testimony.
    Ms. Fortier?

          STATEMENT OF EVELYN FORTIER, VICE PRESIDENT,

            POLICY, RAPE, ABUSE AND INCEST NATIONAL

                        NETWORK (RAINN)

    Ms. Fortier. Thank you, Mr. Chairman and Members of the 
Subcommittee, for holding this hearing, which is very timely, 
given that incidents of sexual assault and missing persons 
continue to be reported. And, according to the FBI, about half 
of all crimes on the high seas that are reported to them 
involve sexual assault on cruises.
    I am with RAINN, the Rape, Abuse and Incest National 
Network, which is the Nation's largest anti-sexual-assault 
organization. Our mission is to end sexual assault in the U.S. 
by improving services to victims, educating the public about 
sexual assault, and striving to bring rapists to justice.
    We created and operate the National Sexual Assault Hotline, 
which is a toll-free number, at 800-656-HOPE, which is 
available to victims 24/7, and we operate it in partnership 
with 1105 rape crisis centers around the Nation, located in 
every state and the District of Columbia.
    We also created the National Sexual Assault Online Hotline, 
which is the first web-based resource for victims, and it's 
available at RAINN.org.
    I'd like to begin by asking you to imagine how you might 
feel if you had long saved and planned for a cruise vacation, 
and then abruptly had to end your voyage because you had been 
traumatized by a sexual assault while on the cruise. This 
happened to Laurie Dishman, of California, and others like her. 
For years, she put a bit of salary aside, each pay period, to 
save up for her dream of a sunny cruise vacation with one of 
her close childhood friends. She planned the troop--excuse me--
she planned the trip in minute detail after collaborating with 
her friend on what destination, what to bring, and what 
amenities they could afford.
    On the trip, a crew member, attired in a cruise security 
officer's uniform, approached her at the bar and questioned her 
in a way that she found unnerving. Hours later, the same crew 
member knocked at the door of her cabin, which had no peephole, 
and she opened the door slightly to identify the visitor, at 
which point he physically forced the door of her cabin open, 
pushed her onto the bed, and raped her. She reached out to 
other cruise personnel who entered her room and sat on the bed 
on which she was raped, thereby potentially contaminating the 
crime-scene evidence. These personnel suggested she be the one 
to collect any evidence she thought might be relevant and bring 
it to personnel on the ship.
    While she was coping with the life-shattering effects of 
having been raped, she later learned that the man who had raped 
her was no security guard, but actually a janitor who had been 
asked to fill in for the security guard.
    And, unfortunately, hers seems not to be an isolated case. 
Other United States citizens have come forward to report sexual 
assaults on cruises, and described feeling helpless or 
virtually alone in the hours after they were victimized.
    If you are sexually assaulted while on a cruise vacation, 
you, like Laurie Dishman of California, who's in the audience 
today, may find that any hope of your securing justice is 
extremely remote, perhaps even nonexistent.
    Next, I'd like to turn to what you can expect if you're 
raped during a cruise voyage. Remember that the cruise industry 
is somewhat unique among businesses that provide services to 
U.S. consumers, in that most cruise vessels sail under foreign 
flags and don't have to comply with many U.S. laws, as already 
noted by the Chairman. This is illustrated further when you 
compare the potential experience of an American rape victim at 
sea to the likely experience of a rape victim on shore in the 
United States.
    First, if you're raped on land, consider what happens. You 
have the option to call our hotline number, toll free, any time 
of the day or night, or visit our online hotline, through which 
you may immediately receive free and confidential online help 
from trained, rape-crisis personnel. Those who staff these 
hotlines are located at rape crisis centers around the country, 
and so, a local rape crisis center affiliated with RAINN may 
offer to send their personnel to meet you, and personally 
escort you to the nearest hospital or police station. At the 
hospital, medical personnel can be counted on to evaluate you 
for injuries, take your medical history, and compile a rape 
kit, which will be sent to a crime lab for analysis. And if 
you've reported the assault to the local authorities, you can 
expect someone from a nearby police department will interview 
you, that the police investigating the crime have the necessary 
jurisdiction to do so, that the police will preserve physical 
evidence for trial, that certain local or State criminal laws 
will govern, and that certain protocols will be followed in the 
police investigation.
    If you, a U.S. citizen, are raped during a cruise, by 
contrast, your situation is potentially very different, and you 
can be far less certain of what will happen next. Because most 
cruise ships are foreign flagged, because the perpetrator may 
be a foreign national, and because you might be in 
international waters, you face a host of legal uncertainties. 
And these are in addition to your having to cope, far from 
home, with the emotional and physical consequences of having 
been assaulted. You won't have any rape crisis personnel 
onboard to support you, let alone law enforcement officials to 
come to your aid. You might turn to cruise ship employees for 
help, only to later find that the cruise line has a vested 
interest in shielding themselves against negative publicity or 
legal jeopardy. And you might wonder how any security personnel 
hired by the cruise line will react if presented with any 
situation that might give rise to a potential conflict of 
interest between their employer and yourself.
    At this point in time, you probably have three options, but 
every one of those options has potential drawbacks.
    Option one is to disembark at the next port and report the 
crime to the local authorities onshore. But, you might not 
speak the same language as the local police, and not know the 
local customs. And maybe you didn't know to contact your 
nearest U.S. embassy or consulate. You might find out later 
that you approached the wrong authorities in the wrong 
jurisdiction. And the local authorities might not want to 
assume jurisdiction if they perceive that the sexual assault 
occurred in international waters. And if local authorities do 
investigate, key evidence may have disappeared by the time you 
contact them, because, unless someone onboard assumed 
responsibility for securing the crime scene, evidence may have 
already been contaminated or cleaned by the time the police 
arrive. And even if the local investigation proceeds, you have 
significant obstacles. You might have to take time off from 
work and return again to the local jurisdiction for an extended 
period, a jurisdiction which you're completely unfamiliar with 
the legal customs.
    Your second option as a victim would involve reporting the 
crime to the Federal Bureau of Investigation, in cooperation 
with the cruise line. The FBI can investigate crimes reported 
to it by the cruise lines, but typically wouldn't be in a 
position to act as an onboard police force immediately after 
the assault happens. And, while you wait for the FBI, here 
again, there's the risk that no one will assume responsibility 
for securing the crime scene or ensuring that potential 
witnesses do not collaborate. It's also not certain that a 
cruise victim will receive adequate medical care or that 
trained personnel will collect DNA or other evidence 
immediately after the assault.
    Finally, for a victim of sexual assault, a third option is 
to disembark at the ship's next port of call and take the next 
flight home. This might be appealing, because you want to 
quickly get out of a bad situation. But, if you leave the ship 
without having reported, the cruise line may refuse, later, to 
accept your complaint of having been assaulted.
    Finally, I'd like to conclude with some recommendations for 
Congress. RAINN suggests that, one, we impose stricter 
requirements for reporting onboard incidents of sexual assault 
and authorize Federal officials to impose penalties for 
noncompliance with this requirement.
    Second, we suggest that you provide victims who report 
sexual assaults during cruises with immediate access, via 
telephone or the Web, to rape crisis personnel who are trained 
to meet the unique needs of Americans traveling overseas, so 
that cruise victims know they're not alone.
    Third, we suggest that Congress ensure greater oversight of 
training and conduct of crew members on ships, in collaboration 
with the cruise industry.
    Fourth, we need to ensure that cruise lines are accountable 
to the public to fully report all incidents of sexual assault. 
We applaud Congresswoman Matsui, as well as Congressman Shays, 
Poe, and Maloney, for recently introducing an amendment that 
would require cruise crimes to be publicly disclosed online.
    Fifth, we suggest improving the screening and training of 
crew members who work with passengers.
    And finally, cruise lines should educate their passengers, 
before the ship departs, about the onboard risk of sexual 
assault and what to do if they or a friend or a relative is 
assaulted during the voyage.
    In closing, thank you for your time and inviting me to 
testify.
    [The prepared statement of Ms. Fortier follows:]

  Prepared Statement of Evelyn Fortier, Vice President, Policy, Rape, 
               Abuse and Incest National Network (RAINN)
    Mr. Chairman and members of the Subcommittee, thank you for 
scheduling today's hearing. This hearing is very timely, because high 
profile cases in which cruise passengers or crewmembers were raped, 
sexually assaulted, or disappeared continue to be reported. The safety 
of the nine or ten million United States citizens who take a cruise 
each year should be of vital importance to all of us; and the issue of 
cruise ship safety merits Congress' continued attention.
    I want to begin by asking you to imagine how you might feel if you 
had long saved and planned for a cruise vacation, and then had to 
abruptly end your voyage because you had been traumatized by a sexual 
assault while on the cruise. Specifically, imagine that for years 
you've put a bit of your salary aside each pay period to save up for 
your dream of a sunny cruise vacation with one of your close childhood 
friends. You have planned the trip in minute detail, after 
collaborating with your friend on which destination, what to bring with 
you on the trip, and which amenities you can afford.
    On the trip, a crewmember attired in a cruise security officer's 
uniform approaches you at the bar and questions you in a way you find 
unnerving. Hours later, this same crewmember knocks at the door of your 
cabin, which has no peephole, and, once you open the door to identify 
the visitor, he physically forces the door of your cabin open. He 
pushes you onto the bed in your cabin and rapes you. You reach out to 
other cruise line personnel, who enter your room and sit on the bed in 
which you were raped (thereby potentially contaminating the crime scene 
evidence). These cruise personnel suggest you collect any evidence you 
feel might be relevant and bring it to medical personnel on the ship. 
While you are coping with the life-shattering effects of having been 
raped, you later learn that the man who raped you was no security 
guard, but rather a janitor who filled in for the security guard.
    Regrettably, this is how one American cruise line passenger 
described her experience during testimony before another congressional 
committee last year. And, unfortunately, hers seems not to be an 
isolated case. Numerous other United States citizens who have reported 
sexual assaults while on cruises described feeling helpless or 
virtually alone in the hours after they were victimized. If you are 
sexually assaulted while on a cruise vacation, you, like Laurie Dishman 
of Sacramento, California (the rape survivor described above) may find 
that any hope of your securing justice is extremely remote, perhaps 
even nonexistent.
What Can You Expect If You Are Raped During A Cruise Voyage?
    The cruise industry is somewhat unique among businesses that 
provide services to U.S. consumers in that most cruise vessels sail 
under foreign flags and do not have to comply with many U.S. labor, 
environmental, or other regulations. The uniqueness of the cruise 
industry's situation, compared to many other businesses operated in the 
United States, becomes even more apparent when you compare the 
potential experience of an American rape victim at sea to the likely 
experience of an American rape victim on shore.
    First, consider what happens after you are raped on land. You have 
the option to call the National Sexual Assault Hotline, 800-656-HOPE, 
toll free, any time of the day or night, or to visit the National 
Sexual Assault Online Hotline at www.rainn.org, from anywhere in the 
country, through which you may immediately receive free and 
confidential online help from trained rape crisis personnel. Those who 
staff these hotlines are located at rape crisis centers around the 
country, and the availability of these services means you are not 
alone. Hotline staff and volunteers will provide you with immediate 
emotional support, and your local rape crisis center may offer to send 
their personnel to meet you and personally escort you to the nearest 
hospital or police station.
    At the hospital, medical personnel can be counted on to evaluate 
you for injuries, take your medical history, and compile a rape kit 
containing DNA and other evidence. You also can expect that any DNA 
evidence collected during this examination will be sent to a crime lab 
for analysis, hopefully to be used later in identifying and prosecuting 
a potential suspect. The collection of DNA at this point in time 
preserves evidence for the future, for use in any later legal case. 
Protocols govern how this DNA is to be collected, analyzed, stored, and 
used in the criminal case.
    If you immediately reported the assault to the local authorities, 
you can also expect that someone from a nearby police department will 
interview you and perhaps a suspect as well as any other witnesses. 
Your experience dealing with the criminal justice system ultimately may 
not be pleasant or result in your hoped for outcome, but along the way 
you can be fairly confident of certain things: that the police 
investigating the crime have the necessary jurisdiction to do so, that 
the police will preserve physical evidence for a possible trial, that 
certain local or state criminal laws will govern in your case, and that 
certain protocols will be followed in the police investigation. It's 
also within the realm of possibility that a local prosecutor will find 
your case deserving of prosecution and your predator is brought to 
justice. A victim advocate may be assigned to offer guidance and 
support to you along the way; also, you and your family members or 
close friends have the option of seeking counseling at your local rape 
crisis center, to assist in your long-term recovery.
    If you, a U.S. citizen, are raped during a cruise, by contrast, 
your situation is potentially quite different, and you can be far less 
certain of what will happen next. Because most cruise ships are 
foreign-flagged vessels, because the perpetrator may be a foreign 
national, and because you may be in international waters when the 
assault occurs, you face a host of legal uncertainties. For example, 
you cannot automatically assume that certain laws will cover the 
incident, due to messy jurisdictional issues that arise in some of 
these cases.
    Such uncertainties are in addition to your having to cope (far from 
home and absent your usual support network) with the emotional and 
physical consequences of having been assaulted. In the immediate 
aftermath of the assault, for example, you might not have a friend or 
family member traveling with you on board. You probably will not find 
any rape crisis personnel onboard to support you, let alone law 
enforcement officials to come to your aid on the ship.
    If traveling alone, you might turn to cruise ship employees for 
help, only to later find that the cruise line has a vested interest in 
shielding themselves against negative publicity or legal jeopardy (and 
protecting such interests may come at the expense of your own interest 
in securing justice and getting appropriate medical care). If you were 
assaulted by a crewmember, and you are a passenger on the ship, you 
might have good reason to wonder how any security personnel hired by 
the cruise line will react if presented with any situation giving rise 
to a potential conflict of interest between their employer's legal 
situation and your safety.
    You may encounter someone onboard who can competently and 
sympathetically explain to you what needs to happen in order for you to 
report the crime to the proper authorities and have the crime 
investigated. At this point in time, you probably have three options, 
each of which has certain drawbacks:
    Option #1: Your first option is to disembark at the next port and 
report the crime to the local authorities on shore. There is a good 
chance you will not speak the same language as the local police and are 
unfamiliar with local customs. Perhaps no one told you that you should 
approach your nearest U.S. embassy or consulate for assistance, and you 
did not initially seek their help. You might learn later that, due to 
jurisdictional uncertainties, the authorities you approached do not 
have sole jurisdiction over your case, and that perhaps you should have 
reported the crime to authorities in an entirely different 
jurisdiction. (Alternatively, the local authorities may not want to 
assume responsibility for the criminal investigation if they perceive 
that the sexual assault occurred in international waters.)
    If local authorities do decide to investigate, key evidence may 
have dissipated by the time you contact them. That's because, unless 
someone onboard assumed responsibility for immediately securing the 
crime scene, evidence may already have been contaminated or cleaned by 
others by the time the local police arrive. Also, before local 
authorities show up, the offender may already have either collaborated 
with others, or been dismissed by the cruise line and escorted off the 
ship. (If the offender then travels to another country, it will be 
difficult, if not impossible, to find them again).
    Finally, even assuming the local investigation proceeds, and 
charges are brought against the perpetrator, you may face significant 
personal obstacles to cooperating with the prosecution. You may have to 
take time off from work and leave behind your friends or family in the 
United States to return again, perhaps more than once or for an 
extended period, to the foreign jurisdiction that is prosecuting the 
case. You may find, too, that you are completely unfamiliar with the 
legal system of that particular jurisdiction.
    Option #2: The obstacles presented above may seem overwhelming, and 
so perhaps you are inclined to pursue a different course of action. 
Your second option as a victim of sexual assault would involve 
reporting the crime to the Federal Bureau of Investigation (FBI), in 
cooperation with the cruise line. But this option, too, has drawbacks 
for you, as the FBI can investigate crimes reported to it by the cruise 
lines, but typically would not be in a position to act as an onboard 
police force immediately after your assault.
    The FBI typically will not board a ship to interview the victim or 
other potential witnesses to the crime until after the ship docks. In 
the meantime, here again, there is the risk that no one will assume 
responsibility for securing the crime scene or ensuring that potential 
witnesses do not collaborate or disperse. Once again, if the cruise 
line escorts the offender off the ship at the next port of call, or if 
the offender leaves, it may be difficult, if not impossible, to find 
them again.
    It also is not certain that a cruise victim will receive adequate 
medical care or that trained personnel will be available to collect DNA 
or other evidence immediately following an assault. (Laurie Dishman, 
who reported being raped by a crew member while on a cruise in 2006, 
testified last year that ship personnel expected her to do the job of 
collecting any crime scene evidence herself. She also was asked to pay 
for her own rape kit, which would not have been the case had she gone 
to a hospital in the United States.)
    Also, certain thresholds must be met for an FBI investigation to 
proceed and for Federal prosecutors to bring charges. In the case of a 
sexual assault, for example, where the victim's consent is an issue, 
the case might not move beyond the initial phase of information 
gathering. The victim may find, after the FBI collects such 
information, that the chances of a Federal prosecutor pursuing rape 
charges are extremely remote. The decision whether or not to prosecute 
the case lies with Federal prosecutors; and these decisions are often 
made based on the severity of the crime, the likelihood of successful 
prosecution leading to conviction and, of course, available Federal 
resources.
    Option #3: For a victim of sexual assault, a third option is to 
disembark at the ship's next port of call, and take the next flight 
home. In the immediate aftermath of the crime, the victim may find this 
option the most appealing of the three, because it allows the victim to 
quickly escape the surroundings in which the assault occurred as well 
as the perpetrator, who may still be lurking somewhere nearby.
    The victim may, however, later find--maybe years later--that the 
repercussions of having been raped continue to haunt him or her. Like 
many of rape's survivors, in the weeks, months, or years after the 
assault, a cruise victim of sexual assault may experience flashbacks, 
depression, nightmares, employment difficulties, or other negative 
effects and in some cases, even be suicidal. Any hope of securing 
justice--which is often important to victims in their recovery--may 
have disappeared if the victim did not formally report the rape while 
onboard and the cruise line declines to record the complaint once the 
cruise has ended. Meanwhile, the offender gets a free pass to prey on 
additional victims.
What Is Your Risk of Being Assaulted Aboard a Cruise?
    According to FBI testimony at another congressional hearing in 
March 2007, sexual ``[s]exual assault and physical assaults on cruise 
ships were the leading crime reported to and investigated by the FBI on 
the high seas over the last 5 years at 55 percent and 22 percent 
respectively.'' The FBI also noted, at a different hearing last 
September, that the cruise lines reported 41 instances of sexual 
assault \1\ during a six-month period in 2007:
---------------------------------------------------------------------------
    \1\ The FBI has stated that it investigates cruise sexual assaults 
as defined in Title 18 of the United States Code (U.S.C.), Sections 
2241 through 2243 and 2244 (a) and (c), and that the principal law 
giving the U.S. jurisdiction over crimes committed on a ship is set 
forth in Sec. 7 of Title 18 of the U.S. Code.

        ``Since April 1, the cruise lines have reported 41 instances of 
        sexual assault. Of these 41 incidents, 19 represented 
        allegations of sexual activity generally categorized as rape, 
        three of which occurred on shore, and, thus, outside the 
        jurisdiction of the FBI. Based on the 41 reports, the FBI 
        opened 13 investigative cases. Five of these cases have been 
        closed for reasons of victim reluctance to pursue prosecution 
        or prosecutive declination from the United States Attorney's 
---------------------------------------------------------------------------
        Office. Eight investigations are ongoing.''

    The cruise industry maintains that the rate of sexual assault at 
sea is significantly lower than the on shore rate of sexual assault. 
According to the cruise industry, during the three-year period from 
2003 to 2005, when roughly 31 million North Americans sailed on cruise 
ships, there were 178 complaints of sexual assaults. But because data 
on rates of sexual assault during cruise voyages is not easily 
accessible to the public, it is difficult for us to evaluate the 
accuracy of such statistics.
    We note that the industry's position is directly contradicted by 
the 2007 congressional testimony of Dr. Ross Klein, who suggested that 
the rate of sexual assault on board ships could be as much as 50 
percent higher than the on shore rate of sexual assault.
    I believe that it is certainly possible that the true rate of 
onboard sexual assault might be higher than what is currently being 
reported to Federal authorities by the cruise industry:

  <bullet> First, there is no way to reliably assess whether the cruise 
        lines are fully and accurately reporting all onboard sexual 
        assaults to Federal authorities. The industry already is 
        expected to report such information, but what's reported is not 
        made public. Thus, it's hard for passengers (or independent 
        third-parties) to confirm whether each incident of sexual 
        assault, including their own, has been fully and properly 
        recorded.

  <bullet> Second, sexual assault is one of the least reported violent 
        crimes. According to the U.S. Department of Justice, as many as 
        60 percent of onshore sexual assault victims decline to report 
        the crime against them. We believe it is likely that many 
        cruise passengers who experience sexual assault on the cruise 
        also will not report the crime (and that such crimes thus will 
        not become part of industry cruise safety statistics). RAINN 
        last week communicated with over 200 rape crisis centers in 
        various states to determine whether any of their clients/
        hotline callers had been sexually assaulted during a cruise. 
        About 9 percent of these 200 centers reported being contacted 
        by a cruise victim.

  <bullet> Third, in today's competitive business climate, cruise lines 
        may have an economic incentive to underreport or misclassify 
        sexual assault crimes. Even if we assume that they are doing 
        their best and would not consciously underreport, cruise 
        personnel may lack the legal knowledge required to properly 
        classify and report sexual crimes to Federal authorities. (U.S. 
        college administrators--who also often lack law enforcement 
        experience--sometimes encounter similar difficulties in 
        interpreting the Federal Clery Act's requirements for reporting 
        on-campus crimes at the Nation's college and universities.)

    In summary, for those on a cruise, it is easy to forget that the 
risk of being assaulted onboard a cruise ship is real. It is easy, too, 
for the vacationing public to forget that, while a cruise ship may 
resemble a small city in population size, the public on the cruise ship 
has no law enforcement officials to keep would-be criminals in check or 
to immediately secure a crime scene and investigate a crime once it 
occurs.
Recommendations for the 110th Congress
    Impose stricter requirements for reporting onboard incidents of 
sexual assault (and authorize Federal officials to impose penalties for 
noncompliance with this requirement).
    The FBI and the U.S. Coast Guard in 2007 entered into an agreement 
with the cruise industry, which calls for the industry to voluntarily 
report certain crimes. This agreement seems to mainly deal with crimes 
that are voluntarily reported by the industry and might not address 
crimes that should be, but are not, reported to the FBI. Congress 
should review this agreement carefully to ensure that the FBI can and 
will exercise meaningful oversight of cruise industry reporting 
methods, and to ensure that someone other than the cruise officials has 
a say in whether or not an incident reported by a passenger meets the 
threshold for disclosure. If this agreement does not give the FBI the 
ability to take action against cruise ships (most of which are foreign-
flagged vessels) for underreporting or misclassifying sexual crimes, 
Congress should tighten requirements for the cruise lines. Enhancing 
the reliability of data on the frequency and nature of crimes on 
cruises should be the goal.
    Provide victims who report sexual assaults during cruises with 
immediate access (via a telephone or the Web) to rape crisis personnel 
who are trained to meet the unique needs of Americans traveling 
overseas, so that cruise victims know they are not alone.
    RAINN, the Nation's largest anti-sexual assault organization, 
created and operates the National Sexual Assault Hotline, 800-656-HOPE 
(in partnership with 1,105 affiliated rape crisis centers, located in 
every state and the District of Columbia). The Telephone Hotline has 
helped 1.2 million callers since its inception in 1994. RAINN also 
recently launched the National Sexual Assault Online Hotline (the 
nation's first secure, Web-based hotline for rape victims), at 
www.rainn.org). Finally, RAINN also conducts education and outreach 
programs to help prevent sexual assault and ensure that perpetrators 
are brought to justice.
    Close to a year ago, RAINN approached one of the largest cruise 
line companies, Royal Caribbean, to suggest that they establish access 
from their ships to our Online Hotline and to our 24-hour Telephone 
Hotline for those instances where a guest or crewmember becomes the 
victim of a sexual assault while traveling onboard a ship. Our goal is 
to facilitate both immediate and continuing professional counseling 
services should a cruise passenger desire and need such services. We 
are currently engaged in discussions with Royal Caribbean about our 
proposal to link cruise ship victims with rape crisis hotline personnel 
while the victims are at sea. We believe that it would be appropriate 
for the entire industry to provide access to these (or similar hotline) 
services to any cruise passengers or crew members who are victimized 
while traveling in international waters.
    RAINN also believes that it will be important to equip those 
hotline personnel who assist cruise victims at sea with certain 
resources that are uniquely tailored to meet the unique needs of such 
victims. For example, while the typical (on shore) caller to our 
Telephone Hotline is seeking information about victim resources in 
their local community, a caller from a cruise ship at sea typically 
would need contact information for the consulate or U.S. embassy at the 
nearest port of call, contact information for the FBI, and information 
about how to report a sexual assault to cruise line personnel, plus 
advice on how to seek medical attention and related support services. 
Cruise victims also may get help from rape crisis centers in their 
local communities upon their return home.
    Of the roughly 200 rape crisis centers, located in various states 
around the nation, from whom we heard last week, 90 percent said they 
do not currently train their personnel to meet the unique needs of 
victims of cruise ships. Although over half said that they feel fully 
prepared, and an additional one-third reported that they feel somewhat 
prepared, to assist cruise victims, 60 percent said they would find it 
helpful to receive materials to assist in counseling clients or 
responding to hotline calls. At least 40 percent said they would find 
it helpful to receive contact information for Federal agencies that 
deal with cruise victims; about one-quarter said that they would find 
it useful to receive a list of international resources that provide 
assistance to cruise victims; and about one-quarter also said they 
would appreciate receiving specialized training to help them better 
meet the unique needs of rape victims on cruises.
    Ensure greater oversight of training and conduct of crew members on 
ships.
    The cruise industry needs to take additional steps to ensure that 
their crewmembers are adequately supervised and that better protocols 
are instituted and followed to protect victims (crewmembers and 
passengers alike) in the event that sexual assaults occur on cruises in 
the future. Royal Caribbean advised us that they recently hired a 
sexual assault forensic nurse to assist the company in the development 
of improved evidence collection procedures on their cruises; we 
encourage the rest of the industry to take similar steps, where 
appropriate, to ensure that their onboard medical personnel are 
adequately trained in proper forensic evidence collection methods.
    Ensure that cruise lines are accountable to the public to fully 
report all incidents of sexual assault.
    We applaud U.S. Reps. Matsui, Shays, Poe, and Maloney for recently 
introducing an amendment that would require certain cruise crimes to be 
publicly disclosed online by the U.S. Coast Guard as well as the cruise 
industry. This measure recently passed the U.S. House of 
Representatives as an amendment to a U.S. Coast Guard bill, and we 
encourage the Senate to pass a similar measure.
    Improve the screening and training of crew members who work with 
passengers.
    Many cruise lines serving U.S. passengers employ citizens of a 
variety of other countries as crewmembers. The screening of crewmembers 
who work with passengers may not be adequate to fully protect those on 
cruises against the risks posed by sexual predators. Because 
crewmembers have been involved in some recent reported sexual assaults, 
finding a solution to this issue should be a priority for Congress and 
the industry.
    Encourage cruise lines to educate their passengers, before the ship 
departs, about the onboard risk of sexual assault and what to do if 
they, or a friend or relative, is assaulted during the voyage.
    The cruise industry's advertising materials foster an image of 
cruise ships as safe and fun havens for vacationing Americans to relax. 
Parents of children who were assaulted on a cruise occasionally tell us 
that they let their guard down more while onboard than they would have 
at home (e.g., by allowing their child to move freely about the ship 
without adult supervision). Ideally, the entire cruise industry should 
provide passengers, at the outset of a voyage, with safety information 
that notes the specific risks to children and youths while traveling on 
the cruise, gives safety tips for crewmembers and passengers, and 
explains what to do if you or a friend or family member is assaulted 
while on a cruise.
Conclusion
    In closing, thank you for your time and for inviting me to testify. 
I look forward to continuing to work with you, Mr. Chairman, the 
Ranking Member, and the other Members of this Subcommittee on solutions 
to the important issues discussed at today's hearing.

    Senator Kerry. We appreciate it. Thank you very much for 
doing so.
    Mr. Dale?

   STATEMENT OF TERRY DALE, PRESIDENT AND CEO, CRUISE LINES 
  INTERNATIONAL ASSOCIATION (CLIA); ACCOMPANIED BY JAMES ALAN 
                           FOX, Ph.D.

    Mr. Dale. Good morning, Mr. Chairman and members of the 
Subcommittee. My name is Terry Dale, and I'm the President and 
Chief Executive Officer of Cruise Lines International 
Association, headquartered in Fort Lauderdale, Florida. I 
greatly appreciate the opportunity to testify before you today.
    I have submitted a formal statement for inclusion in the 
record of this hearing, which, in the interest of time, I will 
briefly summarize.
    CLIA represents 24 cruise lines, whose vessels range in 
size from 50 passengers to 4,000 passengers, and 16,500 travel 
agencies. In the audience today is Mr. Bill Walsh, President of 
Cruise Travel Outlet, and one of the top producing travel 
agents for MASSPORT. Agents like Bill are our industry's front-
line partners. In fact, in the past 20 years, he has sold 
thousands of cruises, yet he has never had a single call from a 
passenger claiming to be a victim of a crime.
    This hearing will examine cruise ship safety, which is the 
cruise industry's number-one priority for its passengers and 
crew. Quite simply, Americans are extremely safe at sea today. 
According to Coast Guard Admiral Wayne Justice, and I quote, 
``There is no serious evidence to suggest that there is 
significantly more, or more serious, crimes affecting U.S. 
nationals onboard cruise ships than indicated by the reporting 
data,'' end of quote.
    Why, then, have these questions about safety been raised? I 
believe there are three reasons:
    First, our care and compassion in the past toward these 
individuals who have suffered has not always been satisfactory. 
However, we have made great strides to improve our services.
    Second, we are the only vacation industry required by law 
to immediately report any serious incident and every allegation 
to Federal authorities. In this case, the FBI and U.S. Coast 
Guard. This reporting is mandatory, not voluntary.
    Third, when incidents have occurred, they typically receive 
far more attention than comparable incidents in land-based 
settings.
    As you know, Mr. Chairman, there have been four House 
hearings on this issue, the most recent in September 2007. 
Since that hearing, we have held several all-day meetings with 
our working group of family members and their representatives 
to share and exchange ideas and recommendations. Our cruise 
lines now use an FBI DVD for enhanced security training, and 
offers instruction on an initial response and crime-scene 
management. CLIA's two largest cruise lines have their security 
training programs certified by internationally recognized 
security organizations. Finally, our member lines guest-care 
programs have trained more than 3500 employees, to date.
    Mr. Chairman, these are just some of the actions we have 
taken since the September hearing. Also at that hearing last 
fall, Coast Guard Admiral Justice testified, and I quote, ``We 
see no emerging requirement for legislative change regarding 
the incident reporting requirements,'' end of quote. He added 
that there were no known incidences of shipboard crimes being 
unreported. Clearly, the authorities would know if they were 
not receiving accurate reports; and I would add that, in this 
day and age of cell phones, camera phones, and Internet access, 
the likelihood that a serious incident would go unnoticed, let 
alone unreported, is highly unrealistic.
    The House hearings also demonstrated that crime on cruise 
ships is extremely rare. The FBI statistic--or, they stated 
that 207 incidents had been reported by CLIA member cruise 
lines to the Bureau for the 6-month period prior to the 
hearing, and, according to the subcommittee hearing memo, that 
translates into fewer than .01 percent of passengers on cruise 
ships during that period.
    In March of last year, we worked with the FBI and Coast 
Guard to develop a standardized crime reporting protocol and 
continue to work closely with the FBI, Coast Guard, and all 
Federal authorities, as well as the International Maritime 
Organization.
    Based on Federal and international regulations, the 
following is strictly adhered to. Anyone boarding one of our 
ships, and every piece of their luggage, is subject to rigorous 
screening. Each cruise ship has embarkation and debarkation 
controls, including biometric verification of all passengers 
and crew. All passengers and crew lists are electronically 
submitted to U.S. authorities prior to departure from or 
arrival to the United States, and screened against law 
enforcement data bases. Each cruise ship has a highly trained 
chief security officer and trained security staff to provide 
safety onboard. Each cruise line also has security officers at 
the corporate level, usually ex-law enforcement, Coast Guard, 
or military, in charge of fleet-wide security and training.
    Based on these facts, it is clear that we provide a safe 
and secure passenger environment. This is part of the reason 
why independent surveys show that 95 percent of cruise 
passengers are satisfied with their cruising experience, and 
more than half of our passengers today are repeat customers who 
are cruising for the second, third, fourth, and, many times, 
even a dozen times.
    In closing, Mr. Chairman, as an industry, we deeply regret 
any incident that occurs on our ships. We have worked closely 
with families and their representatives to provide 
compassionate care. Our goal remains zero incidents. This 
industry works diligently every day to achieve this goal. We 
have a very good record when it comes to passenger safety, and 
we want to keep it that way. Passenger safety is, and always 
will be, our number-one priority.
    Thank you very much.
    [The prepared statement of Mr. Dale follows:]

   Prepared Statement of Terry Dale, President and CEO, Cruise Lines 
 International Association (CLIA); Accompanied by James Alan Fox, Ph.D.
Introduction
    My name is Terry Dale. I am President and Chief Executive Officer 
of the Cruise Lines International Association (CLIA), which has its 
headquarters in Fort Lauderdale, Florida.
    My association represents 24 cruise lines, whose vessels range in 
size from 50 passengers to 4,000 passengers. Our membership also 
includes 16,500 travel agencies and more than 100 business partners who 
provide a vast range of products and services to the cruise industry. 
These businesses are located throughout the U.S. and create thousands 
of jobs.
    We have representatives and letters from the American Society of 
Travel Agents (ASTA), National Business Travel Association (NBTA), 
National Association of Cruise Only Agencies (NACOA) and the National 
Association of Commissioned Travel Agents. Each of these organizations 
attests to peoples' personal experiences with cruising and their views 
that it is a very safe experience.
    In the audience today is Bill Walsh, President of Cruise Travel 
Outlet, who met with staff last week and shares a long affiliation with 
Massachusetts and the cruise industry.
    Travel agents like Bill Walsh are our front line partners. Travel 
agents are among the very first to hear if there is a serious incident, 
or for that matter, almost any kind of incident aboard a ship.
    Bill readily acknowledges that the cruise industry has a 95 percent 
satisfaction rating. In fact, in the 20 years he has been selling 
cruises, he has never received a call from a passenger claiming to have 
experienced a serious crime.
    The purpose of this hearing is to examine cruise ship safety, and 
specifically ``potential steps for keeping Americans safe at sea.''
    This is an excellent subject, and many ``steps'' have already been 
taken. I appreciate the opportunity to provide an update and address 
some of the misunderstandings I believe exist.
    I am pleased to be on a panel with Ken Carver, a member of CLIA's 
Survivor Working group and a person I have had an ongoing dialogue 
regarding cruise ship security. I am pleased that Evelyn Fortier of 
RAINN is also on the panel. I have great respect for RAINN and the 
wonderful resource that their association provides to victims of sexual 
assault. I look forward to having a dialogue with RAINN.
    The cruise industry's number one priority is safety of its 
passengers and crew.
    Quite simply, Americans are extremely safe at sea today.
    In many ways, well documented by statistics and other evidence, 
Americans are much safer in the well protected environment of a cruise 
ship than they are on land.
    Our industry has no higher priority--no stronger commitment--than 
to maintaining our excellent record for the safety and security of all 
passengers.
    Why, then, have these questions about safety even been raised?
    I believe there are three principal reasons.

        1. Our care and compassion in the past toward those who have 
        suffered injury or loss has not always been satisfactory. We 
        have made great strides over the past 2 years to improve our 
        procedures, to provide more support to those who have been 
        injured or families that have been affected; and we are 
        committed to continuing these efforts.

        2. We are the only travel industry required by law to 
        immediately report any serious incident or even allegation to 
        Federal authorities; in this case, the FBI and the U.S. Coast 
        Guard.

        3. When unfortunate incidents have occurred they typically 
        receive far more publicity than comparable incidents in land-
        based settings.

    There have been four House hearings on this issue, the most recent 
in September 2007 and since that hearing:

  <bullet> We have held two more two all-day meetings with the working 
        group of family members and their representatives to share and 
        exchange ideas and recommendations. These meetings have 
        provided a forum by which the families have heard directly from 
        the FBI, the U.S. Coast Guard and the U.S. Attorneys Office. 
        Our last meeting in Miami was held over several days and 
        representatives of these agencies gave detailed briefings and 
        answered many questions. The FBI also met with our group in 
        November and discussed a new security training DVD that they 
        were developing expressly for use by the cruise lines. 
        Separately and during the Miami meeting the working group also 
        addressed about 50 recommendations that had been put forward by 
        the families.)

  <bullet> Our major cruise lines now use the previously mentioned FBI-
        provided DVD for security training. The DVD offers FBI 
        instruction on: initial response to a crime scene; securing a 
        crime scene; crime scene photography and evidence collection.

  <bullet> Two of CLIA's largest cruise lines have their security 
        training programs certified by Lloyds Register, an 
        internationally recognized security organization and a UK 
        government program through Security Industry Authority.

  <bullet> This spring CLIA sponsored the Family Assistance Foundation 
        symposium in Atlanta, where a panel of survivors shared ideas 
        and experiences with the audience.

  <bullet> Our member lines' guest care programs have trained more than 
        1000 employees, bringing the total to date to more than 3000.
Crime Reporting
    With respect to the reporting of such incidents, both the FBI and 
the U.S. Coast Guard have testified that the system is working 
efficiently.
    Last September, Rear Admiral Wayne Justice, Assistant Commandant of 
the U.S. Coast Guard, testified to the House Subcommittee on Coast 
Guard and Maritime Transportation, and said: ``We see no emerging 
requirement for legislative change regarding the incident reporting 
requirements.''
    He added that there were no known incidences of shipboard crimes 
going unreported.
    Clearly, if the authorities were receiving reports from others that 
had gone unreported by the industry, the authorities would know this. 
As an aside, in this day and age of cell phones, camera phones and Wi-
Fi cafes, the likelihood that a serious incident would go unnoticed, 
let alone unreported, would be very rare.
    The House hearings also demonstrated that crime on cruise ships is 
extremely rare. Based on FBI reports from a 6-month period, the Coast 
Guard Subcommittee in its September 2007 hearing memo noted that there 
were fewer than point zero 1 percent (0.01 percent) of passengers had 
been involved in a reported incident during that time period.
Safety and Security Measures
    To give a sense of what these requirements mean in practice:

  <bullet> Anyone boarding one of our ships is subject to more rigorous 
        screening than is required for airline passengers at most of 
        the world's airports.

  <bullet> Every piece of personal luggage is strictly screened.

  <bullet> Each cruise ship has embarkation and debarkation controls 
        including biometric verification of all passengers and crew.

  <bullet> All lists of passengers and crew are electronically 
        submitted to U.S. authorities prior to departure from or 
        arrival in the United States and screened against law 
        enforcement data bases.

  <bullet> Each cruise ship has a qualified security officer and 
        trained security staff whose duties are solely to provide 
        onboard security for the passengers and crew, as well as for 
        the vessel itself. These security officers are experienced 
        highly-trained professionals.

  <bullet> Each cruise line also has supervisory security officers at 
        the corporate level, usually ex-law enforcement, Coast Guard or 
        military, in charge of managing fleet wide security and 
        training of the vessel security officers.

  <bullet> Every crew member is required and trained to look out for 
        the security of all passengers.

  <bullet> In addition, all major cruise lines now have trained staff 
        to counsel and support families and individuals during 
        emergency situations.
Passenger Satisfaction
    Independent surveys show that the vast majority of cruise 
passengers, 95 percent, say they are very satisfied with their cruising 
experience. Nearly 50 percent say they are extremely satisfied. And 
more than half of all passengers are repeats--cruising for the second 
or third or fourth time.
    I submit that this would not be the case if safety or security were 
perceived as a serious problem. As the U.S. Coast Guard has testified, 
crimes onboard cruise ships are extremely rare.
    I hope this background is helpful in assessing the level of safety 
and security for cruise ship passengers, despite the reports you may 
have heard of rare criminal activity, including sexual assaults, that 
have been widely reported, completely investigated, and yet sometimes 
exaggerated.
    As an industry and as individuals, we deeply regret any such 
incident, and that in some cases, we have not provided sufficient 
support to the individuals or families affected. We have acknowledged 
this and over the past 2 years have worked closely with those families 
and their representatives and have welcomed their recommendations for 
improving our passenger services. Each of our large cruise ships now 
has specialized counselors.
    Again the safety and security of our passengers is, has to be, and 
always will be our highest priority. We are constantly reviewing and 
improving our procedures.
    Our position is that incident or crime of any kind is one too many.
Misleading Statistics
    Regrettably, assertions are sometimes made and unofficial 
statistics are sometimes quoted that bear no relation to any known 
reality. I would like to try to clarify this point.
    For example, at the September 2007 hearing of the House 
Subcommittee, a witness stated that the rate of ship-board sexual 
assaults is twice the rate of those occurring on shore. The two figures 
serving as the basis for that statement, however, were shipboard sexual 
assaults and land-based forcible rapes. The difference between those 
two categories is significant because the definition of ``sexual 
assault'' includes behaviors such as the intentional touching of 
certain body parts through clothing. In addition, the FBI has confirmed 
that it does not even calculate the rate of land-based sexual assaults. 
Despite this key fact, the critics have continued to cite the FBI's 
statistics for ``forcible rapes'' that occur on land, mischaracterizing 
them as the (non-existent) land-based sexual assault rate, and 
misleadingly comparing them to the more broadly-defined ``sexual 
assault rate'' on ships. This is the basis for the false claim that a 
person is twice as likely to suffer a sexual assault onboard a ship as 
on land. We appreciate the opportunity to clarify the record on this 
important point.
Conclusion
    In closing, let me say thank you again for conducting this hearing. 
We believe the record is clear--cruising is a very safe way to 
vacation, and our customer satisfaction levels, which are among the 
highest for any industry, would verify this fact--especially when 
placed along side the Federal data.
    Our industry, as verified in previous testimony before the House of 
Representatives, is reporting all incidents--even allegations--and this 
reporting system is working well.
    Our goal remains zero incidents and this industry works diligently 
every day to reach this goal. We have a very good record when it comes 
to passenger safety but we can always try and do more.
    Passenger Safety is, AND WILL ALWAYS BE, our Number One priority.
    Thank you.
Additional Cruise Statistics for States Represented by Members of the 
        Subcommittee on Surface Transportation and Merchant Marine 
        Infrastructure, Safety, and Security
                                 Alaska
  <bullet> Alaska embarked over 178,000 passengers in 2006.
  <bullet> Almost 7,000 of Alaska's residents traveled on a cruise 
        vacation in 2006.
                               Louisiana
  <bullet> The Port of New Orleans embarked 72,000 cruise passengers in 
        2006.
  <bullet> More than 85,000 of Louisiana's residents traveled on a 
        cruise vacation in 2006.
                                 Maine
  <bullet> Ports in Maine embarked over 130,000 passengers in 2006.
  <bullet> Over 16,000 of Maine's residents traveled on a cruise 
        vacation in 2006.
                             Massachusetts
  <bullet> Operating on a seasonal schedule from April to November, 
        Cruiseport Boston embarked over 62,000 passengers in 2006.
  <bullet> Over 500,000 of Massachusetts' residents traveled on a 
        cruise vacation in 2006.
                              Mississippi
  <bullet> More than 30,000 of Mississippi's residents traveled on a 
        cruise vacation in 2006.
                               New Jersey
  <bullet> Cape Liberty embarked over 160,000 cruise passengers in 
        2006.
  <bullet> Almost 322,000 of New Jersey's residents went on a cruise 
        vacation in 2006.
                                 Oregon
  <bullet> Almost 60,000 of Oregon's residents traveled on a cruise 
        vacation in 2006.
                             South Carolina
  <bullet> Operating on a seasonal schedule from September-June, the 
        Port of Charleston embarked over 105,000 cruise passengers in 
        2006.
  <bullet> Almost 110,000 of South Carolina's residents traveled on a 
        cruise vacation in 2006.
                                 Texas
  <bullet> The Port of Galveston embarked over 617,000 passengers in 
        2006.
  <bullet> Almost 730,000 of Texas' residents traveled on a cruise 
        vacation in 2006.
                               Washington
  <bullet> The Port of Seattle embarked over 370,000 cruise passengers 
        in 2006.
  <bullet> Over 180,000 of Washington's residents traveled on a cruise 
        vacation in 2006.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
              Cruise Lines International Association, Inc.
Executive Partners
1 Priority Bicidal, LLC
Aker Yards
Amadeus North America, Inc.
American Association of Port Authorities (AAPA)
American Bureau of Shipping
American Guard Services, Inc.
Bahamas Maritime Authority
Bellcomb Technologies
Bellegrove Medical Supply
The Berkely Group
BMT Group
Board of Commissioners of the Port of New Orleans
Business Research & Economic Advisors (BREA)
Chamber of Commerce and Industry of South Corsica (CCIACS)
Cruise Norfolk
Cruise Saint Lawrence
The Coca-Cola Company
Ege Ports/Kusadasi Cruise Port
European Cruise Council
Fidelio Cruise Software, Inc.
Fincantieri-Cantieri Navali Italiani S.p.A
Florida-Caribbean Cruise Association
Flamenco Marina
Fowler White Burnett, P.A.
Freeport Harbour Company
Fujifilm USA, Inc.
Gard
Germanischer Lloyd AG
Hayden, Miliken, Boeringer & Irick PA
Halifax Port Authority
Hamilton, Miller & Birthisel, LLP
Hamworthy Water Systems, LTD
Hill, Betts & Nash, LLP
Hydroxyl Systems, Inc.
The Image Group
International Paint, LLC
Jacksonville Port Authority
Jotun Paint, Inc.
Kaye, Rose & Partners, LLC
The Kezia Group
Lloyd's Register North America, Inc.
Maine Port Authority
Maritime Telecommunications Network/SeaMobile Enterprises
Marseille-Provence Cruise Club
Marsh, Ltd.
Maryland Port Administration
Mase & Lara. P.A.
Massachusetts Port Authority
McAlpin Conroy, P.A.
McIntosh, Sawran, Peltz & Cartaya, P.A.
McRoberts Maritime Security, Inc.
MEIKO Marine
Metro Cruise Services, LLC
MEYER WERFT GmbH
MHG Services, Inc.
Milliken Carpet
Montreal Port Authority
NYCruise
On-Board Movies
Passenger Shipping Association (PSA)
Port Canaveral
Port Everglades
Port of Galveston
Port of Houston Authority
The Port of Los Angeles
Port Miami
Port of Palm Beach
Port of San Diego
Port of San Francisco
Port of Seattle
Port of Shanghai
Port of Saint John
Ports America, Inc.
Quebec Port Authority
RINA S.P.A.
Royal Marine insurance Group/RMIG
Seatrade Cruise Shipping Convention/CMP Princeton, Inc.
Steamship Insurance Management Services Limited (SIMSL)
Tampa Port Authority
The Port of Philadelphia and Camden, a Department of DRPA of PA & NJ
Throdon Bearings, Inc.
UK P&I Club
Unisource Worldwide, Inc.
Universal Marine Medical Supply
Vickers Oils
Wartsila
Wireless Maritime Services, LLP
World Cruise Industry Review
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Kerry. Thank you, Mr. Dale, appreciate it.
    Dr. Klein?

 STATEMENT OF ROSS A. KLEIN, Ph.D., PROFESSOR OF SOCIAL WORK, 
    MEMORIAL UNIVERSITY OF NEWFOUNDLAND, ST. JOHN'S COLLEGE

    Dr. Klein. Let me first thank the Committee for holding 
these hearings and for giving me the opportunity to speak.
    I sincerely believe that crimes against Americans on cruise 
ships is a problem that needs to be addressed, and encourage 
the Committee to seriously consider means for protecting 
Americans choosing cruise vacations on foreign-flagged cruise 
ships operating out of U.S. ports and around the world.
    There is little question that sexual assaults and other 
crimes are a problem on the cruise ships, as they are 
elsewhere. However, the problem is perhaps more severe on a 
cruise ship. Given the cruise industry's claim that a cruise is 
the safest form of commercial transportation, passengers go 
onboard unaware of the risks they face. They allow the children 
to roam without supervision, and adults fail to take 
precautions they take on land. The situation is made worse by 
the relaxed attitude that comes with being on vacation, lowered 
defenses that come with consumption of alcohol, and an 
unnatural sense of safety, given the uninhibited sociality that 
comes with being on a cruise.
    In 1999, the cruise industry claimed that the number of 
reported shore-side aggravated sexual assaults was at least 20 
to 50 times greater than the total number of all reported 
shipboard assaults of any type. Carnival Cruise Lines had just 
admitted in the discovery phase of a lawsuit involving an 
alleged rape that it had received 108 complaints of sexual 
assaults involving crew members in 5 years. Royal Caribbean 
said it had received 58 complaints in the same time period.
    In response to these disclosures, four cruise corporations, 
representing more than 75 percent of the industry, signed a 
letter of commitment in July 1999 pledging a zero-tolerance 
policy for crimes committed onboard cruise ships, and 
established an industry standard requiring allegations of 
onboard crime be reported to the appropriate law enforcement 
authorities. For vessels calling on U.S. ports or crime 
involving U.S. citizens, this meant the FBI.
    Interestingly, cruise lines were already expected to report 
to the U.S. Coast Guard all crimes involving U.S. citizens on 
cruise ships, but it isn't clear that the information was being 
reported or being sought.
    Just 7 years later, based on statistics for 2003 through 
2005, the cruise line--the cruise industry testified to a 
Subcommittee of the House of Representatives that the rate of 
sexual assault on cruise ships was, at worst, half that found 
in the United States, generally. This suggests that it was 
either as much as a 25-fold increase in sexual assaults between 
1999 and 2003 or that the claims made in 1999 were false and 
unfounded.
    The industry's 2006 testimony was questioned, a year later, 
through analysis of data presented in a Los Angeles Times 
article, which showed the rate of sexual assaults was actually 
almost twice that found in the U.S. The industry responded; 
they said that what they meant in their Congressional testimony 
was forcible rape, not sexual assaults.
    One independent set of statistics for rate of sexual 
assault on cruise ships is raw data provided by Royal Caribbean 
International in discovery in a lawsuit in Florida. The data 
covers all sex-related incidents in a 3-year period from 2003 
through 2005. It reveals that the rate of sexual assault on 
cruise ships compared to the rate of forcible rape in the 
United States is not half, but almost twice the U.S. rate. This 
rate is validated by data presented by the FBI in Congressional 
hearings in September 2007. It indicates a rate of sexual 
assault of 56.9 per 100,000 population.
    It isn't only sexual assaults that are a problem. The first 
hearings in the House of Representatives, in December 2005, 
were concerned with a cluster of cases where a passenger 
disappeared from a cruise ship. The issue was raised in June 
2005 in a Business Journal of Jacksonville article written by 
Mary Moewe. She had found that, since 2000, at least 12 cruise 
ship passengers had gone overboard or disappeared in 11 cases. 
Two passengers were rescued, two were confirmed dead, and eight 
passengers are still missing. These eight remain a mystery.
    Unbeknownst to Moewe, the numbers were actually much 
higher. Because no cruise line kept track of persons going 
overboard, and no Federal agency had responsibility for 
monitoring these events, she was left to rely on information 
that was readily available. The most comprehensive list of 
persons going overboard from cruise ships at the time was 
online at CruiseJunkie.com. The site reports 47 incidents 
during the same time period covered by Moewe's article.
    Another issue raised in the March 2006 hearing was robbery 
and theft. The industry claimed that, then, there was only four 
known robberies industrywide in the 3-year period 2003-2005. 
That meant an annual rate of 1.33. However, the FBI reported, 
in 2007, an annualized rate of 135. That yields a rate of 44.7 
per 100,000. This is 90 times greater than what the industry 
admitted to in its March 2006 testimony.
    With this said, and in this context, I suggest three 
things:
    There needs to be a clear definition of crimes reportable 
by cruise ships, and there should be mandatory reporting, as 
there is in every jurisdiction in the U.S., with regard to 
child sexual abuse. This also means there should be clear and 
meaningful penalties for not reporting.
    A second set of recommendations emerges from 1999 reports 
by consultants hired by Royal Caribbean Cruises, Limited. Many 
of the recommendations are spot on, but have not been 
implemented, or have been implemented in a haphazard and 
inconsistent manner. Some that still need better implementation 
include standardizing the response to incidents of crime across 
all ships and across all brands; advocates and counselors 
onboard who are available to support and care for victims; a 
hotline reporting system off-ship that may be used by those 
who, not surprisingly, feel unsafe about reporting an incident 
onboard; better surveillance and greater use of CCTV cameras, 
in key areas of the ship, which are regularly monitored, and 
tapes stored for a reasonable period, at least as long as the 
period stipulated in the passenger contract in which a 
passenger may launch a lawsuit; there should also be better 
education of crew and passengers about safety, security, and 
about the limited nature of permitted interactions between 
passengers and crew; and, of key importance, effecting a 
meaningful and significant change in shipboard culture and 
tolerance of misdeeds. Many crimes occur because perpetrators 
know they will not be caught; and, if caught, they will not be 
punished.
    The third--my third point is that many recommendations are 
contained in the ICV's ten-point program. Given that their 
insights are based on direct experience, and their 
recommendations are informed by the pain and suffering they 
have endured, they can better express than I many of the things 
the industry could and should be doing.
    Thank you.
    [The prepared statement of Dr. Klein follows:]

 Prepared Statement of Ross A. Klein, Ph.D., Professor of Social Work, 
        Memorial University of Newfoundland, St. John's College
    A not uncommon problem is the allegation of sexual assault on 
passengers by crewmembers, particularly cabin, table or bar stewards. 
Members must have rigorous policies prohibiting socializing between 
crew and passengers. Any crewmember, found in a passenger area where he 
should not be, should be subject to dismissal for the first offense. A 
cruise operator must take reasonable care to investigate a crewmember's 
background before hiring him. There is at present a split of authority 
between U.S. courts as to whether cruise operators are strictly liable 
for assaults by crew or whether operators are only liable if they are 
negligent in hiring or supervising crew members. The majority of the 
circuits have decided that operators are only liable for negligence. (A 
Guide to P&I Cover, The Standard, 2007)
    The contrast is stark. The cruise industry's insurance carrier 
states that sexual assault is a not uncommon problem, but the industry 
itself claims a cruise to be the safest form of commercial 
transportation. The industry's claim is grand--one which most 
passengers take at face value.
    The Morgans (a pseudonym) took a cruise in 2005, never thinking 
twice about it being unsafe for their 8 year old middle daughter to go 
back to the family's cabin on her own. Along the way the youngster 
became confused and asked a crewmember in uniform for assistance. 
Instead of helping, the male (wearing a cruise line name plate) 
allegedly took the girl to a dark end of a corridor where there were no 
surveillance cameras and he masturbated in front of her. It was 
subsequently learned that the crewmember had previously worked for a 
different cruise line that had ``do not rehire'' marked on his 
personnel file. But he passed background checks and was hired by the 
current cruise line. It seems the cruise line also failed to notice 
that the name under which the man had applied for employment was 
different than the name on his passport.
    Laurie Dishman also believed cruises were safe. She and her best 
friend in February 2006 chose a cruise to the Mexican Riviera to 
celebrate thirty years of friendship and to celebrate Laurie's 
birthday. But things quickly turned from good to bad when a security 
guard raped Laurie on day two of the cruise. The security guard, she 
learned later, was actually a janitor ``filling in'' for security in 
lounges to check IDs because there were not enough security personnel 
on board.
    The cruise industry would prefer these experiences not be 
broadcast: when they are made public they are characterized as isolated 
exceptions or as statistically insignificant. But the fact is that 
sexual assaults have been recognized as an ongoing problem on cruise 
ships for decades.
Scope of the Problem
    ``Cruise ships are as safe an environment as you can find,'' was 
what a Carnival Cruise Lines spokesperson said during a court case 
involving a fourteen year old child who was raped in 1989 on Carnival's 
Carnivale. Rape, he said, ``happens in houses, offices, hotels, and 
parking lots'' (Adams 1990:1).
    In this child's case, the rape occurred onboard in a cleaning 
closet. As the ship was returning to Miami from the Bahamas she went to 
the family's cabin (while other family members remained on deck) at 
5:30 A.M. to check on a suitcase. While in the elevator, a male 
crewmember--a cleaner onboard the ship--kissed and fondled her. He then 
dragged her from the elevator to a cleaning closet and raped her on the 
floor. The girl picked the thirty-two year old crewman, a Colombian 
national and father of two, out of a line up. In February 1990, he was 
found guilty of the charges and sentenced to thirty years in prison. 
The case received considerable attention because it was the first time 
a crewmember on a foreign-flagged cruise ship had been successfully 
prosecuted. The assault had occurred while the ship was within U.S. 
territorial waters (Adams 1990: 1).
    Sexual assaults on cruise ships first gained the national media's 
interest in 1999. One peak was in July 1999 when Carnival Cruise Lines 
disclosed in the discovery phase of a lawsuit involving an alleged rape 
that it had received 108 complaints of sexual assaults involving 
crewmembers in the 5-year period ending August 1998. Royal Caribbean 
said it had had fifty-eight reported sexual assaults on its ships 
during the same 5-year period.
    Several months earlier an investigative journalist with the New 
York Times, Douglas Frantz, published an article entitled ``On Cruise 
Ships, Silence Shrouds Crimes'' where he describes an alarming range of 
passenger claims of sexual assault and discusses how they were handled 
by the cruise lines. Based on examination of court records and on 
interviews with cruise line employees, law enforcement officials, and 
passengers and their lawyers, Frantz describes

        . . . a pattern of cover-ups that often began as soon as the 
        crime was reported at sea, in international waters where the 
        only police are the ship's security officers. Accused 
        crewmembers are sometimes put ashore at the next port, with 
        airfare to their home country. Industry lawyers are flown to 
        the ship to question the accusers; and aboard ships flowing 
        with liquor, counterclaims of consensual sex are common. The 
        cruise lines aggressively contest lawsuits and insist on 
        secrecy as a condition of settling. (Frantz 1998)

    He cites a former chief of security for Carnival Cruise Lines as 
saying:

        You don't notify the FBI. You don't notify anybody. You start 
        giving the victims bribes, upgrading their cabins, giving them 
        champagne and trying to ease them off the ship until the legal 
        department can take over. Even when I knew there was a crime, I 
        was supposed to go in there and do everything in the world to 
        get Carnival to look innocent. (Frantz 1998)

    Once a crime is reported, there are problems with preserving 
evidence. Passenger cabins are routinely cleaned twice a day, so much 
evidence is destroyed very quickly and there is often a delay between 
an attack and landing at a U.S. port. Rape experts suggest that cases 
reported within seventy-two hours provide the best forensic evidence 
but this time-frame is difficult for attacks on a cruise ship. In 
addition, many victims are likely to delay making a report as long as 
they are aboard a ship because of fear of reprisal and because there is 
no independent investigator or rape-treatment centre. Sadly, rapes on 
cruise ships may often not be reported until it is too late for 
criminal investigation.
    In those cases where a sexual assault is reported in a timely 
manner, victims and prosecutors were traditionally faced with a common 
practice among cruise lines to immediately send the accused back home, 
purportedly because they have violated company policies that prohibit 
fraternizing between passengers and crew. Reporters for the Miami New 
Times found that in each of five lawsuits against Carnival Cruise Line 
they reviewed, the employee was swept out of the country immediately 
after the ship arrived in port. In one case the employee was later 
rehired by the company and was subsequently served with a summons while 
at the dock in Los Angeles. Carnival's lawyers successfully argued the 
Indian citizen couldn't be sued in U.S. courts because American laws 
did not apply to him: not only is he a foreigner, but the alleged crime 
took place in Barbados on a ship registered in Panama. The passenger's 
suit against Carnival Cruise Lines was settled out of court (Korten 
2000).
Early Attempts to Address the Problem
    Some cruise lines (if not all) undertook initiatives to address the 
problem of sexual assaults and other crimes, though this was mostly 
done out of the public's sight. Royal Caribbean, for one, received 
reports in May/June 1999 from two consultants charged with making 
recommendations for preventing sexual harassment and assault. The 
problem was obvious. As one report states, ``. . . improper activity 
occurs frequently aboard cruise ships, but goes unreported and/or 
unpunished'' (Krohne 1999: 2). The other report acknowledged that 
``crew members generally understand that if they commit an offence and 
are caught they are most likely going to lose their job and be returned 
home, but not spend time in jail'' (Greenwood, 1999: 4).
    The reports make a range of recommendations, including: increased 
video surveillance of high risk areas (including the disco bar and 
dance area, main service corridors on crew decks and key intersections 
on passenger decks, and youth activity areas); cameras already in place 
be monitored periodically, at least on a random basis, and be recorded 
at all times; an increase in the number of security staff by two per 
ship; and increased training and education of staff and crew members. 
In addition they recommended that responses to sexual harassment and 
assault be standardized across brands and ships, that training for 
medical personnel include an interview protocol for sexual assault 
incidents, that a staff member be identified and assigned 
responsibility to serve as an advocate for the target of sexual 
harassment or assault, that a shore side hotline be established to 
receive telephone reports of wrongdoing and that investigations be 
consistent and evenly handled. Given their assumption that cruise 
passengers were unaware of the prohibition between crew and guest 
social interactions (and that passengers often, unintentionally, put a 
crew member in an uncomfortable position by engaging him or her 
socially), they also recommended better educating passengers and better 
signage onboard demarcating areas that are ``off limits'' to 
passengers. The recommendations are great, but the degree to which they 
were embraced and implemented is questionable. Many are still being 
debated and discussed; they are not found in general practice.
    The consultants also identified cultural challenges to reducing 
sexual harassment and assault. For example, senior officers and 
management need to break from the traditionally hierarchical and 
militaristic structure of a ship and instead treat their crew and staff 
members fairly and respectfully. They need to reinforce the need for 
staff and crew members to treat each other and passengers respectfully. 
If they wish to prevent sexual harassment and abuse then they must have 
zero tolerance for both, no matter the rank or position of the 
offender.
    Diverse cultural perceptions of sexual harassment and conduct among 
a ship's crew present another challenge. There is a diverse population 
drawn from around the world, and in many of these cultures women, 
women's rights and sexuality are seen quite differently than they are 
by most North Americans. These differences need to be addressed through 
better training and more effective oversight and supervision.
Managing Perceptions
    Rather than address the problem head-on, the cruise industry 
appears to be focused on managing public perceptions. In the midst of 
the heightened media coverage and interest, four cruise corporations 
(Carnival Corporation, Royal Caribbean Cruises Limited, Crystal 
Cruises, and Princess Cruises) representing more than 75 percent of the 
industry signed a letter of commitment in July 1999. Issued under the 
auspices of the International Council of Cruise Lines, they pledged a 
``zero tolerance policy'' for crimes committed onboard ships and 
established an industry standard requiring allegations of onboard crime 
be reported to the appropriate law enforcement authorities. For vessels 
calling on U.S. ports, or crime involving U.S. citizens, this meant the 
Federal Bureau of Investigation (FBI).
    Interestingly, cruise lines were already expected to report to the 
U.S. Coast Guard all crimes involving U.S. citizens on cruise ships but 
it isn't clear that the information was being reported or sought. U.S. 
authority in these cases extends from the special maritime and 
territorial jurisdiction of the United States (U.S.C. 18 CFR). Under 
U.S. Code, the government can exert authority over U.S. territorial 
seas, any place outside the jurisdiction of a nation with respect to an 
offence against a U.S. national, and a foreign-flag vessel during a 
voyage to or from the U.S. where an offence is committed against a U.S. 
national.
    The cruise industry announced its zero tolerance for crime policy 
with a press release. It reassured passengers of background checks on 
prospective employees, that crew members violating rules against 
fraternization with guests would be dismissed, that there were highly 
trained security personnel on every vessel, and that there were 
established procedures to investigate, report and refer incidents of 
onboard crime to appropriate law enforcement authorities. The press 
release told American passengers that they were protected by U.S. laws, 
that cruise lines were subject to civil liabilities in U.S. courts, and 
that they were safer on a cruise ship than in urban or rural America. 
But it didn't appear to result in greater reporting of crimes.
Minimizing the Problem
    The cruise industry has become adept at minimizing the problem. In 
1999 it claimed that the number of reported shore side aggravated 
sexual assaults was at least twenty to fifty times greater than the 
total number of all reported shipboard assaults of any type. Just 7 
years later, based on statistics for 2003 through 2005, they testified 
to a subcommittee of the House of Representatives that the rate of 
sexual assault on cruise ships was at worst half that found in the U.S. 
generally (see Fox, 2006). This suggests that there was either as much 
as a twenty-five-fold increase in sexual assaults between 1999 and 2003 
or that the claims made in 1999 were false and unfounded.
    The industry's 2006 testimony was questioned a year later through 
analysis of data presented in a Los Angeles Times article (see Yoshino, 
2007) which showed the rate of sexual assault was actually almost twice 
that found in the U.S. (see Klein, 2007). The industry responded 
privately--they clarified that what they meant in their Congressional 
testimony was forcible rape, not sexual assaults. They had taken the 
U.S. rate for forcible rape and labeled them sexual assaults. The 
integrity of their own data is unclear (e.g., what definitions were 
used to include/exclude incidents) given that it has not been available 
for independent analysis and verification.
    Most recently, the cruise industry has attempted another method for 
minimization. Rather than use a standardized rate to reflect incidence 
of sexual assaults, they now claim ``. . . there is less than a.01 
percent chance that a cruise passenger will become the victim of an 
alleged crime on a cruise vacation'' (Dale, 2007) They shifted from a 
rate based on the daily population on cruise ships (which is consistent 
with the way rates for crime are computed by the FBI) to a probability 
based on the total number of cruise ship passengers in a year. Their 
new representation translates to 10 incidents of crime per 100,000 
population. If we use this exact same method to compute the incidence 
of forcible rape in the state of California (i.e., add together the 
number of state residents and the number of tourist visitors in a year) 
it yields a rate of 0.0025 percent, well below the industry's rate of 
0.01 percent. But the comparison needs to be treated with caution given 
that the method by which it is computed is not conventionally accepted 
as a means for reflecting crime rates.
    Shifting definitions is another method used for minimizing the 
incidence of sexual assaults. As already mentioned, the cruise industry 
meant ``forcible rapes'' when they used the label ``sexual assaults'' 
in their 2006 testimony before a House of Representatives Subcommittee. 
The difference between the two terms is not trivial. The rate of 
forcible rape excludes many crimes that fall under the accepted 
definition for sexual assault, including child sexual abuse and 
exploitation for sexual purposes, unwanted sexual contact, and unwanted 
sexual acts. The definition of sexual assault, as it well should be, is 
broad and includes acts against children, men, and women and which 
involve unwanted sexual touch, unwanted sexual activity (including but 
not limited to forcible rape) and sexual exploitation.
Getting a Grip on the Size of the Problem
    There is only one independent set of statistics for the rate of 
sexual assault on cruise ships. These are based on raw data provided by 
Royal Caribbean International in discovery in a lawsuit in Florida. The 
data covers all sex related incidents in a 3-year period from 2003 
through 2005, though based on the wording of the discovery request the 
data likely under-represents incidents involving two crew members. 
Table 1 shows that data broken down by ship.
    As may be seen in Table 1, the rate of sexual assault on cruise 
ships, compared to the rate of forcible rape in the US, is not half but 
almost twice the U.S. rate. This rate is validated by data presented by 
the FBI in Congressional hearings in September 2007 and summarized in 
Table 2. The table shows an industry-wide (i.e., members of CLIA) rate 
of sexual assault of 56.9 per 100,000.

                           Table 1.--RCI ``Reported Sex Related Incidents'' 2003-2005
                      Number of Reported Incidents and Annualized Rate per 100,000 by Ship
----------------------------------------------------------------------------------------------------------------
                                                 Sexual       Sexual                            Guest --
             Ship              Inappropriate   Harassment    Assault    SH+SA (annual  Crew --    Guest  Crew --
                                   Touch          (SH)         (SA)     per/100,000)     Crew             Guest
----------------------------------------------------------------------------------------------------------------
Adventure (Double occ: 3,114)             0             3          5           57.97        0        3        3
----------------------------------------------------------------------                --------------------------
Onboard pop=4,600 |                                 21.74      36.23
Incidence/100,000
----------------------------------------------------------------------------------------------------------------
Brilliance (Double occ:                   2             6          7          139.79
 2,110)
----------------------------------------------------------------------                ------2--------2-------10-
Onboard pop=3,100 |                                 64.52      75.27
Incidence/100,000
----------------------------------------------------------------------------------------------------------------
Empress (Double occ: 1,600)               2             7          8          208.33
----------------------------------------------------------------------                ------2--------2-------10-
Onboard pop=2,400 |                                 97.22     111.11
Incidence/100,000
----------------------------------------------------------------------------------------------------------------
Enchantment (Double occ:                  1             4          4           91.94        1        2        5
 1,950)
----------------------------------------------------------------------                --------------------------
Onboard pop=2,900 |                                 45.97      45.97
Incidence/100,000
----------------------------------------------------------------------------------------------------------------
Explorer (Double occ: 3,114)              2            13         11          173.91        3        3       16
----------------------------------------------------------------------                --------------------------
Onboard pop=4,600 |                                 94.20      79.71
Incidence/100,000
----------------------------------------------------------------------------------------------------------------
Grandeur (Double occ: 1,950)              1             2          3           57.47        0        2        3
----------------------------------------------------------------------                --------------------------
Onboard pop=2,900 |                                 22.99      34.48
Incidence/100,000
----------------------------------------------------------------------------------------------------------------
Jewel (Double occ: 2,112)                 1             1          0           10.75        0        0        2
----------------------------------------------------------------------                --------------------------
Onboard pop=3,100 |                                 10.75        0.0
Incidence/100,000
----------------------------------------------------------------------------------------------------------------
Legend (Double occ: 1,804)                2             2          4           74.07        3        2        3
----------------------------------------------------------------------                --------------------------
Onboard pop=2,700 |                                 24.69      49.38
Incidence/100,000
----------------------------------------------------------------------------------------------------------------
Majesty (Double occ: 2,354)               1            10          7          161.91        0        2       13
----------------------------------------------------------------------                --------------------------
Onboard pop=3,500 |                                 95.24      66.67
Incidence/100,000
----------------------------------------------------------------------------------------------------------------
Mariner (Double occ: 3,114)               0             6          4           72.47        0        2        6
----------------------------------------------------------------------                --------------------------
Onboard pop=4,600 |                                 43.48      28.99
Incidence/100,000
----------------------------------------------------------------------------------------------------------------
Monarch (Double occ: 2,354)               6             5         15          190.48        2        8       13
----------------------------------------------------------------------                --------------------------
Onboard pop=3,500 |                                 47.62     142.86
Incidence/100,000
----------------------------------------------------------------------------------------------------------------
Navigator (Double occ: 3,114)             3             6          8          101.45        0        1       13
----------------------------------------------------------------------                --------------------------
Onboard pop=4,600 |                                 43.48      57.97
Incidence/100,000
----------------------------------------------------------------------------------------------------------------
Radiance (Double occ: 2,110)              4             7          3          107.53        1        2       10
----------------------------------------------------------------------                --------------------------
Onboard pop=3,100 |                                 75.27      32.26
Incidence/100,000
----------------------------------------------------------------------------------------------------------------
Rhapsody (Double occ: 2,000)              0             3          7          111.10        0        2        5
----------------------------------------------------------------------                --------------------------
Onboard pop=3,000 |                                 33.33      77.77
Incidence/100,000
----------------------------------------------------------------------------------------------------------------
Serenade (Double occ: 2,112)              0             5          2           75.27        1        3        3
----------------------------------------------------------------------                --------------------------
Onboard pop=3,100 |                                 53.76      21.51
Incidence/100,000
----------------------------------------------------------------------------------------------------------------
Sovereign (Double occ: 2,276)             1             5          7          114.65        2        1        9
----------------------------------------------------------------------                --------------------------
Onboard pop=3,400 |                                 49.02      65.63
Incidence/100,000
----------------------------------------------------------------------------------------------------------------
Splendour (Double occ: 1,804)             1             2          0           24.69        0        0        3
----------------------------------------------------------------------                --------------------------
Onboard pop=2,700 |                                 24.69        0.0
Incidence/100,000
----------------------------------------------------------------------------------------------------------------
Vision (Double occ: 2,000)                7             4          4           88.88        3        2       10
----------------------------------------------------------------------                --------------------------
Onboard pop=3,000 |                                 44.44      44.44
Incidence/100,000
----------------------------------------------------------------------------------------------------------------
Voyager (Double occ: 3,114)               2            11         14          181.16        3        7       17
----------------------------------------------------------------------                --------------------------
Onboard pop=4,600 |                                 79.71     101.45
Incidence/100,000
----------------------------------------------------------------------------------------------------------------

----------------------------------------------------------------------------------------------------------------
    Totals                               36           102        113                       24       50      151
----------------------------------------------------------------------------------------------------------------
Onboard pop=64,000 |                                53.12      58.85          111.97    10.7%    22.2%    67.1%
Incidence/100,000
----------------------------------------------------------------------------------------------------------------
U.S. Rate for sexual assaults                                  32.20
----------------------------------------------------------------------------------------------------------------

----------------------------------------------------------------------------------------------------------------
Place of Incident: Unknown (26.6%), Pax Cabin (20.1%), Bar/Disco (10.8%), Other (6.0%), Dining Area (5.4%), Spa/
 Salon (5.4%), Public area (4.8%), Cabin--Officer/Crew (3.6%), Corridor (3.0%), Deck area (2.7%), Ashore (2.7%),
 Child/teen area (2.4%), Elevator (1.8%), Swimming Pool (1.5%), Crew area (1.5%), Public restroom (1.5%)
----------------------------------------------------------------------------------------------------------------

Explanatory Notes for Table 1
    Data in this table was provided as part of discovery in a lawsuit 
involving the sexual assault of a passenger by a crew member. As such, 
the data only includes incidents reported to the cruise line and in 
turn reported in discovery. Given the limited purpose of the discovery 
request, it is suspected that incidents involving two crew members are 
under-reported.
    The table shows reported incidents that have been labeled by the 
victim and/or cruise line as inappropriate touch, sexual harassment, 
sexual assault, or sexual battery. Cases of sexual battery have been 
included under the label ``sexual assault.''
    The raw data included 41 incidents labeled inappropriate touching, 
92 incidents labeled sexual harassment, 114 incidents labeled sexual 
assault, and 12 incidents labeled sexual battery. After cleaning for 
accurate labeling, eight incidents were dropped because they were 
wholly mislabeled; they are not included in the table.
    The table shows both the ship's passenger numbers (assuming double 
occupancy) and an estimate of total ship population that includes crew 
members and additional passengers given that many ships sail with more 
passengers than the double occupancy figure.
    The comparison of reported incidents of sexual assault with the 
U.S. rate of sexual assault (as defined by the cruise industry as only 
forcible rapes) must be interpreted with caution. Technically, such a 
comparison can be misleading, however the cruise industry chose to make 
this comparison in testimony provided to Congress by James Fox in March 
2006 and on that basis to claim that one is safer on a cruise ship than 
on land. Perhaps more informative is a comparison of Dr. Fox's 
assertion that there are 17.6 reported incidents of sexual assault per 
100,000 with the data in this chart. This chart shows a rate of sexual 
assault that is 3.33 times greater than that presented by Dr. Fox to 
Congress; if we look at sexual assault plus sexual harassment the rate 
of incidence is 6.36 times greater than reported.

                    Table 2.--Comparison of Crime Rate Aboard Cruise Ships: 2003-2005 vs 2007
----------------------------------------------------------------------------------------------------------------
                                     2003-2005 \1\                                              2007 \2\
                             ----------------------------                              -------------------------
                                 Sexual                                                    Sexual
                                 Assault       Robbery                                  Assault \3\  Robbery \4\
----------------------------------------------------------------------------------------------------------------
Offences reported                     149             4   Offences reported                     69           54
                                                            (146 days)
Annual average                      49.67          1.33   Annualized rate                      172          135
Passenger count, 2003-05       31,068,000    31,068,000   Pax count, April 1-            4,379,808    4,379,808
                                                            Aug. 24, 2007
Annual average                 10,365,000    10,356,000
Average pax cruise length             6.9           6.9   Average pax cruise length            7.0          7.0
 (days)                                                    \5\
Annualized pax exposure                                   Daily pax exposure               209,991      209,991
  Annual average pax count x      195,771       195,771   Passenger count x
   (6.9/365)                                                (7.0/146)
Daily crew size                    86,035        86,035   Daily crew size \6\               92,284       92,284
Total annualized person           281,806       281,806   Total daily (annualized)         302,275      302,275
 exposure                                                  person exposure
Rate of crime per 100,000            17.6           0.5   Rate of crime per 100,000           56.9         44.7
----------------------------------------------------------------------------------------------------------------
\1\ Source: Statement on Crime aboard Cruise Ships, James Allan Fox, March 7, 2006, in Congressional hearings.
  Data was for a period of three full years.
\2\ Source: Summary of Subject Matter, Subcommittee on Coast Guard and Maritime Transportation Staff, September
  17, 2007, Hearing on Cruise Ship Security Practices and Procedures. Data was for a period of 146 days (April 1-
  August 24, 2007): equivalent to 0.4 year.
\3\ Sexual Assault includes the categories of ``sexual assault'' (N=41) and ``sexual contact'' (N=28). This is
  consistent with what is understood to have been done for the 2003-2005 data where it is understood that the
  categories of ``sexual act'' and ``sexual contact'' were both viewed as ``sexual assaults.''
\4\ Robbery includes ``theft of items valued over $10,000'' (N=13) and ``theft of items valued at less than
  $10,000 (N=41).
\5\ Source: CLIA Cruise Industry Overview, Marketing Edition 2006 (latest data available).
\6\ The same ratio of passenger-to-crew used in 2003-2005 (0.4349675411) is used here.

    The analysis by ship (Table 1) gives some additional insight into 
the problem. As can be seen there is a wide variation between ships. 
Some, such as Jewel of the Seas, have relatively few incidents. Others, 
such as Monarch of the Seas, Empress of the Seas and Voyager of the 
Seas, have many. The obvious question is what can be extrapolated from 
these differences. That question was posed to several Royal Caribbean 
staff members. Their responses touched on several issues.
    One factor is that incidents vary by cruise length and itinerary. 
Shorter cruises (three or 4 days in length) often attract a different 
type of passenger than cruises lasting a week or more. Those on over-
weekend mini-cruise may drink more and take greater part in the 
nightlife, sometimes to excess. They risk becoming more vulnerable to 
crewmembers or other passengers. There are also special interest 
cruises (including partial charters or large affinity groups) that 
attract passengers who are different than the norm depicted in 
advertising (e.g., swingers, bikers, hard rockers, etc). While it is 
difficult to assign the degree of increased risk there is reason to 
believe that passengers are at greater risk on some cruises than on 
others simply because of the itinerary, the nature of other cruise 
passengers or cruise length.
    A large factor in risk to passengers and to crew is the onboard 
culture set by management. Some ship captains maintain higher 
expectations and lower tolerance for misbehavior by crewmembers than 
others. Others, however, may be less respectful to their crew (acting 
authoritarian and being unfair in decisionmaking, such as an officer 
denying promotions to subordinates involved with female crew members he 
liked) and create an environment that is less healthy for staff and 
potentially higher risk for passengers. Some workers cited different 
management styles as a key factor in the rate of incidence of sexual 
assault and harassment. Some officers provide better role models than 
others through their own behavior, both in terms of alcohol consumption 
and treatment of women crew and passengers. A womanizing Captain, or a 
Captain who allows senior staff to sexually exploit staff/crew and 
passengers, sets a tone and gives permission to others to behave the 
same.
    Shipboard culture overlaps with the culture from which crewmembers 
come. Many locations in the world have different attitudes than those 
commonly held in North America about women's rights and about the 
nature of relationships between men and women. Specific cultural views 
of what constitutes sexual harassment and unwanted attention are a 
possible risk factor. As Greenwood states, ``. . . it was the 
subjective opinion stated by many officers and crew members that the 
cultural inclination toward aggressive sexual behavior, general low 
regard for the status of women, and the attractiveness and charming 
personalities of these nationals [(referring to one cultural/ethnic 
group)] is a risk factor to be considered'' (1999: 3-4). The problem is 
that a crewmember may behave in ways that are acceptable in his or her 
home culture, but that are inappropriate or abusive in North American 
culture.
    There is no simple solution to the problem, but the by-ship 
comparison suggests that some ships and ship management are doing 
things right. There are likely things to be learned by focusing on 
those ships where sex-related incidents are relatively few and 
comparing them to those where incidents are many. The differences may 
provide insight and direction for positive change. But this type of 
analysis is not being done. While the goal of each cruise line should 
be consistency across the ships in its brand, it is something that is 
not being achieved (Krohne 1999).
    Michael Eriksen, a lawyer who represents victims of crime on cruise 
ships has another perspective. He says some forms of crew misconduct 
derive from the cruise industry's business models and hiring practices.

        ``Crew members live and work in confined quarters, are away 
        from home for extended periods, and work long hours with little 
        downtime, even during port calls. The crew's alienation from 
        normal home and family activities leaves many vulnerable to 
        social entanglements with passengers.'' (Eriksen 2006: 48)

    Eriksen posits that many if not most crewmembers alleged to have 
committed sexual offences against passengers aboard cruise ships have 
been cabin stewards, bartenders, dinner waiters, or others whose jobs 
involve daily passenger contact. He suggests:

        ``To deter such misbehavior, a cruise line must do more than 
        write up a `zero tolerance' policy and pay lip-service to it. 
        Criminals aboard cruise ships, like those elsewhere, commit 
        crimes because they perceive a minimal risk of detection and 
        prosecution. Some cruise lines fail to install sufficient 
        surveillance cameras in public areas to identify and deter 
        potential perpetrators. Other carriers fail to hire enough 
        supervisors and security guards to adequately keep tabs on the 
        rest of the crew. Some carriers fail to make it clear to 
        crewmembers that zero tolerance also applies to crew-passenger 
        contact ashore. Carriers also generally do not warn passengers 
        to be wary of crew member misconduct.'' (Eriksen 2006: 49)
It Isn't Just Sexual Assaults
    The first hearings in the House of Representatives in December 2005 
were not concerned with sexual assaults. Their initial focus was on a 
cluster of cases where a passenger disappeared from a cruise ship. The 
issue was raised in June 2005 in a Business Journal of Jacksonville 
article written by Mary Moewe. She had found that since 2000 at least 
twelve cruise ship passengers had gone overboard or disappeared in 
eleven incidents involving cruise ships that frequent U.S. ports. Two 
passengers were rescued, two were confirmed dead and eight are still 
missing. These eight remain a mystery (Moewe 2005).
    Unbeknownst to Moewe, the numbers were actually much higher. 
Because no cruise line or corporation kept track of persons going 
overboard and no Federal agency had responsibility for monitoring these 
events, she was left to rely on information that was readily available. 
The most comprehensive list of persons going overboard from cruise 
ships at the time was online at Cruise Junkie dot Com (see 
<www.cruisejunkie.com/Overboard.html>). The site reports forty-seven 
incidents during the same time period covered by Moewe's article; in 
nine cases the person was rescued alive. Some cases were clearly 
suicide, some were accidents and many remained mysterious. Alcohol was 
a factor in a fair number of suicides and accidents; large gambling 
losses were a factor in at least three cases and an argument with a 
spouse or traveling companion preceded four incidents (three men, one 
woman--in two of these cases the passenger was rescued alive). There 
was a single case where one passenger was observed throwing another 
overboard. In September 2001 Myrtha Vogt, a sixty-nine year old woman 
from New Mexico, was pushed overboard, as her husband watched, by a 
fellow passenger who was a former mental patient. They were on the 
third day of an eleven-day cruise of Norway's fjords.
    Some of the unexplained disappearances include: Cris Allen 
Swartzbaugh, a thirty-nine-year-old man who disappeared between Tahiti 
and Raiatea in the South Pacific the first night of a cruise aboard the 
Paul Gauguin in April 2000; Manuelita Pierce, a thirty-nine-year-old 
woman who disappeared without a trace at the end of her week-long 
Caribbean cruise aboard Royal Caribbean's Enchantment of the Seas in 
October 2000; Randall Gary, a fifty-year-old psychotherapist who in May 
2003 disappeared from Holland America Line's Veendam somewhere between 
Vancouver and Alaska; Merrian Carver, a forty-year-old woman who in May 
2004 disappeared from an Alaska cruise aboard Celebrity Cruises' 
Mercury; Annette Mizener, a thirty-seven-year-old woman who disappeared 
from a 9-day Mexican Riviera cruise aboard Carnival Pride in December 
2004--in her case the surveillance camera viewing the deck area from 
where she disappeared, apparently following a struggle, was covered by 
a map of the ship; and in May 2005 Hue Pham (age seventy- one) and his 
wife of forty-nine years, Hue Tran (age sixty-seven), disappeared in 
the Caribbean between the islands of Barbados and Aruba from Carnival 
Destiny. What started out as a Mother's Day gift--a seven night 
Caribbean cruise with their daughter and granddaughter--turned into a 
tragic and mysterious disappearance. There were common patterns in 
these cases: search for the missing passenger was either not undertaken 
or was inordinately delayed, there appeared to be an absence of 
investigation, and in some cases law enforcement authorities were not 
initially notified.
    While these cases suggest a problem, the disappearance of George 
Allen Smith IV, a twenty-six- year-old on his honeymoon aboard the 
Brilliance of the Seas in the Mediterranean in July 2005, immediately 
captured the world's attention and interest and catapulted passenger 
disappearances into the public eye. The newlyweds had been drinking 
heavily and gambling at the ship's casino before his disappearance. The 
story that emerged was that while George's wife, Jennifer Hegel-Smith, 
lay passed out on a floor far from the couple's cabin (and with no 
recollection of events), George was taken back to his cabin by some 
drinking buddies who claim they put him to bed. The next morning a 
youngster in a nearby cabin reported seeing blood on a canopy above a 
life boat under the Smith cabin and an investigation determined that at 
least one of the Smiths was missing. Jennifer was located that morning 
in the gym, unaware that anything had happened.
    George's disappearance was reported to local Turkish authorities 
that came aboard to investigate. To this day, it appears the 
investigation remains open and conclusions have yet to be drawn. There 
is some indication that foul play was involved, and some believe they 
know who was involved, but no one has been formally identified or 
charged.
    In late-June 2006, Jennifer reached a settlement with the cruise 
line over her husband's disappearance. George's parents the same day 
filed suit against the cruise line claiming the cruise line 
deliberately and intentionally portrayed the incident as an accident, 
and hampered a full-blown, appropriate investigation into the facts and 
circumstances of George's death. Specifically, they claim the cruise 
line delayed reporting the incident to the FBI, deciding instead to 
report the case to Turkish authorities. When Royal Caribbean did 
contact the FBI, the suit claims the cruise line failed to tell 
authorities about loud noises and arguing in Smith's cabin and the 
discovery of blood inside and outside the cabin. As well, the family 
accuses Royal Caribbean of contaminating a potential crime scene by 
sending crew members into the cabin to investigate and take photographs 
and by cleaning blood from the canopy above a lifeboat.
    The Smith case dominated news media in the United States for months 
and was the focus of stories in both print and television magazines. It 
particularly caught the attention of Smith's Member of Congress, 
Christopher Shays, who was aware of some of the other cases involving 
disappearances from cruise ships (including the case of Merrian Carver) 
and who pushed for and who chaired the first two Congressional hearings 
(December 2005 and March 2006). The latter shifted the spotlight to 
sexual assaults.
    The other issue raised in the March 2006 hearing was robbery and 
theft. The industry claimed then that there was only four known 
robberies industry-wide in the 3-year period, 2003-2005. That meant an 
annual rate of 1.33. As seen in Table 2, the FBI reported in 2007 an 
annualized rate of 135. That yields a rate of 44.7 per 100,000. This is 
100 times greater than what the industry admitted to in its March 2006 
testimony.
Getting a Handle on Crime
    It is not surprising to most that crimes would occur on cruise 
ships, much the same as they do on land. However there are features of 
a cruise vacation--excessive drinking, uninhibited sociality, shipboard 
culture, and not trivially the industry's mantra that cruise vacations 
are virtually safe--that raise the risk higher than what would be 
expected on land and certainly higher than most passengers expect. Like 
dealing with an alcoholic, the first thing the cruise industry needs to 
do is to admit that there is a problem. Only then can they begin to 
address the problem and seek advice from critics and independent and 
external analysts. Their current method of obfuscation and excluding 
from discussion those who disagree with them may have worked in past, 
but the problem has reached proportions that demand meaningful and 
significant measures.
    The industry will argue that the reporting agreement between CLIA 
and the Coast Guard/FBI is enough for dealing with the problem. However 
it is not. The industry has been required to report all crimes against 
Americans for more than a decade (first under U.S.C. 18 CFR and later 
by their zero tolerance pledge in 1999), but they obviously weren't if 
we compare the incidence before and after April 2007 when the 
industry's voluntary agreement with the FBI and Coast Guard took 
effect. The agreement is a positive step, but it has little value when 
data is collected and then kept secret. There is no regular public 
reporting of crime on cruise ships. An amendment to H.R. 2830 offered 
by Representative Doris Matsui of California (and co-sponsored by 
Representatives Poe, Maloney and Shays) and passed earlier this year as 
part of the Coast Guard Reauthorization Bill will change that.
    It requires that data collected by the FBI be made available via 
the Internet, broken down by cruise line, and that the link to the data 
be clearly displayed on each cruise line's website.
    The only apparent weakness of this approach is that it does not 
define what constitutes a crime. This is important given the industry's 
propensity for manipulating definitions. It would be helpful to clearly 
state what actions or behavior is reportable without leaving wiggle 
room for misinterpretation or under-reporting. Some might argue this 
approach is based in basic distrust of the cruise industry. The 
distrust is based in experience. The industry consistently 
misrepresented and lied about its environmental practices during the 
1990s and early 2000s. It has also, intentionally or unintentionally, 
under-represented the incidence of crimes to Congress and to its 
customers. It is not necessarily the safest mode of commercial 
transportation and should not purport to be.
Recommendations
    In addition to the need for standardized definitions for reportable 
crimes, it would also make sense to extend mandatory reporting laws 
found in virtually every U.S. jurisdiction with regard to child sexual 
abuse so that they also apply to cruise ships. Why should cruise ships 
operating out of U.S. ports and carrying American citizens be treated 
differently than other jurisdictions, especially when it comes to 
victimization of our youngest citizens? It may also be prudent to have 
mandatory reporting for all sexual assaults (i.e., sexual contact, 
sexual acts, forcible rape, and any other incident involving unwanted 
sexual activity). However, as already stated, clear definitions need to 
provided so that all crimes be reportable and reported. As well, this 
data should be public and available to persons thinking about or 
planning to take a cruise. They need to have information that 
counterbalances the cruise industry's grand claims about passenger 
safety.
    A second set of recommendations emerges from the 1999 reports by 
consultants hired by Royal Caribbean Cruises Limited. Many of the 
recommendations are spot on but have not been implemented or have been 
implemented in a haphazard and inconsistent manner. Some that still 
need better implementation include: standardizing the response to 
incidents of crime across all ships and across brands; independent 
advocates/counselors onboard who are available to support and care for 
victims; a hotline reporting system off ship that may be used by those 
who not surprisingly will feel unsafe about reporting an incident 
onboard; better surveillance and greater use of CCTV cameras in key 
areas of the ship, which are regularly monitored and tapes stored for a 
reasonable period of time (at least as long as the time allotted by the 
cruise passenger contract for bringing legal action against a 
carrier)--videos that are not regularly screened give crew members 
confidence that they are likely to get away with illegal activity; 
better education of crew and passengers about safety, security, and 
about the limited nature of permitted interactions between passengers 
and crew/service staff; and, of key importance, effecting a meaningful 
and significant change in shipboard culture and tolerance for misdeeds. 
Many crimes occur because perpetrators know they will not be caught, 
and if caught they will not be punished.
    There is also great room for improvement on a very concrete level. 
Many recommendations are contained in the International Cruise Victims 
Association's (ICV) 10-point program. Given that ICV is a grassroots 
organization comprised largely of people who have experienced crime 
onboard a cruise ship (or whose family member(s) has/have), and that 
they speak loudly for themselves, I won't attempt to summarize what 
they have to say. Their insights are based on direct experience and 
their recommendations are informed by the pain and suffering they have 
endured. They can express better than I many of the things the industry 
could and should be doing that it isn't.
References
    Adams, Margaret. 1990. ``Rape Case Threatens Cruise Industry Image: 
Girl, 14, Says Crewman Assaulted Her,'' Miami Herald (Broward Edition), 
February 5.
    Dale, Terry. 2007. Letter from CLIA to the Chair of the House 
Subcommittee on Coast Guard and Marine Transportation, December 19, 
2007.
    Eriksen, Michael. 2006. ``Love Boats on Troubled Waters,'' Trial 
43, 3 (March).
    Fox, James Alan. ``Statement on Crime Aboard Cruise Ships,'' 
Testimony Before the Committee on Government Reform, U.S. House of 
Representatives, Subcommittee on National Security, Emerging Threats 
and International Relations, March 7, 2006.
    Frantz, Douglas. 1998. ``On Cruise Ships, Silence Shrouds Crimes,'' 
New York Times, November 16. Available at <www.nytimes.com/library/
national/111698cruise-ship-crime.html> (Accessed July 14, 1999)
    Greenwood, Don. ``Reducing Sexual Assaults on Cruise Ships: Risk 
Assessment and Recommendations,'' Unpublished consultant's report. June 
7, 1999.
    Klein, Ross A. 2007. ``Crime Against Americans on Cruise Ships,'' 
Testimony Before the Committee on Transportation and Infrastructure, 
U.S. House of Representatives, Subcommittee on Coast Guard and Maritime 
Transportation, March 27. Available at <transportation.house.gov/Media/
File/Coast%20Guard/20070327/Klein.pdf>
    Korten, Tristram. 2000. ``Carnival? Try Criminal: What happens when 
a female passenger is assaulted on a cruise ship? Not much.'' Miami New 
Times, February 3-9. Available at <www.miaminewtimes.com/2000-02-03/
news/carnival-try-criminal> (Accessed February 5, 2000)
    Krohne, Kay. Unpublished consultant's report examining current 
efforts of Royal Caribbean Cruises Ltd. in the area of preventing 
sexual harassment and assault. May 26, 1999.
    Moewe, M.C. 2005. ``Disappearances Leave Mystery,'' Business 
Journal of Jacksonville, June 3. Available at <www.bizjournals.com/
jacksonville/stories/2005/06/06/story1.html> (Accessed July 4, 2005)
    Yoshino, Kimi. 2007. ``Cruise Industry's Dark Waters: What Happens 
at Sea Stays There as Crimes on Lineres Go Unresolved,'' Los Angeles 
Times, January 20. Available at <www.latimes.com/business/la-fi-
cruise20jan20,1,6485727.story?track=crosspromo&coll=la-head
lines-business&ctrack=1&cset=true> (Accessed January 20, 2007)

    Senator Kerry. Thank you very much, Dr. Klein. I appreciate 
it.
    Just listening to those statistics, I mean, I'm trying to 
get a baseline to the Committee here--Mr. Dale, obviously 
there's a sort of disagreement between the two of you about 
what's going on, and maybe more than the two of you. But, how 
do you respond to that, to the difference in these baseline 
understandings of what's going on?
    Mr. Dale. Mr. Chairman, I think it's important, first, to 
say, when talking about passenger safety, it's not an issue 
about statistics. One of the things that I've learned from our 
family members, and including learning this from Ken 
personally, is that regardless of how small a percentage may 
be, if it touches your family, it's devastating and it's life-
changing.
    Senator Kerry. Well, I appreciate your saying that.
    Mr. Dale. So--yes.
    Senator Kerry. But, let's come back, for a moment, because 
you're trying to make a claim that it is safer than in other 
parts of our society, and obviously Mr. Klein is saying, ``No, 
it's not.'' Which is true?
    Mr. Dale. Well, I would point to this. We have heard Mr. 
Klein's testimony. I would refer back to previous FBI and Coast 
Guard testimony. And, unfortunately, his statistics aren't 
borne out by what we've heard in previous hearings.
    I have with me today Dr. Fox, who's a nationally renowned 
criminologist from Northeastern University, who has done an 
analysis that comes with a different set of findings than what 
you have had presented to you today.
    Senator Kerry. Well, it shouldn't--I mean, we get pretty 
experienced around here at seeing different people coming in 
with different statistics to try to make their point.
    Mr. Dale. Yes.
    Senator Kerry. The bottom line is you can count the rate at 
which sex crimes occur, particularly rape, et cetera, breaking 
them down, occur onshore, versus on ship----
    Mr. Dale. Right.
    Senator Kerry.--relative to population. This isn't that 
complicated.
    Dr. Klein, is that the way you did it?
    Dr. Klein. Well, I think--the way I did it initially is 
using what is conventionally done, and that is to look at crime 
statistics with regard to rate per 100,000 population. That is 
also the method that James Fox used in his testimony before 
Congress in March 2006. The problem with his testimony--and I 
wouldn't blame him, but the problem was that there is no U.S. 
rate for sexual assault, there's only a rate for forcible rape. 
So, they were comparing sexual assaults with--on cruise ships--
with on land, but they were using the word ``sexual assaults'' 
for ``forcible rape.''
    More recently, the cruise industry is now claiming that the 
rate of sexual assault, or the probability of sexual assault, 
is .01 per the number of passengers. This is not a conventional 
way in which crime statistics are measured. If we were to use 
that method, what that would mean is, in the State of 
California--they have a population of 36 million, they have 366 
million visitors per year, which means that the number of 
people in the State of California in a year is almost 400 
million people. If we take the rate of sexual assault in 
California, that means that the rate of sexual assault is 
.0025, one-quarter of the industry statement of .01. Now, I'm 
not going to stand by those statistics, because it's not a 
conventional way in which we look at crime statistics. Crime 
statistics are normally and conventionally looked at as 
population per 100,000, and when we do this on a cruise ship--
--
    Senator Kerry. What happens--let's get away--I don't want 
to get lost here.
    Dr. Klein. Yes, OK. Sorry.
    Senator Kerry. What happens when you just take the 
population--the numbers of people who get on a ship, and you 
have X number of people on the ship, plus crew, measured 
against a State with X number of citizens plus law enforcement? 
What happens then?
    Dr. Klein. Well, I think the issue is that we want to look 
at the daily population on a ship, not the number of 
passengers. Because the rate of sexual assault in the U.S. is 
based on the daily population----
    Senator Kerry. That's what I'm talking about.
    Dr. Klein.--in the----
    Senator Kerry. Crew and passengers.
    Dr. Klein. Exactly. And so----
    Senator Kerry. Total numbers of people on the ship.
    Dr. Klein. Right. So, the rate is--56.9 per 100,000 is 
based on the daily population on CLIA-member cruise ships.
    Senator Kerry. Yes, Mr. Dale?
    Mr. Dale. Mr. Chairman, may I ask Dr. Fox to help clarify 
this situation?
    Senator Kerry. Sure. If he can, he would be a genius.
    Mr. Dale. Before he says his comments, I would like to 
state----
    Senator Kerry. Just pull a chair up. Why don't we get him a 
chair there.
    Mr. Dale.--that we also need to keep into perspective here, 
which is very important, that we report all allegations 
unvetted. So, that, in and of itself, is a very important point 
of clarification.
    Dr. Fox?

       STATEMENT OF JAMES ALAN FOX, Ph.D., LIPMAN FAMILY 
         PROFESSOR OF CRIMINAL JUSTICE AT NORTHEASTERN 
        UNIVERSITY; VISITING FELLOW, U.S. DEPARTMENT OF 
             JUSTICE, BUREAU OF JUSTICE STATISTICS

    Dr. Fox. Yes, thank you.
    Dr. Klein and I attempt to use the rate per 100,000, and I 
think we agree on that method. The issue is the definition of 
``sexual assault.'' And he is right that on the cruise ships, 
sexual assault, which is the only definition--category we 
have--includes rape plus other offenses that are quite not--not 
quite as serious as rape. On land, it's just ``forcible rape.'' 
The rate per 100,000 on the cruise lines right now is 10 
percent lower than land, and that's a broader definition----
    Senator Kerry. For what?
    Dr. Fox.--on cruise lines.
    Senator Kerry. Ten percent lower for what?
    Dr. Fox. I'm sorry?
    Senator Kerry. Ten percent lower for which?
    Dr. Fox. Than the rape. The rate per 100,000 of rape and 
other offenses on cruise ships is 27.2 per 100,000; on land, 
it's 30.9 per 100,000. And the on-ship----
    Senator Kerry. So, it's a very----
    Dr. Fox.--number----
    Senator Kerry. It's not that----
    Dr. Fox.--is that broader definition. If you were able to 
compare rape with----
    Senator Kerry. There's too many on land. There are too many 
at sea.
    Dr. Fox. Yes. They're both high.
    Senator Kerry. Would you agree?
    Dr. Fox. It's 10 percent lower on--at sea, but the rate at 
sea is a broader category, it's rape plus other crimes. If 
you----
    Senator Kerry. Well, but--you know, let's say it is 10-
percent lower, and we're getting on a ship, they're going on 
vacation, they've invested a lot of money, this is their time 
to be away and be safe. They are going someplace to get away 
from what happens on land, and they don't expect to find the 
same thing happening to them on their vacation. Is that a fair 
statement?
    Dr. Klein. Absolutely.
    Senator Kerry. OK. Do you accept that?
    Mr. Dale. Yes, I, again, would just go back to the point I 
made earlier, that we are reporting all allegations, and, as 
you know, as a----
    Senator Kerry. OK.
    Mr. Dale.--former----
    Senator Kerry. Well, let's get to the heart now. You say, 
Mr. Dale, that you're the only travel industry required by law 
to immediately report a serious incident or activity to Federal 
authorities, correct?
    Mr. Dale. Yes.
    Senator Kerry. Why do you make a big deal out of that, 
since everybody else is required under the law to report to 
local and State authorities, and you clearly aren't and can't?
    Mr. Dale. Well, I'm not trying to make a big deal of it. 
I'm just stating that----
    Senator Kerry. But, I mean, and the only reason you do that 
is because of this voluntary agreement with the FBI and the 
Coast Guard.
    Mr. Dale. No, it is mandatory for us to report these 
allegations, and this is according to Title 33, Part 120 of the 
Federal Code.
    Senator Kerry. OK.
    Mr. Dale. So, it is mandatory for us to report this. The--
what is voluntary is the form and the standardization of how we 
report it to the FBI. That's just a protocol that has become 
standardized. But, the reporting itself is, in fact, mandatory.
    Senator Kerry. But, the reason that that exists is because, 
absent that, there would be no reporting--you wouldn't report 
to anybody, that there is no local jurisdiction.
    Mr. Dale. Well, there's always reporting, Senator, to the 
flag state and port state control, as well. So, you know, what 
we would----
    Senator Kerry. Well, what if you're on the high seas?
    Mr. Dale. Well, you----
    Senator Kerry. When you're on the high seas, is there a 
port state?
    Mr. Dale. We report it, as well, to the Federal 
authorities, the FBI, the Coast Guard, on the high seas.
    Senator Kerry. Right. But, those would be the only place, 
would they not?
    Mr. Carver. Mr. Chairman?
    Senator Kerry. Yes?
    Mr. Carver. May I make a comment?
    Senator Kerry. Sure.
    Mr. Carver. In this report, which CLIA presented to the 
House of Representatives--three times in this report, they 
indicate--the FBI, right on the first page, says their 
analysis--the FBI's analysis of crimes occurring on the ship 
says they're .01 percent. That's what they say. They go on to 
say, in bold letters on page 3, ``Based on the FBI's own 
analysis, there's less than a .01-percent chance of a cruise 
ship that'll become a victim of a crime.'' And they repeat that 
a third time. Well, that statement was not true.
    So, I went to the FBI, because when they went to California 
they said exactly the same thing and publicized that to all the 
Congressional people. So, I have here a letter, which is in 
your documents, from the FBI, which, in effect, says, ``Please 
be advised that the FBI did not submit, nor testify before the 
Subcommittee, in regards to the statistical data reported by 
CLIA. Thank you for bringing this matter to our attention. And 
please be aware that the FBI will also provide a clarification 
of this data.'' Plus, the FBI says that data is reported on a 
voluntary basis, it's not mandatory. So, the claim that they 
kept making in this report, saying, ``We do not need 
legislation'' keeps referring to the FBI, and the FBI made no 
such claim. They're the only ones that could really come up 
with a crime rate, so I found it rather--in New York City 
there's a term for it, ``chutzpah,'' that they would keep 
referring to FBI crime data that, in effect, the FBI said they 
did not submit.
    Senator Kerry. Now, I'm going to turn to Senator Lautenberg 
in a moment here--Mr. Fox, if I could ask you--if you could 
return to your seat--what we're going to do is follow up with 
you. We've got a lot of territory to cover on what the remedies 
are and how we proceed. But, we are going to submit some 
questions in writing, and we'd like you to be able to answer 
those to establish a baseline.
    Dr. Fox. May I take 30 seconds to clarify something?
    Senator Kerry. Sure, 10 seconds.
    Dr. Fox. Thank you.
    Mr. Klein talked about the robbery and theft. The earlier 
number was robbery, the later number was the theft count, not 
the same, and the 100-fold increase was--he switched from one 
crime to the other.
    As far as this .01, that is the probability of a rape 
occurring in a 1-week period of time on a cruise ship. It is 
not meant, never has meant--and I'm not sure who decided to put 
it in there--it's not meant to compare to an annual rate on a--
on land.
    Senator Kerry. Fair enough.
    Dr. Fox. But whatever----
    Senator Kerry. We're going to get that baseline thoroughly 
vetted with respect to the record, and we'll do it in writing 
so that we can get it pinned down. And I'll look forward to 
getting that done here. So, Senator Lautenberg?
    Senator Lautenberg. Thanks very much.
    The focus seems to narrow down to the process for reporting 
the type of incidents. I didn't hear a discussion, let's say, 
of burglaries or theft. How is that, Mr. Klein? Do we know 
about that on cruise ships?
    Dr. Klein. OK. Well, according to the FBI report to the 
hearings in September 2007, they reported that there had been 
13 thefts of items valued over 10,000, and thefts of items 
valued at less than 10,000 were 41. So, when I give my rate of 
44.7 per 100,000, I'm combining both the theft of items over 
10,000 and the theft of items less than 10,000.
    Senator Lautenberg. Yes. But--how does that compare with 
the general statistics--on land?
    Dr. Klein. That, I don't believe, has been--I don't have 
that readily at hand, I'm sorry.
    Senator Lautenberg. OK. How are these things dealt with? Do 
we find that there's the same lackadaisical--or attempt to hide 
the information that comes about, or is it reported in any 
central place?
    Dr. Klein. Well, I think the key difference is, when it 
happens on land, it would be reported to a local police 
authority.
    Senator Lautenberg. Right. And then the----
    Dr. Klein. When it's reported at----
    Senator Lautenberg. Senator Kerry said that.
    Dr. Klein.--it happens on a ship to an American citizen--
not a foreign national, to an American citizen--it's reported 
to the FBI. The FBI has stated very clearly that it will not 
investigate or prosecute any robbery valued at less than 
$10,000.
    Mr. Dale. And could I just add to that----
    Senator Lautenberg. Yes.
    Mr. Dale.--Senator? I do have here, from Dr. Fox, the 
comparison to land, and it's 2200 landside, and compared to 41 
on the cruise ships. We do report thefts, as required by the 
FBI.
    Senator Lautenberg. The thing that I'm concerned--or 
interested in is--you talk about counseling on ships--are 
people led to believe that they have to exercise any care with 
valuables, with family members? Is that included in any kind of 
a introductory program to passengers that are boarding a ship 
for the first time?
    Mr. Dale. Senator, we always encourage our passengers to 
exercise the same judgment on our ships that they would 
landside.
    Senator Lautenberg. How do you encourage them?
    Mr. Dale. And that's part of the muster drill that is 
mandatory for all passengers who are taking a cruise. That is 
also printed----
    Senator Lautenberg. That is for safety--in the event of an 
accident that requires----
    Mr. Dale. Evacuation.
    Senator Lautenberg.--a lifeboat process.
    Mr. Dale. Yes.
    Senator Lautenberg.But, in those introductions, do they 
also include comments about what one ought to do? I mean, do 
they say, ``Look, here we are, we want you to have a good time, 
et cetera, but it is a busy place, lots of people, and 
therefore you have to watch out for your youngsters, or you 
have to know where your mate or your friends are when they're 
not with you, your companion''?
    Mr. Dale. That type of information is included in the 
staterooms. And it also will run on the TVs in the staterooms, 
as well. Again, you know, ``Please exercise the same judgment 
that you would landside as you enjoy your cruise vacation.'' 
So, we try and provide that in multiple different ways to our 
customers.
    Senator Lautenberg. Yes, Mr. Klein?
    Dr. Klein. May I make a comment? I guess we're talking in 
the abstract. Let me bring this down to the very concrete.
    I was involved in a--as an expert witness in a case, about 
a year ago, of a 8-year-old girl who was on a cruise ship who 
was led down--who--her parents believed that a cruise ship was 
a safe choice of a vacation, and they allowed her to go back to 
the family cabin on her own. She became lost and went up to a 
janitor and asked for directions. He led her down a hallway to 
a dark spot, where there were no surveillance cameras, 
masturbated in front of her, OK? The child was traumatized. She 
reported this to her parents. The parents reported it onboard. 
The people onboard didn't believe her. They revictimized her by 
doubting her testimony and calling her a liar. You know, the 
worker knew where the cameras were, he knew that he wouldn't be 
seen, and he also likely knew that he wouldn't be caught.
    When the case was being examined, this worker was onboard 
under a different name than his passport. And this worker had, 
with the previous cruise line he worked with, ``Do not rehire'' 
on his personnel file.
    Senator Lautenberg. Do we know the percentage of attacks 
that are committed by fellow passengers or crew members?
    Dr. Klein. According to data provided by Royal Caribbean 
and discovery in a court case, 67.1 percent of those were crew-
on-passenger, roughly 22 percent were passenger-on-passenger, 
and just over 10 percent were crew-on-crew.
    Senator Lautenberg. So, is the vetting process adequate to 
deal in advance with a pending problem like this?
    Mr. Dale. Yes, let me share with you, Senator, what the 
vetting process is when we hire our crew. Basically, there are 
three layers. When using licensed manning agencies in the crew 
member's home country, they are required to get statements from 
local law enforcement entities regarding any criminal 
background. Second, the U.S. State Department, in issuing a 
U.S. working visa, also does a background check. And finally, 
as I mentioned in my oral testimony, a complete crew and 
passenger manifest is electronically submitted 96 hours prior 
to that ship departing to the Federal authorities. And so, it 
is run through several different data bases and checked and 
rechecked. So, there are several different layers in which we 
are constantly looking and monitoring who we employ on our 
ships.
    And I would go back to the fact that an independent survey 
conducted by TNS found that our cruisers gave us 95-percent 
satisfaction ratings. So, we have good, quality, caring 
individuals who work on our ships today.
    Senator Lautenberg. Yes. The search for crew, do you find 
that, in different places, you get less reliable data?
    Mr. Dale. I'm not able to respond to that, Senator.
    Senator Lautenberg. Yes. Well, I just wonder whether, if 
the vetting process is done by local authorities, is it as 
efficient--is it as reliable as we'd like it to be? And to not 
be certain about who is in that crew, of course, is a high 
risk, and I assume that the company, the cruise company, has a 
responsibility, in the event of an incident, to make sure that 
they're responsible for anything that happens.
    Mr. Dale. Absolutely we have a responsibility, and we take 
it very seriously. And with this layered vetting process that I 
just described, we've got the appropriate checks and balances 
to make sure that we're hiring the right people.
    Senator Lautenberg. Mr. Klein?
    Dr. Klein. Yes, in the case I--I can't speak globally for 
the industry. What I can say is, in the case I referred to with 
the young girl--in that case, what came out through depositions 
was that this worker--I believe he was from Honduras--was hired 
through a recruiting agent who had a quota to meet. That 
recruiting agent is the one who certified and arranged for the 
letters saying that he was a safe employee. If these--our 
understanding was that if the recruiting agent didn't meet 
their quota, they would lose the contract. So, there was 
pressure to certify people to fill the numbers. And again, the 
police report that was given was given under a different name 
than the name on the passport that he was working under on the 
ship.
    Senator Lautenberg. Thank you very much.
    Senator Kerry. Thank you, Senator.
    Senator Carper?
    Senator Carper. Thank you all.
    Sometimes when I ponder how to resolve or address 
particular problems or issues or concerns, I try to think of 
how we can harness market forces to change behavior so that, in 
this case, people would be safer on these ships. One of the 
ways to make sure that people are safer would be for the folks 
who provide the services--the cruises, if you will--know that 
there is a financial reward, an economic reward for them for 
providing very safe vacations, and that there's a financial or 
an economic penalty if they do not.
    Let me just ask our witnesses to tell me how we are doing--
how we are using--how we are harnessing market forces to better 
protect the safety of customers--consumers on these cruises. 
What is being done that actually harnesses those market forces? 
And what more could be done?
    Mr. Carver. Well, let me respond to that. Clearly----
    Senator Carper. If I'm a cruiseliner and I know I'm going 
to make more money because I provide excellent safety for my 
passengers, that's a great incentive for you to make sure that 
we get it.
    Mr. Carver. Well----
    Senator Carper. If I know I'm going to be penalized, that's 
a great incentive for me, as well.
    Mr. Carver. I was with Terry, about 5 or 6 weeks ago in 
Miami, and I made a statement at that meeting, which I don't 
think was accepted, but I said, ``You know, you would be smart, 
from a business standpoint, if you accepted the proposals that 
international cruise victims have made.'' In other words, 
independent security on the cruise ships--there's a whole list 
of things that are shown on the documents. It would be good for 
business. Then people know that, you know, they're going to be 
safer on a cruise ship.
    Now, why would a cruise line industry propose not to go to 
certain California ports, if their crime rates are so low, if 
one security person is put on that ship? Now, I just find that 
a little hard to understand how that could be a reaction. To 
me, the reaction is, that would be good for business. People in 
California would say, ``Gee, I know there's independent 
security on that ship. I feel safer.'' And yet, they have 
threatened certain California ports--San Francisco, San Diego--
with going on a ship, that they won't stop at their ports if 
they do that. And I think that's a--to me, accepting our 
proposals would be a tremendous plus for their business. I've 
said that from the beginning.
    In 2006, when we introduced our ten-point program, I went 
up to Michael Crye, who then ran the trade association, and I 
said, ``Michael, if you were smart, you'd work with us.'' And 
that's----
    Senator Carper. Thank you. Thank you, sir.
    Ms. Fortier?
    Ms. Fortier. Well, I think the negative attention to the 
industry in recent articles have really focused the spotlight 
on them and what are they doing to ensure passenger safety. So, 
we approached Royal Caribbean, which is one of the largest 
cruise companies, and suggested to them that they work with us 
to find a way for us to link passengers who are onboard to our 
hotlines. And initially they were very receptive, and we're 
continuing to talk to them about ways to do that. And I don't 
think that would have happened unless people like Ken had 
brought attention to the problem of sexual-assault and missing-
person cases. So, that is an example of them responding in a 
way that's in their self-interest, I think. And we're hopeful 
that--we'll continue to work with them on that proposal, in 
which we would establish a dedicated hotline number, accessible 
by those traveling on ships, through which our trained staff 
would be available 24/7 to aid victims of sexual violence and 
so that people could also log on to our online hotline from the 
ship.
    We would need, in order to implement this, to train 
personnel to respond to the unique needs of cruise victims, 
because the typical victim who contacts us is--in, you know, 
say, Wilmington, Delaware, and we will find a way for a rape 
crisis center in Wilmington to respond to that person and help 
them. Someone who's on a cruise ship is going to need 
information about how to get in touch with the FBI, the State 
Department, and so forth. So, they'll have different needs.
    Senator Carper. Thank you, Ms. Fortier.
    I'm going to jump to Dr. Klein and, if we have time, back 
to Mr. Dale, please.
    Dr. Klein. OK. I think the issue of market forces is a very 
important issue, and I think that the amendment to the Coast 
Guard reauthorization bill introduced by Matsui, Shays, Poe, 
and Maloney really gets at that point, in terms of not just the 
requirement to report, but that that reporting be displayed 
publicly, quarterly, by each cruise line.
    Now, I personally would take that a step further. If you 
look at pages 5 and 6 of my written testimony, what you'll see 
is a table that breaks down, for Royal Caribbean, the incidence 
of sex-related incidents by ship, and you'll see on there that 
one ship, at the bottom, has 10.75 incidents per 100,000, the 
worst ship in the fleet is 208 per 100,000. As a passenger, I'd 
want to know, by ship, which ships were relatively safer and 
relatively less safe than others. And I believe that's how we 
get market forces to work, that when a passenger knows that, 
``I can go on a ship that has a 20-fold greater chance of being 
sexually assaulted, I'm not going to choose that ship, I'm 
going to choose another.''
    Senator Carper. Thank you.
    Mr. Dale, not long ago, my family--in fact, over spring 
break, my two sons, whom the Chairman has met--one was out of 
college for spring break, and the other was out of high 
school--we were talking about where we were going to go for 
that week. And we'd talked about going on a cruise, but it 
didn't work out, and we ended up looking for a hotel. And our 
boys said, ``We'd like to go to a beach hotel so we could walk 
right out the front door of the hotel and be right on the beach 
in someplace that was warm.'' One of them goes to a school up 
in, as the Chairman knows, in Boston. And my wife and I got on 
the Internet, and we looked at the member services, where they 
provide information about hotels, and one of the interesting 
things we found was on the hotels, you could find out favorable 
comments about the hotel and unfavorable comments about the 
hotel. As it turns out, that was one of the most helpful things 
for us to read about, like about their food and about the 
fitness facilities and everything, the proximity to the beach.
    I would imagine, if I were looking for cruise ships, and 
I'm looking at comments by folks, and they say, ``Well, you 
know, my daughter was raped on''--that would be a pretty big 
signal to a lot of people that I don't want to be on that ship, 
or I don't want someone in my family to be on that ship. Do we 
ever have that kind of disclosure or the opportunity for 
customers to say what they liked about their cruise or what 
they found a shortcoming?
    Mr. Dale, I don't know if you want to respond to that, or 
anybody else.
    Mr. Dale. Sure. Sure. I would like to clarify something 
that----
    Senator Carper. Just do so quickly, I'm almost out of time. 
Do that quickly.
    Mr. Carver. Yes.
    Senator Carper.Very quickly.
    Mr. Dale. Ken indicated that the cruise industry had 
threatened ports in California by potentially withdrawing our 
business. In no way, shape, or form have we made those types of 
statements.
    Senator Carper. OK, thank you.
    Mr. Dale. Yes. And I would like to say that 90 percent of 
all cruise vacations today are sold by travel agents, and 
consumers go to travel agents because this is not a commodity, 
it's a very unique purchase--the demographics on the ships, the 
destinations that they visit, the amenities on the ship. So, 
that travel agent, of which we've got over 16,000, is the 
connection between the industry and the consumer in providing 
them with guidance on what the ships are like and the kind of 
vacation experience. So, we work with the travel agents and 
they are our connection with the customers.
    Senator Carper. Anyone else on that one?
    Dr. Klein. Could I say something?
    Senator Carper. Yes, Dr. Klein?
    Dr. Klein. Yes. I think the--I'm not sure it's the board 
you were looking at, but I think a board like Trip Advisor 
gives you the information about individual properties. While 
there are discussion boards about the cruise industry and about 
individual ships, none of them are as comprehensive and as 
insightful as the kind of data that Trip Advisor makes 
available with regard to hotels and resorts.
    Senator Carper. All right. All right. I have a number of 
other questions, Mr. Chairman. You've been very generous with 
the time. And my other questions, I'll just file for the 
record, if I could but a lot of them relate to expectations, 
the expectations that people have as they consider a cruise, 
particularly expectations that they should have, paying that 
kind of money, for their personal safety. And I would 
appreciate--most of the questions are directed to you, Mr. 
Dale, and I would appreciate your responding to those, as 
appropriate. And in one instance, they're to the whole panel.
    Thank you, again, very much for being with us today.
    Senator Kerry. Thank you very much, Senator Carper. I 
appreciate it.
    Mr. Dale, let me just ask you, Why not just implement Mr. 
Carver's and Ms. Fortier's and CLIA's and other people's 
suggestions? What's the resistance to it?
    Mr. Dale. Well, there's no resistance. We've----
    Senator Kerry. Why not just----
    Mr. Dale. We've had an----
    Senator Kerry. Why not just accept them?
    Mr. Dale.--opportunity----
    Senator Kerry. But, I mean, here we are, several years 
later. There must be some resistance.
    Mr. Dale. Yes, the----
    Senator Kerry. I mean, do you have peepholes in the doors? 
Do you have a trained person onboard who is fully forensically 
qualified?
    Mr. Dale. And the answer is yes. And----
    Senator Kerry. Fully forensically qualified on every ship?
    Mr. Dale. We have complete training that we do with the FBI 
and the Coast Guard. As I referenced, the training DVD that has 
been put in place by the FBI, they actively participate in the 
training of our----
    Senator Kerry. When was that----
    Mr. Dale.--security officers----
    Senator Kerry.--put into place?
    Mr. Dale. Well, that training has been in place for over a 
decade----
    Senator Kerry. Well, then what happened to----
    Mr. Dale.--and we continue enhance----
    Senator Kerry.--what happened in the situation Ms. Fortier 
described, when everybody comes in and sits down on the bed, 
barely knows what to ask? I mean, that doesn't describe to me 
anybody following any correct procedure.
    Was there a forensic officer, Ms. Fortier?
    Ms. Fortier. I believe medical personnel were used to--were 
consulted. Ms. Dishman is here and could respond directly to 
that. But, my understanding is that she was asked to pay for 
her own rape kit on the ship, which wouldn't happen at any U.S. 
hospital if you were a rape victim and you had agreed to report 
and cooperate with law enforcement.
    Senator Kerry. Do you know what the sequence was, in terms 
of timeliness and----
    Ms. Fortier. My understanding is that after the incident, 
she contacted her friend, and then the two of them reached out 
to ship personnel, and she was interviewed first, before she 
received medical care. That's my understanding.
    Senator Kerry. Did she identify the person who raped her to 
them?
    Ms. Fortier. Yes.
    Senator Kerry. What happened to that person?
    Ms. Fortier. She indicated that time passed and he--I 
believe he continued to work on the ship.
    Senator Kerry. Was that person arrested? Was he put in 
solitary confinement?
    Ms. Fortier. No. He wasn't.
    Senator Kerry. Did anything occur?
    Ms. Fortier. Um----
    Senator Kerry. I mean, normally, in a local jurisdiction, 
if a woman was raped, and she said, ``This is the guy who did 
it,'' the guy gets arrested.
    Ms. Fortier. Correct.
    Senator Kerry. So, what are we talking about here, Mr. 
Dale?
    Mr. Dale. Yes, let me just share with you what I can. Ten 
FBI agents boarded the ship, conducted a thorough interview 
process. They polygraphed the perpetrator. And, at the end of 
the day, they presented the information from those ten FBI 
investigators. Over 20 interviews were conducted. And the 
United States Attorneys Office determined that it was 
consensual and did not decide to proceed with the case.
    Ms. Fortier. May I just respond? Often in these incidents, 
some time elapses between when the victim reports and the FBI 
boards the ship, because the FBI can't immediately come on the 
ship and act like an onboard police force. So, in that time, 
the industry may have their own lawyer come onboard and talk to 
the person who's accused who works for them, before any FBI 
personnel can conduct any sort of interview. So, this--the FBI 
isn't immediately responding, you know, within an hour after 
the rape. They're--days could pass before it actually----
    Dr. Klein. Also, I don't think that the FBI said 
``consensual.'' What they said was that it was a ``he-said/she-
said'' situation.
    Mr. Carver. May I make a----
    Senator Kerry. Yes, Mr. Carver----
    Mr. Carver.--comment?
    Senator Kerry.--I was about to ask you, How do you respond 
to what Mr. Dale is saying with respect to the procedures put 
in place?
    Mr. Carver. OK. Let's look at current procedures if a woman 
is raped on a ship. In my documents, we say--the cruise lines 
say, ``We do not investigate crimes. We're not equipped to do 
so.'' They've put that in writing. ``We call the FBI.'' Well, 
there's a television show that was done, broadcast last 
December--or last November, by Canadian network W5. It's their 
equivalent of ``60 Minutes.'' It's on our website. And Mr. Gary 
Bald, who is former FBI, was interviewed in that particular 
show.
    So, a woman comes to him--and they say, ``What happens if a 
woman comes to you and is--says she's been raped?'' Well, to 
me, the proper answer would be, ``We seal the room, we give the 
woman comfort, and we call the FBI.'' That's what our statement 
is. But, in fact, I'm going to read to you from the testimony, 
which you can see on live television. He says, ``The first 
thing we do is determine, Was it a valid claim? Some women 
claim they were sexually assaulted and they were not. Others 
claim they were sexually assaulted and there's a confusion of 
whether or not it was consented or a different consent. And 
then, there's a third category, potentially, when someone was 
sexually assaulted, where there's dispute as to whether or not 
they even had sexual relations.'' In other words, he is asking 
these questions of a woman that came in that was raped. He 
shouldn't be asking those questions. He should seal the room, 
give comfort to the individual, call the FBI in. Because the 
most important interrogation is the first one.
    Senator Kerry. Who was asking those questions?
    Mr. Carver. Gary Bald, chief of security for Royal 
Caribbean. And this was--this is on television. It's on our 
website. So, in effect, he's working for risk management. He's 
going in there, trying to figure out, ``Well, is this really a 
claim?'' instead of turning it over to the FBI; so that by the 
time the FBI gets there, several days later, this woman has 
been worked over by----
    Senator Kerry. What would his qualifications be? What 
would----
    Mr. Dale. Actually, that's a very good question. Mr. Bald 
is the former number-three-ranking FBI official, and is, today, 
head of corporate security, global security for Royal 
Caribbean.
    Senator Kerry. As the head of corporate security with 
respect to ships, what sort of powers does he have at sea 
under--in that authority, in that position?
    Mr. Dale. Under his staff, he has the corporate security 
officer on that ship, as well as the security staff supporting 
the chief security officer on that ship.
    Senator Kerry. But, he's----
    Mr. Dale. And he's----
    Senator Kerry.--he's a corporate security officer, correct?
    Mr. Dale. Mr. Bald, yes.
    Senator Kerry. Right.
    Mr. Dale. But, he's----
    Senator Kerry. I'm just trying to understand the legalities 
here, and how one might set up a structure where the law, as it 
will be applied in a court, is, sort of, fully sequential, 
appropriately.
    Mr. Dale. Right.
    Senator Kerry. I'm not doubting his experience or doubting 
his qualifications, but if you don't have a codification, if 
you will, of a process, then he winds up--inadvertently, 
perhaps--but, he winds up being, really, the corporate 
representative, not the representative, neutrally, of the law 
as it would be applied, were that a police officer 
appropriately investigating in a local jurisdiction. So, I'm 
trying to understand exactly what his jurisdiction is.
    Mr. Dale. Right. The first responsibility----
    Senator Kerry. Can he arrest?
    Mr. Dale.--is to make sure that we immediately----
    Senator Kerry. Does he have----
    Mr. Dale.--contact----
    Senator Kerry.--the power of arrest?
    Mr. Dale. I am not a maritime attorney and can't answer 
that. We contact, immediately, the FBI and the appropriate law 
enforcement agencies, and take their direction. And if they 
direct us to take an--a perpetrator, or potential, and have 
that person, you know----
    Senator Kerry. But, you see the----
    Mr. Dale.--quarantined----
    Senator Kerry.--you see the confusion here, don't you, Mr. 
Dale? I mean, it seems to me that we're sort of in a limbo, in 
a kind of murky area here. And the question that I would ask, 
which I think a lot of people are asking--Mr. Carver and 
others--and I think it's sort of leaping out at me--Why not 
work with us and try to codify something that works for you, 
works for people, so there's a real process and procedure in 
place? Because right now there isn't. There is really an 
absence of a clarity to the jurisdictional question.
    Mr. Dale. Well, we do have a process in place, and we've 
worked with the FBI in creating, ``What do initial responders 
do?'' making sure that have a female assistant immediately 
brought to that individual who is in need, so that her needs 
are emotionally and physically being taken care of. So, there 
is a process and a structure----
    Senator Kerry. That person was----
    Mr. Dale.--at the----
    Senator Kerry.--trained where and how?
    Mr. Dale. Many of our cruise-line members have developed a 
partnership with the Family Assistance Foundation, Dr. Carolyn 
Coarsey----
    Senator Kerry. Are they----
    Mr. Dale.--is the head of that.
    Senator Kerry.--in the guest care services department?
    Mr. Dale. Yes, they are. And----
    Senator Kerry. But, guest-care services is quite different 
from law enforcement process, you know, a victim witness 
assistance. I started----
    Mr. Dale. Right.
    Senator Kerry.--one of the first victim witness programs in 
the country when I was managing one of our ten largest DA's 
offices, and we--we were breaking new ground on how you do 
this. And it's enormously complicated, and it's not a guest-
care service, it's a law enforcement role.
    Mr. Dale. Well----
    Senator Kerry. I mean, the question is whether or not we 
would be better off having a very specific set of requirements 
about jurisdiction and enforcement which would act as a 
deterrent. It seems to me it would only help the cruise 
industry for people to know that this is not an invitation 
place to come and commit a crime because there's an absence of 
protocol and procedure, this is a place where there's a very 
clear and strict standard of expectations of what happens if a 
crime is committed.
    Mr. Dale. Mr. Chairman, I'd be happy to have our maritime 
counsel and others follow up on this dialogue that you'd like 
to have.
    Senator Kerry. Well, I think it would be worthwhile. I 
don't think this should be adversarial.
    Mr. Dale. Right.
    Senator Kerry. I think this ought to be positive and 
helpful. I mean, I think the cruise industry is a great 
industry, and I think that, you know, lots and lots of people 
go out and have an absolutely wonderful time. And it would be 
odd if there wasn't some crime occasionally. I mean, this is 
the nature of the world. People go on vacations in plenty of 
places, and terrible things happen.
    I think that the key here is, we're not trying to single 
you out as somehow, an aberration, in terms of what happens, 
it's just that there is an oddity with respect to the flagging 
and legal standards with respect to the high seas. There always 
has been. And I think we're trying to bring it in to some kind 
of a place where people will not have the kinds of experiences 
that Mr. Carver had.
    I assume you'd have to admit that it's a pretty jarring and 
tough kind of process to go through.
    Mr. Dale. Absolutely. And I've said to Ken, many times, and 
our family members who work with us on our working group, that, 
you know, we deeply regret when an incident takes place on our 
ship. And have we been perfect as an industry? We have not. 
But, we are taking everything we can to make sure that we 
manage this situation with compassionate care. And----
    Senator Kerry. But, wouldn't it make sense, do you think, 
Mr. Dale, I mean, what is the law enforcement structure that 
currently exists now on a cruise ship?
    Mr. Dale. Well, again, I'd go back that there is a chief 
security officer for each ship, and then, they have appropriate 
security staff that work with them, and at--and that varies, 
because----
    Senator Kerry. Would it be helpful if you had a specific 
legal authority, and you had people who met a specific 
standard? Since you're hiring them anyway, and you're paying a 
certain amount of money to have what you consider to be a law 
enforcement staff onboard, wouldn't it be better off if there 
was a specific authority under which they operate and a 
specific set of procedures worked on, let's say, between the 
FBI and maritime folks, so that we are in keeping with maritime 
law, we don't----
    Mr. Dale. Right.
    Senator Kerry.--but, on the other hand, there are absolute 
expectations of how the protocol is going to be carried out in 
the event of some kind of crime?
    Mr. Dale. And we do have those guidelines in place. And, 
again, this relationship----
    Senator Kerry. Right, but they're----
    Mr. Dale.--that we have----
    Senator Kerry.--guidelines, they're not----
    Mr. Dale. Well----
    Senator Kerry.--a sort of standardized guideline.
    Mr. Dale. If I might point out, Mr. Senator, for over a 
decade we have had a security committee, and that committee 
meets every 60 days, and, as part of that meeting, we have the 
FBI, the Coast Guard, Homeland Security, the Navy, CBP, all the 
Federal agencies that we work closely with, because we all 
share the same goal.
    Senator Kerry. Absolutely.
    Mr. Dale. We want to provide the safest vacation----
    Senator Kerry. I don't question that, which is why I think 
this shouldn't be as complicated as it is appearing to be. It 
seems to me it ought to be pretty easy to get everybody around 
the table and say, ``Look, we all serve the public.''
    Mr. Dale. Yes.
    Senator Kerry. ``How do we give the public an assurance, 
here, that this is working for them?'' That's all it is. It 
seems to me, rather than be hauled up here to sit in front of a 
Committee and asked why this has happened X number of times, 
we'd all be better off if we did that.
    Mr. Dale. We're very willing to have that discussion. 
Absolutely.
    Senator Kerry. Yes, Mr. Carver? We've got to wrap this----
    Mr. Carver. Yes.
    Senator Kerry.--up in a moment, because----
    Mr. Carver. Well, I just want to go to the Mindy Jordan 
case, which happened a month ago. And Emily Ball is here, 
representing the family. Here, a woman went missing off a 
cruise ship at 8 o'clock at night under mysterious 
circumstances. She was in an abusive relationship with her 
friend. It wasn't for 15 hours, until 11 o'clock the next 
morning, before the boyfriend finally called the mother. Now, 
the mother was listed as the number-one contact, and the cruise 
line chose not to contact the mother for 15 hours. Only the 
boyfriend. And, as I understand it--I've talked to the mother 
several times--she's gotten three different stories. Then the 
FBI enters the scene----
    Senator Kerry. Isn't there photograph evidence with respect 
to what happened in that case?
    Mr. Carver. Well, the answer is, there was videotape that 
came out.
    Senator Kerry. That she was climbing from one balcony to 
another.
    Mr. Carver. The cruise line's--well, we don't--know what 
happened. And--but, the cruise line quickly got that out. 
There's a video her going overboard. But, the FBI has come in 
and clearly said the case is not closed, that that is an open 
case. But, what they'd like to do is get something out that 
there was a video. But, the FBI is under--investigating the 
case very carefully.
    But, the issue I'm getting at was, the FBI didn't show up 
until 3 days later. Any evidence on that porch where she was, 
the balcony, would have been washed away. They were in a storm. 
There was no security on that board to step in and immediately 
take action. And----
    Senator Kerry. Well, I think that underscores the point 
that I'm making.
    Mr. Carver. No, that's exactly right.
    Senator Kerry. But, I also sense that Mr. Dale is 
prepared--and I know some of the people in the industry; I 
think they're interested in making the industry successful and 
in----
    Mr. Carver. You know something? I agree with that 100 
percent, except we have met with them time after time after 
time to discuss these proposals, and we've gotten zero response 
out of them.
    Senator Kerry. Let me see what we can do as we consider 
some kind of sensible legislation, and maybe there's a----
    Mr. Carver. Yes.
    Senator Kerry.--you know, competently----
    Mr. Carver. I accept--I'll meet forever.
    Senator Kerry. Yes.
    Mr. Carver. But, our meetings, so far, have not produced 
results.
    Senator Kerry. Well, Mr. Dale, what do you think? Do you 
think we can get some results?
    Mr. Dale. Well, absolutely. And we have made results.
    And, of course, I'm disappointed when I hear Ken 
characterize the work that we've done--I take it very 
personally. I chair those meetings. Every one of our family 
members who serve has my personal cell phone number. I received 
a call on Thanksgiving night from one of our family members who 
needed assistance, and I got it for them immediately.
    I am committed to this. Our industry is committed to this. 
And I would just like to go on record as saying I thank you for 
holding this hearing today and working with us.
    Senator Kerry. Well, I think there's a much better way to 
actually serve everybody here, frankly. I don't think this is 
as complicated as somehow it's being made out to be.
    I'm not sure what your security budget is right now, but I 
imagine it's pretty hefty. And I can't imagine that you don't 
have a lot of pretty-trained personnel. But, I think they're 
operating within a framework that has a lack of clarity, to be 
honest with you, I think if we were to all agree on how you 
establish that, I think you guys would come out of this much 
better. I am absolutely certain that citizens would be the--you 
know, public interest would be far more effectively served.
    So, why don't we agree to try to work on that and I think 
everybody would be better served. And I'll try to make sure we 
convene something and try to move down that road so we don't 
let a lot of--I was going to say moss grow under our feet, but 
I probably ought to say seaweed.
    Mr. Dale. Yes.
    Senator Kerry. But, we'll get at this and see what we can 
do.
    I'm going to leave the record open in case colleagues on 
the Committee have some additional questions they want to 
submit in writing, and we will submit a few on the statistical 
piece.
    But, I don't think this is, frankly, an issue of the 
statistics, to be honest with you. I think the statistics are 
whatever the variance is in them, I think everybody accepts we 
want to try to minimize--the incidents and maximize the 
response capacity. So, if we all meet in good faith in an 
effort to do that, I would hope we ought to be able to come up 
with something sensible.
    Mr. Dale. Thank you.
    Senator Kerry. So, let's try to do that.
    And we'll stand adjourned. I thank you all for coming 
today. Thank you.
    [Whereupon, at 11:40 a.m., the hearing was adjourned.]
                            A P P E N D I X

  Prepared Statement of Daniel D. Roberts, Deputy Assistant Director, 
                    Federal Bureau of Investigation
    Good morning Chairman Lautenberg, Ranking Member Smith and Members 
of the Subcommittee. I appreciate the opportunity to provide an update 
on the FBI's work with the U.S. Coast Guard, the cruise line industry 
and the victims of cruise line crime regarding crime aboard cruise 
ships.
Reporting Agreement
    In March 2007, the FBI, the U.S. Coast Guard and the Cruise Lines 
International Association (CLIA) reached an agreement on voluntary, 
standardized protocols for CLIA member lines to report allegations of 
serious violations of U.S. law committed aboard cruise ships. These 
reporting procedures are in addition to, but not in lieu of, mandatory, 
codified reporting requirements (e.g., the requirements of 46 Code of 
Federal Regulations (CFR) Part 4, and the requirements of 33 CFR Part 
120). Further, this reporting does not replace or override any agency 
responsibilities and coordination mandated by the Maritime Operational 
Threat Response Plan.
Incident Statistics
    Pursuant to the agreement, on April 1, 2007, the FBI began 
collecting and tracking the incident reports submitted by CLIA member 
lines. I would like to take a few minutes to report on the results of 
this effort. Through May 31, 2008, the FBI received 522 reports from 
CLIA members. Many of these matters did not require criminal 
investigation and as such, should be viewed as ``incident reports'' not 
``crime reports.'' For example, there were reports received of civil 
matters and incidents in which individuals did not re-board the ship 
for various reasons, which were not criminal in nature.
    Incidents on board ships when investigated by the FBI are 
documented through investigative files under the ``Crimes on the High 
Seas'' classification. Of the 522 incident reports, the FBI opened 53 
investigative files. This number is consistent with the number of 
``Crimes on the High Seas'' cases opened annually for the past 5 years.
    The agreement with CLIA and the U.S. Coast Guard lists eight 
categories of incidents which are to be telephonically reported by CLIA 
members to the nearest FBI field office or Legal Attache office. These 
matters--homicide, suspicious death, missing U.S. national, kidnapping, 
assault with serious bodily injury, sexual assault, firing or tampering 
with vessels, and theft greater than $10,000--involve potentially 
serious violations of U.S. law and are to be called in to the FBI as 
soon as possible following the incident. After telephonic contact, CLIA 
members are instructed to follow-up with a standardized written report. 
All other, less serious matters are reported under a general ``other'' 
category and are brought to the FBI's attention by submission of a 
written report.
    From April 1, 2007, through May 31, 2008, there have been no 
reports of homicide aboard CLIA member ships. There was one report of 
suspicious death and nine reports of missing U.S. nationals. Four of 
the missing U.S. nationals reports concerned individuals who 
voluntarily disembarked without notifying the ship and were located at 
a later date. Five missing U.S. nationals reports involved passengers 
whose histories of depression and behavior while on board the ship 
strongly indicate the passenger may have committed suicide.
    There have been 27 reports of assaults with serious bodily injury. 
The FBI 619opened 16 investigative cases on physical assault with 
serious bodily injury matters, 11 of which are currently ongoing.
    The FBI investigates sexual assaults as defined in Title 18 of the 
United States Code (U.S.C.), Sections 2241 through 2243 and 2244(a) and 
(c). Since April 1, 2007, CLIA has reported 90 instances of sexual 
assault. Of these 90 incidents, 49 represented allegations of sexual 
activity generally categorized as rape, one of which occurred on shore 
and, thus, outside the jurisdiction of the FBI. Based on the 90 
reports, the FBI opened 34 investigative cases. Fourteen of these cases 
were closed due to either the victim not wanting to pursue charges, 
lack of evidence to support the allegations or declinations from the 
United States Attorney's Office. Twenty investigations are currently 
ongoing.
    During this period, there were 25 reported incidents of theft of 
more than $10,000. Of these 25 incidents, 15 involved jewelry, five 
involved cash, two involved miscellaneous equipment, two involved theft 
from onboard shops and one involved food products.
    There was one report of firing or tampering with vessels.
    369 incident reports involved less serious matters which are 
reported under the category entitled ``Other.'' This category includes 
simple assault, low-dollar loss theft, fraud, suspicious activity, bomb 
threats, sexual contact, or activity that was not criminal in nature. 
There were 99 reports of sexual contact, as defined in Title 18 U.S.C., 
Section 2244(b), essentially uninvited touching of a sexual nature. 
There were 93 reports of simple assault to include punching, slapping 
or pushing actions. There were 111 reports involving theft of less than 
$10,000.
    FBI analysis of cruise ship crime reporting over the past year 
reflects the fact that many reports we have received during the first 
year of reporting fall outside of FBI jurisdiction, do not constitute 
crimes under U.S. law, or are less serious than characterized by the 
cruise lines. Therefore, it is my belief that CLIA member cruise lines 
are generally making a good faith effort to report all crimes, or 
allegations of crime, set out under the agreement.
Coordination with CLL4 and the International Cruise Victims' 
        Association
    I would like to briefly update the Subcommittee on other efforts 
which the FBI has undertaken in support of its role in investigating 
crimes aboard cruise ships. Kendall Carver, President of the 
International Cruise Victims Association, came to FBI Headquarters in 
July 2007, accompanied by two members of his group. My predecessor, 
former Deputy Assistant Director Salvatore Hernandez, met personally 
with Mr. Carver and his associates to hear their concerns and to 
explain the work being done by the Coast Guard, CLIA, and the FBI 
regarding cruise ship crime reporting. Over the past year, my 
associates at the FBI have met or spoken with CLIA and the Coast Guard 
regularly to check progress on our reporting protocols and to refine 
those protocols where necessary. FBI representatives regularly attend 
the Joint Agency/Industry Working Group on Cruise Ship Security and, in 
April 2008, the FBI provided a briefing on investigative protocol to 
the CLIA Survivor Working Group Meeting in Miami, Florida, which 
includes representatives of the International Cruise Victims 
Association.
Training
    Finally, I would like to address proactive steps being taken by the 
FBI and CLIA. When former Deputy Assistant Director Hernandez last 
testified on this issue before a House Subcommittee, he described the 
training provided by the FBI's Regional Evidence Response Teams (ERT) 
to cruise line staff captains and security managers over the last 3 
years. The FBI's Violent Crime Section, in conjunction with the ERT 
Unit in Quantico, Virginia, completed a universal PowerPoint 
presentation entitled ``Cruise Line Crime Scene Preservation,'' which 
was disseminated to the cruise line industry in January 2008.
    In closing, the FBI is committed to continuing its work with the 
cruise line industry, the U.S. Coast Guard, and victims' groups to 
ensure full reporting of crimes aboard cruise ships and to facilitate 
more effective first response to such crimes.
                                 ______
                                 
     Prepared Statement of Carolyn V. Coarsey, Ph.D., Co-Founder, 
             Family Assistance Foundation, Atlanta, Georgia
    Senator Kerry and Distinguished Members of the Committee, my name 
is Carolyn Coarsey and I am co-founder of the Family Assistance 
Foundation. My doctoral degree is interdisciplinary, combining 
psychology and education, with a specialty in training employees on how 
to manage trauma in the workplace.
    I have come before you today to tell you about my work with the 
cruise industry.
    In 1985, my fiance, a former airline executive died on board Delta 
Air Lines Flight 191, a crash in which 137 people perished. As an 
employee working in the aviation industry at the time, I knew that 
there were people inside of the company who wanted to help, but they 
simply did not know how.
    At that time, I decided to enter graduate school in order to study 
the problem of how a company could prepare employees to respond to the 
public at the time of a disaster. I now understood the problem not only 
from the employee's perspective, but from the family's perspective as 
well. The Civil Aeromedical Research Division of the FAA (CAMI) 
sponsored my studies at the University of New Mexico. My doctoral 
dissertation, published in 1992, showed a clear difference in 
passengers responses to trauma when they were met by employees who 
handled them with concern, empathy, and the offer of support. Survivors 
who felt that the company had done everything possible to help them 
following a traumatic event had significantly fewer symptoms of five 
psychological disorders that are most often associated with trauma. 
That information formed the basis of the work that I do today.
    In 2000, a former airline executive and I co-founded the Family 
Assistance Foundation for the purpose of helping organizations provide 
a higher level of response to survivors during tragedies. Our mission 
is to support and improve business and industry responses to 
emergencies and disasters. The Foundation takes a unique, research-
based approach to helping organizations successfully meet survivor's 
(customers, affected families, employees, any member of the public 
impacted) needs by coordinating and mobilizing resources during the 
acute phase of a crisis and beyond. The Foundation's annual symposium 
provides member organizations, as well as survivors, the opportunity to 
share lessons learned and information about how to continually improve 
response efforts and business practices. Foundation education and 
training programs support members by monitoring the long-term outcomes 
of those impacted by tragedy. Promoting awareness and building skills 
and knowledge for those who are charged with responding are crucial 
elements of the Foundation's fully integrated training and support 
programs for business and industry.
    The Foundation provides education, training, and organized mutual 
aid at the time of a tragedy. The cornerstone of the Foundation is to 
promote open dialogue between survivors and employee helpers. We 
encourage family and passenger survivors to tell their stories in an 
educational format so that they can train employees on what is needed 
by survivors during these vulnerable times. Since its inception the FAF 
has trained thousands of employees from various industries including 
airlines, business aviation, rail, industrial and the cruise lines. We 
now employ seven full time folks at our headquarters in Atlanta and 
have other facilitators in the UK and hundreds of other care volunteers 
around the world.
    In 2005, I began interviewing survivors of cruise line tragedies. 
Shortly thereafter, I became involved in developing training materials 
for the cruise industry. I also began hosting training programs based 
on interviews that I was conducting with survivors.
    These interviews included family members of persons who had gone 
missing overboard, family members of deceased passengers, and guests 
who had become involved in a tragedy while on a cruise ship.
    I have seen a very aggressive response by the cruise line industry 
to the problem of empowering employees to assist survivors in a time of 
crisis. The cruise lines have offered many different training programs 
including the use of videotapes and written testimony. I have 
personally provided awareness education to more than 5,000 employees in 
the cruise line industry. I have trained cruise line executives, Care 
Teams, telephone responders, employees who will notify the next-of-kin 
for guests who experience tragedy while on a ship, security personnel, 
safety officers, deck officers and other on-board staff. The goal is to 
provide a substantial level of awareness to every employee who might 
interface with a survivor during a crisis.
    In addition to the cruise industry's commitment to crew training, 
which includes on-board and shore side guest support, they have also 
entered into an agreement with the Federal Bureau of Investigation and 
United States Coast Guard that clarifies reporting procedures for all 
serious violations of U.S. law that occur aboard cruise ships. 
Heightened security measures are standard for the maritime industry 
today, and cruise line passengers go through screening procedures 
similar to those found at U.S. airports, which include the use of metal 
detectors, baggage scanning devices, and biometric verification 
machines.
    Currently, I am developing a training program for all shipboard 
employees to be presented on ships that includes a twenty-minute video 
of survivors speaking directly to every employee who may encounter them 
during, and following, a crisis. The program also features a 90-minute 
discussion guide that can be presented by shipboard trainers and 
supervisors. In addition, I have already developed a 4-hour module for 
leaders on ships (captains, physicians, nurses, hotel directors, and 
others who are in charge of crew and passengers), designed to help them 
understand mistakes that have been made in the past and how to prevent 
similar problems in the future. The video-based program features 
survivors whose loved ones have gone missing as well as many other 
types of traumatic situations, where the trainees hear directly from 
those involved. I personally presented the pilot of this program on 14 
ships in summer of 2007 and can speak to the effectiveness of this 
training.
    In addition to the training, in May 2007 at the Foundation's annual 
Symposium, we featured two panels on the subject of handling victims of 
trauma on cruise ships. The first panel involved family members and 
guests who had survived cruise line tragedies prior to this robust 
training being offered by the industry. The second panel involved 
survivors of tragedies following the new programs. We saw a significant 
difference. Survivors from the second panel who were empowered by 
trained employees and offered every form of assistance possible were 
still healing from the loss of loved-ones, but they did not have to 
cope with anger and hostility. The second group expressed gratitude, as 
they felt validated and supported by the representatives of the cruise 
line. They knew that the people who had the most power to help them 
while they were most dependent and vulnerable had done everything 
possible to assist them during the tragedy.
    At this year's Foundation Symposium, we hosted five more cruise 
line survivors and families. The survivors praised the cruise lines for 
their heroic efforts and gladly participated in the panel, educating 
others on the importance of this work. We had two women whose loved 
ones had died while on a ship, a mother whose daughter would have died 
had not the ship's crew responded as they did, and the family of a baby 
that was born on a ship weighing less than two pounds. We also had a 
presentation by a man who, along with a party of 12, was accosted at 
gunpoint while on an excursion. He praised the responders and, as an 
example of how strongly he felt about the way him and his friends were 
treated following the trauma, has already traveled on another cruise 
vacation.
    I know that the industry is listening and learning from survivors. 
I personally facilitated a meeting in August 2007, where industry 
officials met and listened to survivors. Most of what was heard was 
from survivors who were very upset as their experiences occurred before 
the industry began its educational efforts. Despite the unpleasantness 
of this experience, the cruise line representatives listened and did 
not attempt to defend their actions. They have learned that these 
expressions are part of the healing process, and that providing 
survivors with the opportunity to speak their mind will play a major 
role in their healing.
    True change begins when companies empower their employees to 
empower survivors during the tragedy, when they are most helpless. This 
can only be done through the education and training of employees. In 
this evolution of compassion consciousness, which we are experiencing 
today, I have never seen an industry take a more proactive approach to 
changing how its workforce responds to trauma in the workplace.
    I regret that I could not be with you today, but I appreciate your 
allowing me to provide you with this information.
    At the Foundation, our interviews continue to show that when 
employees are empowered to help survivors, they have a tremendous 
opportunity to influence how survivors heal. These interviews form the 
basis of all training programs offered by the Foundation, as we believe 
the true experts on the subject of how best to assist survivors are the 
survivors themselves.
                                 ______
                                 
U.S. Department of Justice, Federal Bureau of Investigation
                                      Washington, DC, June 19, 2008
Hon. Frank Lautenberg,
Chairman
Subcommittee on Surface Transportation and Merchant Marine 
            Infrastructure, Safety, and Security,
Committee on Commerce, Science, and Transportation,
U.S. Senate,
Washington, DC.

Dear Mr. Chairman:

    I am writing in response to your letter dated June 16, 2008, 
seeking information from the Federal Bureau of Investigation (FBI) in 
support of the Subcommittee's upcoming hearing on cruise ship safety.
    I have attached a compilation of the most recent statistics on 
cruise ship criminal security incidents reported to the FBI since April 
1, 2007. In accordance with Federal regulations contained in Part 120 
of Title 33 of the Code of Federal Regulations, passenger vessels 
covered by regulation must report certain incidents to the FBI. These 
include each breach of security, unlawful act, or threats of an 
unlawful act against passenger vessels, or any person aboard, when such 
acts or threats occur in a place subject to the jurisdiction of the 
United States. I hope you find the information useful.
    Consistent with conversations with Subcommittee staff, I regret 
that we are unable to provide a witness for the hearing and have 
offered a briefing at a later time should the Subcommittee need more 
information. Thank you for your interest in FBI operations and 
procedures. Please feel free to contact me if I can provide further 
assistance.
                                          Richard C. Powers
                Assistant Director, Office of Congressional Affairs

Enclosure

    The following statistics are based on incidents reported to the 
FBI. These numbers represent incidents that occurred between April 1, 
2007 and April 30, 2008.

------------------------------------------------------------------------
           Incident Type            Number of Reports       Percent
------------------------------------------------------------------------
Death--homicide                                     0                 0%
Death--suspicious                                   1                 0%
Missing U.S. National                               8                 2%
Kidnapping                                          0                 0%
Assault with Serious Bodily Injury                 26                 5%
Sexual Assault                                     83                17%
Firing or Tampering with Vessels                    1                 0%
Theft >$10,000                                     24                 5%
Other                                             346                71%
------------------------------------------------------------------------
    Total                                         489               100%
------------------------------------------------------------------------

    The following table provides an additional breakdown of the 
``Other'' category:

------------------------------------------------------------------------
           Incident Type            Number of Reports       Percent
------------------------------------------------------------------------
Other--Theft < $10,000                            104                30%
Other--Simple Contact                              91                26%
Other--Sexual Assault                              86                25%
Other--Death*                                      14                 4%
Other--No Re-board**                                7                 2%
Other--Miscellaneous                               44                13%
------------------------------------------------------------------------
    Total                                         346               100%
------------------------------------------------------------------------
* Of the fourteen ``Other--Death'' incidents, eight are natural causes,
  four are suicides, and two are accidental.
** Of the five ``Other--No Re-board'' incidents, four involve crew
  member subjects and three involve passenger subjects.

                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                           Daniel D. Roberts
    Question 1. In your testimony you state that of the 522 incident 
reports between April 1, 2007 and May 31, 2008, the FBI opened 53 
investigative files and that this number is consistent with the number 
of ``Crimes on the High Seas'' cases opened annually for the past 5 
years. Please provide the Committee with specific statistics of the 
number of cases reported to the FBI over the past 5 years by calendar 
year, by type, and the number of criminal violations that resulted in 
investigative files. Please also provide, by calendar year, the result 
of the investigative files that were opened and their current status 
such as: closed due to insufficient evidence, closed due to 
unwillingness of the victim to pursue charges, pending litigation, 
closed with result in criminal prosecution etc.
    Answer. The FBI cannot provide statistics concerning all alleged 
incidents of ``crimes on the high seas'' reported over the past 5 
years, as these statistics have not been tracked over this period of 
time. The FBI has tracked the submissions by the cruise lines using the 
form reporting ``Cruise Line Report of Serious Violations of U.S. Law'' 
since April 2007, and those figures were provided to the Subcommittee 
in June 2008 as noted in the question.
    The FBI's records management system is generally able to produce 
statistics concerning the number of cases opened in a given Fiscal Year 
(FY), as well as the current status of these investigation as 
``pending'' or ``closed.'' With respect to closed cases, the FBI tracks 
whether the case was closed for administrative reasons, due to a 
prosecutorial declination by the United States Attorney's Office 
(USAO), or due to final adjudication of all legal proceedings in the 
matter. In both the ``administrative'' and ``declination'' categories, 
a case may be closed for a number of reasons, including insufficient 
evidence or the unwillingness of the victim to pursue charges. The 
specific circumstances of ``administrative'' or ``declination'' case 
closures are not tracked.
    Following are the available statistics by FY.

  <bullet> In FY 2004, the FBI opened 50 investigations of crimes on 
        the high seas. Of these cases, 1 is still pending, 34 were 
        closed administratively, 12 were declined by the USAO, and 3 
        were closed following final adjudication.

  <bullet> In FY 2005, the FBI opened 41 investigations of crimes on 
        the high seas. Of these cases, 3 are still pending, 22 were 
        closed administratively, 12 were declined by the USAO, and 4 
        were closed following final adjudication.

  <bullet> In FY 2006, the FBI opened 53 investigations of crimes on 
        the high seas. Of these cases, 10 are still pending, 23 were 
        closed administratively, 11 were declined by the USAO, and 9 
        were closed following final adjudication.

  <bullet> In FY 2007, the FBI opened 55 investigations of crimes on 
        the high seas. Of these cases, 14 are still pending, 20 were 
        closed administratively, 18 were declined by the USAO, and 3 
        were closed following final adjudication.

  <bullet> In FY 2008, the FBI opened 49 investigations of crimes on 
        the high seas. Of these cases, 30 are still pending, 8 were 
        closed administratively, 6 were declined by the USAO, and 5 
        were closed following final adjudication.

  <bullet> Through the end of October 2008, the FBI had opened 1 
        investigation of a crime on the high seas in FY 2009.

    Question 2. In your statement you indicate: ``Since April 1, 2007, 
CLIA has reported 90 instances of sexual assault. Of these 90 
incidents, 49 represented allegations of sexual activity generally 
categorized as rape, one of which occurred on shore and, thus, outside 
the jurisdiction of the FBI. Based on the 90 reports, the FBI opened 34 
investigative cases. Fourteen of these cases were closed due to either 
the victim not wanting to pursue charges, lack of evidence to support 
the allegations or declinations from the United States Attorney's 
Office. Twenty investigations are currently ongoing.'' Of the 14 cases 
closed, how many of those were due to lack of evidence to support the 
allegations?
    Answer. Since April 1, 2007, the FBI has opened 34 investigations 
based on sexual assault reports by the Cruise Lines International 
Association. Although the FBI initially reported that 14 of those cases 
had been closed, in fact only 12 of the 34 cases have been closed. Of 
these 12 closed cases, 9 were closed upon declination by the USAO 
because the evidence was insufficient. Three of the 12 cases were 
closed before submission to the USAO. Two of these cases were closed 
because the evidence was insufficient and one was closed 
administratively and referred to authorities in the Bahamas after 
investigation determined the alleged offense had occurred in Freeport, 
Bahamas.

    Question 3. According to Terry Dale, the DVD you produced with the 
Cruise Lines International Association provides instruction on initial 
crime scene response, including securing the scene, taking crime scene 
photography, and collecting evidence. Do you believe that security 
personnel on board cruise ships should be involved in crime scene 
evidence collection to support the FBI? Do you see this as an 
appropriate and helpful role for the security personnel on board cruise 
ships to provide to the FBI? If evidence collection is conducted by the 
cruise ship security personnel according to the FBI's instructional 
video, do you see any potential issue with the admissibility of 
evidence for legal proceedings?
    Answer. In January 2008, the FBI supplemented existing protocols 
between the FBI and the cruise line industry by providing to that 
industry a DVD presentation entitled, ``Guide to Cruise Line Crime 
Scene Preservation.'' The presentation pr vided basic instruction on 
the investigative jurisdiction of the United States, reporting 
requirements for crimes on the high seas, and basic crime scene 
management. The presentation emphasized that the first priority of the 
cruise line is to' secure the crime scene and await the arrival of law 
enforcement officials. The location of a crime scene on a cruise ship 
(for example, on an outside deck or in a common area) may make it 
difficult or impossible for cruise line personnel to isolate and 
maintain the security of the crime scene. In these circumstances, and 
when law enforcement officials cannot respond immediately, we must rely 
on cruise line personnel to conduct the initial processing of the crime 
scene. While the FBI would prefer to process the crime scene, we 
believe the DVD presentation provides the cruise lines with the basic 
tools they will need when immediate response by law enforcement 
officials is not possible.

    Question 4. What methodology has the FBI developed to verify to a 
victim(s) that their case has been reported by the cruise lines to the 
FBI and or the U.S. Coast Guard?
    Answer. If an incident or crime reported to the FBI by a cruise 
line meets minimum Federal investigative and prosecutorial guidelines, 
the FBI opens an investigation and contacts any victims for interview 
purposes and to offer victim assistance. The FBI uses Victim 
Specialists, who are assigned to the Office for Victim Assistance 
(OVA), as a resource when investigations involve victims of Federal 
crimes investigated by the FBI. The FBI's responsibility for assisting 
victims continues through adjudication and may involve Victim 
Specialists from both the FBI and the USAO.
    The mission of the OVA is to ensure that victims of crimes 
investigated by the FBI receive the services and notifications required 
by Federal law and the Attorney General's Guidelines on Victim and 
Witness Assistance (2000). The FBI recognizes not only the necessity of 
providing for the legal rights of victims but the benefits that 
effective and timely victim assistance bring to investigations. The OVA 
applies three major principles in performing its mission: (1) doing 
what the law requires; (2) doing what will help victims and will 
enhance their ability to participate in the investigative process; and 
(3) using innovative, flexible, and practical methods to accomplish its 
goals.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank. R. Lautenberg to 

                               Terry Dale
    Question 1. The cruise ship industry is required to provide Customs 
and Border Protection (CBP) with crew and passenger manifests prior to 
departure. When is the manifest required to be submitted to CBP prior 
to departure and for what are passengers and crew being screened? For 
example, are passengers being screened against only a terrorist watch 
list or are they also being screened against the FBI database of sexual 
predators?
    Answer. Cruise ships departing American ports are required to 
submit their completed manifest, passengers and crew, to CBP (shared 
with the USCG) 60 minutes prior to the ship's departure. This 
information is submitted electronically in a format that allows CBP to 
quickly process the names through the government data bases. We defer 
to CBP and other Federal agencies to describe their screening process 
of crew and passenger manifests.

    Question 2. What type of background checks do CLIA member companies 
conduct on their potential hires? The crew member who masturbated in 
front of an 8 year old girl had a different name on his passport than 
on his employment application--how do you explain that? What steps are 
CLIA member companies taking to ensure this does not happen again?
    Answer. All CLIA member companies use vetted, reputable manning 
agencies in the countries where they hire their employees. Many source 
countries for cruise ship employees--such as the Philippines, a 
principle source country--have comprehensive and institutionalized 
systems to validate the character of their seafarers.
    The cruise lines operating to and from the United States also 
require all of their employees to obtain a work visa from the U.S. 
Government. Applications are obtained and presented at a U.S. Embassy/
Consulate in person, where an interview and background check is 
completed.
    Additionally, when applying for a cruise line job, the crew member 
is required to submit to the U.S. Embassy/Consulate his/her passport, 
employment application and letter-of-intent-to-hire by the cruise line. 
This same information is required to be submitted by the crew member 
when entering the U.S. by airline to join the ship in a U.S. port. If 
the crew member joins the ship at a foreign port, his/her passport and 
manifest would have to match when submitted by the cruise line prior to 
entering the first U.S. Port.
    CLIA is aware that one of the hearing's witnesses provided the 
account of an alleged sexual incident as set forth in this question. 
Lacking additional information, we have been unable to confirm the 
details of the alleged incident and are, therefore, unable to provide 
additional comment.

    Question 3. What are the minimum standards in the industry to be 
hired as cruise ship security personnel? What type of training and 
experience is required?
    Answer. Each cruise line has its own pre-requisites for hiring 
security personnel. Most of the security personnel have either military 
or law enforcement backgrounds. They receive training and refresher 
training in topics such as:

        International Ship Security Regulations

        Alcohol awareness and breathalyzer training

        Explosive detection

        Screening equipment and search techniques

        Accident investigation

        Crime scene preservation

        Reporting, securing, entry, photography, logs, evidence 
        protection, chain of custody, guest care issues

        Interview techniques

        Smuggling techniques

        Case studies

    This is a sampling of the training provided and depending on the 
individual's background, the duties assigned to the security officer, 
and the number of years having worked in that capacity, the training 
topics may increase or decrease. It should also be noted that several 
aspects of the training are provided by members of Federal law 
enforcement agencies such as FBI, USCG, ATF and CBP.

    Question 4. Could you please explain table 1 of Mr. Klein's 
testimony as to how Royal Caribbean Cruise Lines defined inappropriate 
touch, sexual harassment and sexual assault metrics? Of the 2.4 percent 
of incidents that occurred in a child/teen area could you please 
specify what type of incidents occurred, such as inappropriate touch, 
sexual harassment or sexual assault? How is the location of 26 percent 
of the incidents unknown? Were all of the 151 total cases reported to 
the FBI? Of those cases, do you know how many were prosecuted or did 
not have sufficient evidence to pursue prosecution? How do you explain 
an on board population sexual assault incident rate of 58.85 per 
100,000, compared to an overall U.S. rate of 32.20 per 100,000, and 
still maintain that cruise ship safety is better than land based resort 
vacation destinations?
    Answer. CLIA submitted this question to RCL officials for response 
given that the question is based upon RCL data. RCL's response is set 
forth below:
    RCL appreciates the opportunity to clarify the statistical 
misunderstanding that occurred at the hearing. For ease of reference, 
we have divided the multi-part question into separate sections for 
response.

    Question 5. Could you please explain table 1 of Mr. Klein's 
testimony as to how Royal Caribbean Cruise Lines defined inappropriate 
touch, sexual harassment and sexual assault metrics?
    Answer. The Royal Caribbean Cruises Ltd. (RCL) statistics cited in 
Mr. Klein's testimony were derived from litigation discovery provided 
to a plaintiff's attorney and apply to the period from 2003 through 
2005. The data in the charts used by Mr. Klein depict information 
gathered by RCL in support of tracking shipboard incident allegations 
by its former Risk Management Department for the purpose of aiding 
claims adjusters in locating a record if a claim is filed. The 
definitions used by Risk Management were not consistently applied and 
due to their purpose, received no rigor or oversight to link them to 
definitions used outside of the company. The definitions of the terms, 
as used by RCL were: Inappropriate touching (kissing, holding hands, 
rubbing back); Sexual Harassment (verbal only); Sexual Assault 
(touching of intimate body parts above or under clothing); Sexual 
Battery (penetration of any type). Mr. Klein's conclusions are based on 
limited information available on these charts and therefore did not 
lend themselves to reliable analysis. Simply stated, the validity of 
Mr. Klein's representations is dependent upon the accuracy of the 
labels RCL assigned to each allegation. Although perhaps sufficient to 
permit a claims adjuster to locate a record, detailed analysis of this 
labeling reveals it to be lacking in both uniformity and accuracy. In 
short, the data Mr. Klein used in his analysis was flawed when used for 
his purposes.

    Question 6. Of the 2.4 percent of incidents that occurred in child/
teen areas, could you please specify what type of incidents occurred, 
such as inappropriate touching, sexual harassment or sexual assault?
    Answer. It is unclear how Mr. Klein arrived at his ``2.4 percent'' 
figure. We identified the following eight incidents in the referenced 
data involving child/teen areas (see definitions above in response to 
question #1):

  <bullet> 9/13/2003--A guest alleged sexual harassment by crew member;

  <bullet> 10/10/2003--A guest alleged sexual harassment by two 
        underage male guests;

  <bullet> 4/4/2004--A guest alleged a crew member made inappropriate 
        comments;

  <bullet> 5/18/2004--A 6 year old guest exposed his penis while 
        watching a movie;

  <bullet> 6/11/2004--A guest alleged sexual assault by another guest 
        (this was labeled as a ``sexual assault'' but, upon review, 
        should have been ``inappropriate touching'');

  <bullet> 6/25/2004--A guest alleged being stalked and sexually 
        harassed by a male guest;

  <bullet> 6/28/2005--Allegation that a 14 year old girl was grabbed 
        and kissed by another guest (age not listed)--(upon, review, 
        actually an inappropriate touching);

  <bullet> 7/22/2005--A guest alleged physical assault by a crew member 
        (no sexual aspect) (upon review determined to be an assault, 
        not an inappropriate touching as indicated)

    Question 7. How is the location of 26 percent of the incidents 
unknown?
    Answer. The data that Mr. Klein relied upon did not contain entries 
in these fields because the purpose of the data was to allow claims 
adjusters to locate the files. RCL personnel creating the data set did 
not focus on completing this field uniformly but that does not mean 
that the location of the incidents is unknown.

    Question 8. Were all of the 151 cases reported to the FBI? Of those 
cases, do you know how many were prosecuted or did not have sufficient 
evidence to pursue prosecution?
    Answer. It is and has been RCL policy to report all crimes to law 
enforcement. Since it is not clear which cases the number 151 captures, 
we are unable to provide a reliable response. If the 151 cases are 
identified, RCL can pull the corresponding files and determine which 
agency we contacted to report the incident. However, RCL does not track 
whether law enforcement pursues prosecution on the allegations we 
report.

    Question 9. How do you explain an on board population sexual 
assault incident rate of 58.85 per 100,000, compared to an overall U.S. 
rate of 32.20 per 100,000, and still maintain that cruise ship safety 
is better than land based resort vacation destinations?
    Answer. See attached letter that was sent by RCL to Mr. Klein in 
response to this erroneous representation in his testimony.
                               Attachment
                               Royal Caribbean Cruises Ltd.
                                            Miami, FL, July 8, 2008
Ross A. Klein,
Professor, School of Social Work,
St. John's College, J-2000,
Memorial University of Newfoundland,
St. John's, NL, A1C 5S7 Canada.

Dear Professor Klein:

    I noted with interest your June 19, 2008, testimony on Cruise Ship 
Safety, before the U.S. Senate Commerce Subcommittee, in which you 
cited a news report and prior testimony and charts, which I believe you 
know to be erroneous. In addition, by testifying that ``the rate of 
sexual assault on cruise ships, compared to the rate of forcible rape 
in the U.S., is not half but almost twice the U.S. rate'' you 
improperly led Congress to believe this was a valid comparison. You 
appear to have done so in a deliberate attempt to mislead Congress into 
believing that the rate of shipboard rape allegations is twice the rate 
of those occurring on shore.
    As you know, the Uniform Crime Reporting (UCR) Program does not 
track or compute a rate of U.S. land-based sexual assaults. In fact, 
the term ``sexual assault'' does not even appear to be defined in 
either the UCR or in any U.S. Federal statute. Its cruise industry use 
was first defined by the FBI in March, 2007, to include each of the 
crimes codified in Title 18, United States Code (USC), Sections 2241, 
2242, 2243, 2244(a) and 2244(c).
    The ``rate of sexual assault'' you calculated and cited in your 
testimony before the Committee included: (1) Crime allegations of rape; 
(2) Crime allegations of cruise ship sexual assaults that fall within 
the above FBI definition; and even (3) Crime allegations that are 
outside the FBI's prescribed cruise industry use of the term ``sexual 
assault.'' There is simply no justifiable basis to equate such a broad, 
grouping of crimes to the UCR's narrowly defined rate for land-based 
forcible rapes, as you knowingly did in your testimony.
    In addition, your June 19 testimony, as well as prior testimony 
before Congress, incorporated a chart you prepared which purports to 
depict a comparison of shipboard sexual assaults and a (non-existent) 
U.S. shore-side sexual assault rate (actually the UCR's forcible rape 
rate, which you mis-titled). You and I have discussed this chart you 
prepared and you agreed its comparison is invalid. In fact, you 
acknowledged such errors in an e-mail you sent to me on April 21, 2008, 
wherein you stated: ``I have stopped using the numbers given in 
discovery as comparison to the U.S. rate for forcible rape because it 
is essentially a comparison of apples and oranges.  . . . I assure you 
that I try to avoid a comparison of sexual assault rates on cruise 
ships with the rate of forcible rate [sic] on land.''
    You have told me that you believe this faulty comparison has its 
roots in statistics prepared by the cruise industry and I have passed 
your thoughts on to CLIA for their consideration. However, their 
response not withstanding, you were certainly aware at the time of your 
June 19 testimony that, whatever its origin, the comparison of 
shipboard ``sexual assaults'' to land-based ``forcible rape'' was, to 
use your words, an ``apples-to-oranges'' comparison to be avoided. 
Therefore, your testimony on June 19 that ``the rate of sexual assault 
on cruise ships, compared to the rate forcible rape in the U.S., is not 
half but almost twice the U.S. rate'' appears to be intentionally 
disingenuous.
    When you chose to use a self-defined rate of sexual assault on 
cruise ships instead of the available rate of rape on cruise ships (and 
thereafter to compare this figure to the shore-side rate for forcible 
rape) you again misled Congress. What's more, the implication of your 
testimony is directly contradicted by statistics the FBI presented to 
the Committee, which, using your method of calculation, reflect a 
cruise industry rape rate of 15.7 per 100,000 guests; versus the UCR's 
2006 land-based forcible rape rate of 30.77 per 100,000 residents.
    In conclusion, your testimony presented an invalid comparison 
between a gratuitously defined category of shipboard sexual assaults 
and the narrowly defined U.S. rate for land-based forcible rapes. It 
also failed to correct prior Congressional testimony based on a chart 
of your analysis which mischaracterized the U.S. rate of ``forcible 
rape'' as being a non-existent U.S. rate of ``sexual assault.''
    I ask that you take steps to correct and clarify the record of your 
June 19 testimony before Congress. I also ask that you acknowledge the 
2007 rate of shipboard rape, based on statistics presented by the FBI 
to the Committee, is approximately half the rate of land-side forcible 
rape in the U.S. (2006 UCR). This is too important a subject to 
countenance providing Congress with inaccurate or misleading 
comparisons.
            Sincerely,
                                              Gary M. Bald,
                                             Senior Vice President,
                             Safety, Security, Environment, and Health,
                                           Royal Caribbean Cruises Ltd.

CC: Hon. Frank R. Lautenberg
Chairman
Committee on Commerce, Science, and Transportation
Subcommittee on Surface Transportation and Merchant Marine 
Infrastructure, Safety, and Security
U.S. Senate
Washington, D.C.

Hon. Gordon H. Smith
Ranking Member
Committee on Commerce, Science, and Transportation
Subcommittee on Surface Transportation and Merchant Marine 
Infrastructure, Safety, and Security
U.S. Senate
Washington, D.C.

Hon. John F. Kerry
Committee on Commerce, Science, and Transportation
Subcommittee on Surface Transportation and Merchant Marine 
Infrastructure, Safety, and Security
U.S. Senate
Washington, D.C.
  

Terry Dale
President and CEO
Cruise Lines International Association
910 SE 17th Street
Ft. Lauderdale, FL
  
  
  
      
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                               Terry Dale
    Question 1. Mr. Dale, recognizing the wide variety of cruise types 
and itineraries offered by your members, are certain types of crimes or 
the frequency of certain crimes more prevalent on certain itineraries 
than others? For example, do short weekend cruises catering to young 
adults have higher overall rates of reported crimes and more sexual 
assaults than longer cruises catering to an older crowd? If a higher 
degree of correlation does exist between certain crimes and 
itineraries, are your members changing security procedures accordingly? 
If a higher degree of correlation does exist, are your member cruise 
lines allocating additional security resources to these higher risk 
itineraries?
    Answer. CLIA does not maintain a database of crimes that occur on 
our member lines. The cruise lines report allegations directly to law 
enforcement agencies. That said, there is a correlation of a higher 
rate of crimes on short cruises, with a younger demographic, than on 
the longer itineraries where there are more families and older guests. 
This fact is only one of a number of considerations our cruise lines 
use for setting the security protocols on board the ship. Our member 
lines continually evaluate a multitude of factors to determine the 
manning needed for security personnel on each cruise. These factors 
include, but are not limited to:

  <bullet> length of cruise

  <bullet> passenger demographics

  <bullet> season

  <bullet> itinerary

  <bullet> special charters

    In addition security protocols are dictated by the perceived 
security risks associated with a number of factors such as the ports of 
call, and itineraries.

    Question 2. Mr. Dale, when passengers board international cruises, 
are they typically aware of the various laws governing the reporting of 
crimes on cruise ships and who has jurisdiction for the different 
segments of the itinerary? Is there any sort of pre-boarding 
orientation or any material distributed before the ship leaves U.S. 
territorial waters? You mentioned that a significant percentage of 
cruises are purchased through travel agents. Should travel agents have 
an obligation to provide information to passengers regarding the 
various laws impacting their cruise and what to do if they believe they 
are a victim of crime?
    Answer. Information on safety and security is provided to 
passengers at the beginning of a cruise through several formats. The 
ship's TV is preset to the safety channel that provides the number to 
call if there is any incident, safety or security related. General 
warnings of a safety/security nature are also mentioned in each day's 
plan of activities and general safety announcements are made during the 
safety drill at the beginning of the cruise. In general, passengers are 
advised to report any crimes to Ship Security or other Officers. He and 
the Master are the individuals who can best work with and explain to 
the passenger what the reporting requirements are for the location at 
that time. Although reporting laws vary depending on ship location and 
victim/suspect nationality, all crime allegations are required to be 
reported to law enforcement. They are always reported to the Flag 
State. In addition, alleged crimes are generally always reported to 
either the nation where they occur or the nation of the next port of 
call. Some nations, such as the U. S., require reporting of crime 
allegations that occur outside their territorial waters. For example, 
crime allegations under the jurisdiction of the FBI and in which cruise 
lines report to the FBI include those that occur when:

        1. The ship, regardless of flag, is a U.S.-owned vessel, either 
        in whole or in part, regardless of the nationality of the 
        victim or the perpetrator, when such vessel is within the 
        admiralty and maritime jurisdiction of the United States and 
        out of the jurisdiction of any particular state;

        2. The offense by or against a U.S. National was committed 
        outside the jurisdiction of any nation;

        3. The crime occurs in the U.S. territorial sea (within twelve 
        miles of the coast), regardless of the nationality of the 
        vessel, the victim or the perpetrator; or

        4. The victim or perpetrator is a U.S. National on any vessel 
        during a voyage that departed from or will arrive into a U.S. 
        port.

    While travel agents do not provide specific information, passengers 
receive a contract of carriage that lays out the terms and conditions 
associated with that cruise. This contract is available for the guest 
on our member's website. Additionally, prior to the beginning of the 
voyage each passenger is provided with the contract of carriage. The 
legal rights and remedies within the contract are dependent upon a 
number of factors; including where the cruise begins and ends, as well 
as the flag of the vessel, and the nationality of the cruise passenger.

    Question 3. Mr. Dale, among recommendations from the International 
Cruise Victims Association is a proposal to place some type of law 
enforcement authority on all cruises analogous to a U.S. Air Marshall 
on a commercial flight. What is CLIA's position on having one such law 
enforcement personnel on each and every cruise? What is CLIA's position 
on having one such law enforcement personnel on cruises with higher 
risk itineraries?
    CLIA believes that the function served by Air Marshals is well 
within the capabilities of cruise ship security personnel. CLIA cruise 
line security personnel are fully trained and qualified as first 
responders to any security incident on board our ships. Most have prior 
law enforcement experience and receives extensive training from U.S. 
law enforcement maritime experts. Together, the shipboard teams, their 
U.S. based security departments and Law Enforcement Agency personnel 
work quite well in partnership. It is unlikely the addition of a law 
enforcement person would add material value in this important area. 
Cruise ships sail in an international environment, and as they 
testified at previous congressional hearings, the U.S. Coast Guard and 
FBI do not believe it is neither necessary nor legally feasible to 
require a U.S. Federal Law Enforcement Official on cruise ships. Many, 
if not most of the countries cruise lines visit have strict policies 
about weapons and the presence of a foreign law enforcement officer 
conducting activities while within their territory.
    CLIA would welcome an opportunity to further discuss the 
capabilities and requirements of its security personnel with members 
and staffers.

    Question 4. Mr. Dale, in your testimony you highlighted the use of 
an FBI-provided DVD for security training by major cruise lines. Is 
this DVD required viewing for all employees or individuals designated 
as ``security personnel?'' For example, do medical personnel, whom some 
cruise lines consider as independent contractors, view the DVD? Does 
the video cover the procedures medical personnel must follow when there 
are allegations of a sexual assault or rape? Do your member cruise 
lines consider viewing this DVD to be sufficient training for employees 
to respond appropriately when an allegation of an onboard crime occurs? 
Is that CLIA's position? Should those individuals designated as 
``security personnel'' be certified by a third party to give the public 
(and law enforcement) confidence that they have received adequate 
training and achieved as a minimum a basic level of competence in key 
areas such as securing a crime scene, evidence collection, etc.?
    Answer. The FBI-provided DVD is specifically aimed at crime scene 
management and evidence preservation for security trained personnel. 
The DVD is used in combination with the training provided by the cruise 
line for its security personnel. Most of the security personnel have 
either military or law enforcement backgrounds. They receive training 
and refresher training in topics such as:

        International Ship Security Regulations

        Alcohol awareness and breathalyzer training

        Explosive detection

        Screening equipment and search techniques

        Accident investigation

        Crime scene preservation

        Reporting, securing, entry, photography, logs, evidence 
        protection, chain of custody, guest care issues

        Interview techniques

        Smuggling techniques

        Case studies

    This is a sampling of the training provided and depending on the 
background, duties assigned to the security officer, the number of 
years having worked in that capacity, the training topics may increase 
or decrease. It should also be noted that several portions of the 
training are provided by members of Federal law enforcement agencies 
such as FBI, USCG, ATF and CBP.
    In addition, the cruise lines are pursuing, and several already 
have, their companies' security programs/training certified by a third 
party. Several lines have programs for licensing and certification as 
security professionals for their on board personnel. All the CLIA lines 
training stresses incident response, evidence and crime scene 
preservation. Both the U.S. Coast Guard and the FBI have testified that 
they receive excellent cooperation and assistance from cruise line 
security personnel.
    All ships that operate on international itineraries have trained 
medical personnel onboard. Part of the equipment in the medical clinics 
are pelvic examination kits and there is training provided to the 
medical personnel on the proper administration of these kits. The DVD 
does not specifically address medical procedures in the event of a 
rape/sexual assault, however, other training provided by cruise lines 
addresses this important area.

    Question 5. Mr. Dale, how do cruise lines hire their crews? Are the 
crews considered staff or are they considered independent contractors? 
If the hiring is done by a third party, is the crew member considered 
an employee of the cruise line, an employee of the hiring firm, or an 
independent contractor? What obligations does a third party staffing 
firm have to ensure that the individual they are hiring on behalf of 
the cruise line does not have a long history of committing crimes or 
alleged to have committed crimes while working on cruise ships? Is 
there an industry ``do not hire'' list?
    Answer. All CLIA member companies use vetted, reputable manning 
agencies in the countries where they hire their employees. Most of 
these countries have institutionalized programs for the recruitment and 
placement of properly screened employees. Additionally, several of the 
manning agencies in different countries have been vetted by the FBI in 
their ongoing efforts to stop counterfeit Letters of Employment and 
false documentation submissions for entry to the U.S. The cruise lines 
operating from the United States also require all of their employees to 
obtain a work visa from the U.S. Government. This visa is a C1D 
category. Applications are obtained and presented at a U.S. Embassy/
Consulate in person, where an interview and background check is 
completed. Additionally, when applying for a cruise line job, the crew 
member is required to submit to the U.S. Embassy/Consulate his/her 
passport, employment application and letter-of-intent-to-hire by the 
cruise line. This same information would have to be submitted by the 
crew member when entering the U.S. by airline to join the ship in a 
U.S. port. If the crew member joins the ship at a foreign port, his/her 
passport and visa would have to match when submitted by the cruise line 
prior to entering the first U.S. port. If a crew member commits a 
crime, his employment is terminated and his visa is revoked (in 
coordination with law enforcement authorities). To comply with U.S. and 
international privacy laws the cruise industry does not maintain a ``do 
not hire'' list.

    Question 6. Mr. Dale, what type of visa does a foreign cruise line 
crewmember require for itineraries that originate or terminate in the 
United States? Is a background check required for the visa? If so, who 
performs the background check? What does the background check include? 
Who is responsible on the cruise line for ensuring that the name 
employee or contractor has on his or her passport matched that with the 
name on his or her visa? What actions are taken if the names on the 
passport and the visa do not match?
    Answer. In addition to the information provided for the question 
above, all cruise ship crew members are screened through CBP, USCG and 
other law enforcement data bases on a regular basis. The crew manifest 
is submitted upon departure and arrival to every U.S. port. The crew 
must also submit to a 90-day crew check where they are subject to close 
CBP scrutiny for any inconsistencies in their documentation. This is 
all in addition to the obtaining of a visa to work in the United States 
that will validate credentials for consistency as well the first look 
CBP has as the crew travel through the port of entry at the 
international airport.

    Question 7. Mr. Dale, a significant percentage of reported crimes 
involve cruise line employees. Of the 184 cases reported to the FBI 
from Fiscal Year 2002 through February 2007, 84 involved crew members. 
In cases where a crew member is the alleged perpetrator of a crime 
which meet the FBI reporting requirements, can you walk us through the 
typical steps taken by a cruise line in dealing with the accused crew 
member, both in cases when the incident occurred in international or 
foreign waters and when the alleged crime occurs in U.S. territorial 
waters. In any circumstance, is the accused crew member allowed to 
disembark the ship before someone with legal authority can ascertain 
whether that individual may have committed a crime?
    Answer. All allegations are reported to the proper authorities 
including the FBI. The process followed whether in international or 
foreign waters is as follows: The crime allegation is reported to 
ship's security. A security team (accompanied by a medical team if 
warranted) immediately responds to the incident scene and determines 
what is alleged. The incident scene is sealed and the victim is 
provided medical care and guest care if needed. The suspect is located 
and any other places where evidence may be found are secured. Written 
statements are taken from the suspect, victim and witnesses. 
Photographs may be taken, provided doing so will not risk preserved 
evidence. The incident is reported to the law enforcement agency with 
jurisdiction and the statements are provided once obtained. If the 
suspect presents a continuing risk to others on board, the crew member 
will be confined either to their cabin or the brig, pending arrival of 
law enforcement (typically at a minimum, the suspect's contact with 
guests would be curtailed). Ships' records relevant to the incident are 
gathered, including CCTV images, A-Pass (door access) records, 
shipboard purchase records if relevant, etc. When law enforcement 
arrives on the ship, security meets with them and provides its relevant 
records and written statements. Space is made available for law 
enforcement use. Their investigative efforts are fully supported. 
Relevant witnesses are presented for interview and evidence sites are 
opened as requested for forensic examination. The crew member is made 
available to law enforcement. A Master's hearing will be held where the 
allegation will be evaluated and a decision made concerning the crew 
members continued employment. In all likelihood, the crew member will 
be terminated and removed from the ship, in coordination with law 
enforcement. If the crew member is not arrested, he will be handled 
according to local immigration laws. If charges are brought, the cruise 
line will provide continuing support to law enforcement and will make 
available any witnesses needed at trial. Generally, a crew member is 
not permitted to leave the ship until law enforcement responds. This 
process is generally the same when the accused is a passenger.
    The FBI may choose to exercise its investigative authority or it 
may choose to cooperate with the authorities of another nation in that 
country exercising its jurisdiction. The crewmember has probably 
violated the terms of his employment if he has even fraternized with a 
passenger, therefore he is subject to dismissal. Dismissal would 
invalidate the terms of his visa. Therefore, if the U.S. or foreign 
authorities do not choose to investigate or take the crewmember into 
custody, the cruise line must ensure, under relevant immigration laws 
that the crewmember is deported to his home of record. It is incumbent 
to have timely action by the authorities in exercising their 
jurisdiction otherwise the cruise line has little choice but to remove 
that crewmember from the United States or other country where the 
vessel is located.
    While CLIA has outlined our process above, we are concerned about 
what the source document for the statistics used (184 cases, FY 2002-2/
07, and 84 cases with the crew is the accused) comes from, as we would 
appreciate the opportunity to ensure the correct numbers are used.
                                 ______
                                 
                                Travel Industry Association
                                                      June 18, 2008
Hon. Frank Lautenberg,
Chairman,

Hon. Gordon Smith,
Ranking Member,
Subcommittee on Surface Transportation and Merchant Marine 
            Infrastructure, Safety, and Security,
Washington, DC.

Dear Chairman Lautenberg and Senator Smith:

    I write on behalf of the Travel Industry Association (TIA), the 
national non-profit organization representing 1,700 travel and tourism 
public and private entities across the country. TIA members encompass 
every sector of the diverse, $740 billion travel community and our 
mission is to promote and facilitate increased travel to and within the 
United States.
    We are aware that this is the fifth Congressional hearing over the 
last 3 years that has examined the subject of personal safety on cruise 
ships. While we feel compassion for those who have experienced a 
serious incident, the TIA believes that cruising is a very safe 
vacation option.
    The industry enjoys a customer satisfaction rating of' more then 95 
percent, a remarkably strong level of satisfaction. This information, 
combined with the fact that nearly 55 percent of cruisers are repeat 
customers, surely indicates that customers of cruising believe their 
environment is safe.
    The cruise line industry is an important economic engine for the 
United States. In 2006, according to analysis conducted by Business 
Research and Economic Advisors (BREA) the total economic benefit of the 
cruise industry in this country was 535.7 billion and direct spending 
of the cruise lines and passengers on U.S. goods and services was $17.6 
billion.
    In short, the cruise industry cares about its customers and it is 
an important. part of America's economy. We ask that this statement be 
included in the record of the hearing that will be held June 19, 2008 
by the Surface Transportation and Merchant Marine Infrastructure, 
Safety, and Security Subcommittee.
            Sincerely,
                                                 Roger Dow,
                                                 President and CEO,
                                           Travel Industry Association.
                                 ______
                                 
                          American Society of Travel Agents
                                      Alexandria, VA, June 18, 2008

Hon. Frank R. Lautenberg,
Chair,
Subcommittee on Surface Transportation and Merchant Marine 
Infrastructure, Safety, and Security,
Committee on Commerce, Science, and Transportation,
U.S. Senate,
Washington, DC.

Hon. Gordon H. Smith,
Ranking Minority Member,
Subcommittee on Surface Transportation and Merchant Marine 
Infrastructure, Safety, and Security,
Committee on Commerce, Science, and Transportation,
U.S. Senate,
Washington, DC.

Dear Chairman Lautenberg and Ranking Member Smith:

    On behalf of the American Society of Travel Agents, Inc., 
(ASTA),\1\ I request that this statement be included in the record of 
the Subcommittee's hearings, June 19, 2008 with respect to cruise 
safety issues.
---------------------------------------------------------------------------
    \1\ Founded in 1931, ASTA is the largest association of travel 
professionals. Our 20,000-plus members include travel agents and the 
companies whose products they sell such as tours, cruises, hotels, car 
rentals, etc. We are the leading advocate for travel agents, the travel 
industry and the traveling public.
---------------------------------------------------------------------------
    Travel agents today account for over 90 percent of the sales of 
cruises to United States citizens. Based on cruise industry estimates 
of North American cruise passengers in 2007, travel agents will sell 
more than 11.35 million cruise vacations this year.
    The cruise industry offers itineraries originating at numerous U.S. 
ports as well as many overseas points of departure. It is usually 
necessary for the cruise consumer to travel a considerable distance to 
take a cruise, most often by air, and travel agents typically make 
arrangements for all aspects of the trip. Today's cruise passengers 
include individuals of all ages, many families, and many people of 
diverse ethnic background.
    Taking a cruise is similar in some respects to visiting a new city. 
The largest cruise ships carry more than 3,000 passengers on a single 
sailing. Most of them will be strangers to each other.
    More than 31 million people sailed on cruise ships during the years 
2002-2005 with a little more than 200 complaints of criminal activity 
associated with the ship experience.\2\ This data indicates in 
objective terms that the risks of traveling on a cruise ship are 
minuscule. Travel agents continue to sell cruises with the highest 
confidence that the cruise environment is a welcoming and safe one 
compared to any form of travel. It is, of course, always possible to 
have a problem when away from home. The cruise passenger must exercise 
the same diligence and personal responsibility that would be expected 
when traveling by any method or when in any place where there is close 
contact with unknown persons. Cruise ships provide extensive facilities 
to facilitate protection of passenger property and to encourage 
responsible behavior by cruise passengers both on and off the ship. 
ASTA's members have no hesitancy in encouraging their best customers to 
take a cruise. Cruises typically provide one of the highest customer 
satisfaction experiences in the entire travel spectrum.
---------------------------------------------------------------------------
    \2\ The complaints included 24 missing person situations which may 
not have involved criminal conduct.
---------------------------------------------------------------------------
    At ASTA we are aware that the cruise industry works very closely 
with a number of government agencies to facilitate safety, and to be as 
responsive to consumer needs as possible. Because cruise itineraries 
frequently involve visiting a number of countries on a single voyage, 
there are a myriad of laws that apply. It is our experience that the 
industry works very hard at ensuring personal safety and security.
    If ASTA can answer any questions the Subcommittee may have on this 
subject, we would be happy to do so.
            Sincerely yours,
                                   Cheryl Corey Hudak, CTC,
                                                         President.
cc: Sen. John Kerry
                                 ______
                                 
           National Association of Cruise Oriented Agencies
                                         Margate, FL, June 16, 2008
Hon. Frank Lautenberg,
Chairman,

Hon. Gordon Smith,
Ranking Member,
Subcommittee on Surface Transportation and Merchant Marine 
            Infrastructure, Safety, and Security,
Washington, DC.

    Thank you for permitting this testimony regarding cruise ship 
safety on behalf of the members of the National Association of Cruise-
Oriented Agencies.
    In our professional assessment, cruise lines offer the safest 
vacations available to the public. A typical cruise ship is a tightly 
gated facility with security personnel, 100 percent positive 
identification for those aboard, screened and trained staff and a 
hierarchy of responsible officers who answer onboard to a single 
authority, the captain. By its nature, no other type of vacation is 
safer than this!
    Perfect safety is impossible to achieve in any human endeavor. 
Aware of this, we travel agent members of NACOA research vacations for 
clients, seeking safety excellence, quality product delivery and 
tailored affordability. Cruise lines consistently offer the best 
balance for our clients as can be attested by the decades of steady 
growth in cruise passenger numbers and the highest client repeat factor 
of any segment in the travel industry.
    One of our members cruised more than 100 times over the past twenty 
years on multiple cruise lines and dozens of ships. In addition, her 
agency placed thousands of clients on cruise ships annually. She had 
never witnessed or been informed by her agents, clients or 
acquaintances of crimes on ships committed by cruise staff. In all 
those tens of thousands of opportunities for her to learn of shipboard 
crime, only one incident happened; the theft of a camera by a cruise 
passenger. This incident was promptly investigated by ship's officers.
    In this day of cruise passengers sailing with their cell phones and 
laptops, the absence of bad news cannot be due to some collusion to 
hide. Clients have satellite communication access to friends and family 
throughout their cruises.
    In closing, the members of NACOA have substantial, broad personal 
knowledge of cruise ship safety issues regarding passengers. Because of 
this firsthand and anecdotal knowledge, we have the great comfort in 
placing our clients on cruise ships.
    Thank you.
            Sincerely,
                                    Donna K. Esposito, MCC,
                                                         President.
                                 ______
                                 
                                             Vacation.com 
                                      Alexandria, VA, June 18, 2008
Hon. Frank Lautenberg,
Chairman,

Hon. Gordon Smith,
Ranking Member,
Subcommittee on Surface Transportation and Merchant Marine 
            Infrastructure, Safety, and Security,
U.S. Senate,
Washington, DC.

Dear Chairman Lautenberg,

    On behalf of Vacation.com, I request that this statement be 
included in the record of the Subcommittee's hearing on cruise safety.
    Vacation.com serves a network of approximately 5,100 travel 
agencies focused on leisure travel distribution, accounting for 
approximately 30 percent of all travel agencies in North America. With 
more than $18 billion in annual sales, Vacation.com is North America's 
largest vacation selling network.
    Cruise vacations are a major part of our business and we fully 
expect the business to continue its impressive growth rate. According 
to Cruise Lines International Association (CLIA): nearly 51 million 
Americans express an interest to cruise within the next 3 years; to 
date, approximately 19.9 percent of the U.S. population has cruised; 
and the median age of those passengers is 46 years old with an average 
annual income of $93,000.
    In 2007, Vacation.com predicted some travel trends that certainly 
play into this baby boomer age group and cruise vacations. With baby 
boomers becoming more anxious to be pampered and entertained in a 
controlled environment, and cruise lines portraying cruises as 
destinations not just ships, we noticed an increase in cruise 
vacations.
    Also, family vacations will continue to grow at a faster rate than 
all other forms of leisure travel as parents and grandparents look at 
travel as a way to reunite families in a high-stress world dominated by 
demanding work responsibilities.
    Based on these predictions, Vacation.com expects cruising to 
increase in popularity. Approximately half of first-time cruisers 
become repeat cruisers and cruising is consistently rated among the 
highest satisfaction levels of any vacation option.
    A ship is similar to a 24-hour secured building and provides a safe 
environment for millions of people every year. Our network of travel 
agencies believes in the cruise industry and all that it is doing to 
provide a safe and enjoyable vacation.
            Sincerely,
                                              Steve Tracas,
                                                 President and CEO.
Copy: Hon. John Kerry,  U.S. Senate
Subcommittee on Surface Transportation and Merchant Marine 
            Infrastructure, Safety, and Security
Washington, D.C.
                                 ______
                                 
                       National Business Travel Association
                                      Alexandria, VA, June 18, 2008

Hon. Frank Lautenberg,
Chairman,
U.S. Senate,
Committee on Commerce, Science, and Transportation,
Subcommittee on Surface Transportation and Merchant Marine 
Infrastructure, Safety, and Security,
Washington, DC.

Hon. Gordon Smith,
Ranking Member,
U.S. Senate,
Committee on Commerce, Science, and Transportation,
Subcommittee on Surface Transportation and Merchant Marine 
Infrastructure, Safety, and Security,
Washington, DC.

Dear Subcommittee Chairman Lautenberg and Ranking Member Smith:

    The National Business Travel Association (NBTA) represents over 
4,000 corporate and government travel managers, meeting professionals, 
and travel service providers, who collectively manage and direct more 
than $170 billion of expenditures within the business travel industry. 
NBTA members frequently organize and conduct corporate events and 
conferences onboard cruise ships operating from the United States and 
throughout the world. Events conducted on cruise ships are a growing 
portion of our member's business and represent excellent venues for 
networking and educational opportunities in a pleasant and 
accommodating atmosphere.
    We are aware that this is the fifth Congressional hearing in the 
past 2 years dealing with the subject of personal security on cruise 
ships. While instances of crime can occur in virtually any aspect of 
daily life as well as vacation settings, I can tell you that our 
membership has no concerns with booking cruise ships for corporate 
events.
    The best bellwether is the public and travel community's confidence 
in cruising. Passengers for North American cruises are increasing 
annually at about 9 percent over the prior year's number. This 
significant rate of growth is testament to passengers' satisfaction 
with the cruise experience.
    We ask that this statement be included in the record of the 
Subcommittee's hearings, June 18, 2009 regarding cruise safety issues.
    I am at your disposal for further information on this subject.
            Sincerely yours,
                                           William Connors,
                    Executive Director and Chief Operating Officer.
cc: Hon. John Kerry
                                 ______
                                 
                                            Cruise Planners
                                                      June 19, 2008
Hon. Frank Lautenberg,
Chairman,

Hon. Gordon Smith,
Ranking Member,
Subcommittee on Surface Transportation and Merchant Marine 
            Infrastructure, Safety, and Security,
U.S. Senate,
Washington, DC.

Dear Chairman Lautenberg,

    I request that this statement, on behalf of Cruise Planners, be 
included in the record of the Subcommittee's hearing for June 19, 2008 
on keeping Americans safe at sea.
    Cruise Planners is a consortium of approximately 700 agencies 
located throughout the United States. These agencies are leisure and 
cruise-oriented, meaning that they specialize in providing quality 
holidays for Americans on vacation. While their main focus is on 
cruising, they do sell a good amount of land-based vacations including 
packaged tours and resort stays internationally. We negotiate on their 
behalf with major travel suppliers for more advantageous business terms 
including marketing, technology, training, communication, promotions 
and commissions.
    I believe I have a unique perspective in order to comment on the 
safety and security of Americans on cruise ships, and I absolutely 
believe that Americas are safe at sea. Cruising enjoys a 95 percent 
customer satisfaction rating and more than 50 percent of cruisers are 
repeat customers.
    Yes, there have been isolated incidents with crimes against 
Americans onboard cruise ships, more often caused by other Americans, 
and the cruise industry has not been perfect in the past as there have 
been instances between crew members and passengers, but in reality, 
statistics absolutely reinforce the fact that over 99.9 percent of 
American cruise travelers return safely.
    I think it is a worthy cause for the Senate to make sure that the 
cruise industry is doing all they can to ensure cruise passenger 
safety, but I can also say that in all my years, I have only seen an 
industry that has strived to keep their passengers safe and sound and 
have reacted quickly to correct any problems with their crew, vessels 
or policies. Their life blood is the traveling American public, and 
they're not about to jeopardize it.
    Today, I speak on behalf of my 700 independent travel agencies when 
I ask you to consider that for many years, our member agencies have 
been enjoying the business they continually receive from satisfied, 
repeat cruisers. Our future is based on this success, and we have never 
hesitated to promote cruising as anything but a safe vacation option.
            Regards,
                                         Michelle Fee, CTC,
                                                               CEO.
CC: Hon. John Kerry
Washington, D.C.
                                 ______
                                 
                   American Association of Port Authorities
                                      Alexandria, VA, June 19, 2008
Chairman Frank Lautenberg,
Subcommittee on Surface Transportation and Merchant Marine 
            Infrastructure, Safety, and Security,
Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Chairman Lautenberg:

    On behalf of the American Association of Port Authorities (AAPA), I 
request that this statement be included in the record of the 
Subcommittee's hearing of June 19, 2008, on cruise ship safety. AAPA 
represents the leading port authorities in the Western Hemisphere and 
our comments today reflect the views of our U.S. members who manage or 
lease cruise facilities in the U.S.
    Cruising is a very dynamic and growing sector of the travel and 
tourism industry. It has become a major contributor to economic growth 
in the United States contributing $ 35.7 billion and creating over 
354,000 American jobs in 2006.
    The cruise industry offers itineraries originating at numerous U.S. 
ports as well as many overseas points of departure. It is usually 
necessary for the cruise consumer to travel a considerable distance to 
take a cruise, most often by air, and they frequently stay at local 
hotels and frequent local tourist attractions prior to or after their 
cruises. Most consumables are sourced in the U.S. market and U.S. 
travel agents typically make arrangements for all aspects of the trip. 
Today's cruise passengers include individuals of all ages, many 
families, and many people of diverse ethnic backgrounds.
    Taking a cruise is similar in some respects to visiting a new city. 
The largest cruise ships carry more than 3,000 passengers on a single 
sailing. Most of them will be strangers to each other.
    The data reported at previous Congressional hearings indicates in 
objective terms that the risks of traveling on a cruise ship are 
minuscule. Travel agents continue to sell cruises with the highest 
confidence that the cruise environment is a welcoming and safe one. It 
is, of course, always possible to have a problem when away from home. 
The cruise passenger must exercise the same diligence and personal 
responsibility that would be expected when traveling by any method or 
when in any place where there is close contact with unknown persons. 
Cruise ships provide extensive facilities to facilitate protection of 
passenger property and to encourage responsible behavior by cruise 
passengers both on and off the ship.
    At AAPA, we are aware that the cruise industry works very closely 
with a number of government agencies to facilitate safety, and be as 
responsive to consumer needs as possible. Because cruise itineraries 
frequently involve visiting a number of countries on a single voyage, 
there are a myriad of laws that apply. It is our experience that the 
industry works very hard at ensuring personal safety and security. We 
are also aware of a number of recent efforts to enhance the response to 
cruise passengers if an unfortunate incident were to happen.
    We appreciate this opportunity to express the views of the public 
port industry related to cruise safety. We are committed to work with 
industry to ensure a safe and fun vacation experience.
            Sincerely yours,
                                             Kurt A. Nagle,
                                                         President.
                                 ______
                                 
                                 Bahamas Maritime Authority
                                      London EC2N 7AR, 19 June 2008
Hon. Frank Lautenberg,
Chairman,

Hon. Gordon Smith,
Ranking Member,
Subcommittee on Surface Transportation and Merchant Marine 
            Infrastructure, Safety, and Security,
U.S. Senate,
Washington, DC.

Dear Chairman Lautenberg:

    In March of this year as Director and Chief Executive Officer of 
the Bahamas Maritime Authority, I had the privilege and pleasure of 
attending a breakfast meeting with the Congressman Cummings which was 
arranged by Dick Fredricks and Jim Lawrence during the Connecticut 
Maritime Association Conference.
    The breakfast with the Congressman was most interesting with robust 
and open dialogue amongst all participating. I particularly agreed with 
his messages about measuring and improving ones own performance rather 
than competing with others and also how we should recognize and learn 
everyone else's role in the performance or as in our industry the 
``chain of responsibility'' as on our own we arc of little value but 
being part of a strong chain have great strengths.
    I recall also listening to Admiral Allen and the Congressman as 
they informed us about the growth of the Coast guard and the investment 
being allocated. This is all good news.
    I was also delighted to participate in a panel discussion with 
Admiral Watson and a ``Galaxy of Captains'' from the USCG when they 
represented the U.S. as a ``port State'' and I represented the position 
of the Bahamas as a ``Flag State.'' This conference session was well 
attended and the audience were able to get a greater understanding of 
where the responsibility lie (our respective roles) in the `chain of 
responsibility' for safety and security in shipping.
    The Bahamas Maritime Authority is a ``quasi'' government body which 
has the ``Flag State'' and ship registration responsibilities on behalf 
of the Government of the Commonwealth of the Bahamas.
    Our register is the World's third largest with some 1700 ships and 
we currently have some 80 large international passenger ships. As an 
``open'' registry we are an active delegation at IMO, are elected 
members of the IMO Council a signatory to UNCLOS and many IMO 
conventions which have the force of law in the Bahamas.
    We are a large international registry, but instead of focusing on 
number of ships registered with the Bahamas, we focus on quality 
operators. We frequently turn down applicants to the Bahamian registry, 
because they do not meet our quality standards. I believe you will find 
that Bahamian registered vessels have an excellent safety record and 
our flag is on every port state control MOU white list in the world 
today.
    We are a Nation with a well established legal system that protects 
the rights of people as well as their safety. It is recognized that the 
Bahamian penal code in many ways to be equal to that of the United 
States albeit based upon the British system. The Bahamian law does 
extend to vessels flying the Bahamian flag. We have this year appointed 
High Commissioner Farquharson the former Commandant, of the Royal 
Bahamas Police Force to be our permanent representative at IMO and a 
Superintendent of Police in Nassau to be our point of contact for 
Maritime Enforcement. This demonstrates and underscores our commitment 
to security in the maritime field.
    We all know that vessels of various flags ply the four corners of 
this planet, and frequently it would be very difficult for Bahamian law 
enforcement officials to investigate and apply Bahamian law aboard a 
vessel sailing thousands of miles away. The Bahamas also has 
extradition treaties with a limited number of countries which means 
even though suspected perpetrators can be identified, bringing them to 
justice may prove impossible. It is equally difficult for U.S. law 
enforcement officials to do so on U.S. flag vessels operating in remote 
locations. In such cases, we have situations where the law of local 
countries can be applied or even agreements where by agreement U.S. 
officials may assist Bahamian officials in investigating and applying 
Bahamian law. Even in the territorial waters of the Bahamas, U.S. law 
enforcement assets and officials assist Bahamian law enforcement 
officials in enforcing Bahamian or U.S. law pursuant to mutual 
cooperation agreements, particularly in the areas of drug and 
immigration enforcement. I know of no policy restrictions in the 
Bahamas on extending such mutual cooperating to those instances where 
U.S. citizens are involved in other alleged criminal acts. I would be 
pleased to work on such agreements with the relevant agencies of both 
governments.
    As a practical matter, today passenger ships that have incidents 
involving U.S. citizens routinely notify both the Bahamian and U.S. 
governments. I know of no case where the Bahamian government has stood 
in the way of U.S. law enforcement officials investigating or 
prosecution of crimes occurring onboard passenger ships. The safety and 
security record of passenger ships flying the Bahamian flag is 
excellent. I believe this is in no small part due to the cooperative 
relationship of the major trade association the Cruise Lines 
International Association (CLIA) with agencies of the U.S. Government 
and with my agency the Bahamas Maritime Authority. I deeply respect the 
proactive approach of the passenger vessels on the matters of vessel 
and personal safety and security.
    I thank you for the opportunity to include these comments in the 
record of your hearing and would be pleased to answer any questions you 
may have relating to this information.
            Respectfully,
                                            Kenneth McLean,
                                                  Director and CEO,
                                            Bahamas Maritime Authority.
CC: Hon. John Kerry
Washington, D.C.

                                  <all>

</pre></body></html>
